<html>
<title> - NASA'S FISCAL YEAR 2006 BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                        NASA'S FISCAL YEAR 2006
                            BUDGET PROPOSAL

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 17, 2005

                               __________

                            Serial No. 109-5

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
98-564                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   BRIAN BAIRD, Washington
TOM FEENEY, Florida                  JIM MATHESON, Utah
BOB INGLIS, South Carolina           JIM COSTA, California
DAVE G. REICHERT, Washington         AL GREEN, Texas
MICHAEL E. SODREL, Indiana           CHARLIE MELANCON, Louisiana
JOHN J.H. ``JOE'' SCHWARZ, Michigan  VACANCY
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY


                            C O N T E N T S

                           February 17, 2005

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    11
    Written Statement............................................    12

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Committee on Science, U.S. House of Representatives............    13
    Written Statement............................................    16

Statement by Representative Ken Calvert, Chairman, Subcommittee 
  on Space and Aeronautics, Committee on Science, U.S. House of 
  Representatives................................................    18
    Written Statement............................................    19

Statement by Representative Mark Udall, Minority Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    19
    Written Statement............................................    20

Prepared Statement by Representative Vernon J. Ehlers, Member, 
  Committee on Science, U.S. House of Representatives............    21

Prepared Statement by Representative J. Randy Forbes, Member, 
  Committee on Science, U.S. House of Representatives............    21

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    22

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    23

Prepared Statement by Representative Michael M. Honda, Member, 
  Committee on Science, U.S. House of Representatives............    23

Prepared Statement by Representative Lincoln Davis, Member, 
  Committee on Science, U.S. House of Representatives............    23

Prepared Statement by Representative Russ Carnahan, Member, 
  Committee on Science, U.S. House of Representatives............    24

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Committee on Science, U.S. House of Representatives............    24

Prepared Statement by Representative Jim Matheson, Member, 
  Committee on Science, U.S. House of Representatives............    25

                                Witness:

Frederick D. Gregory, Deputy Administrator, National Aeronautics 
  and Space Administration (NASA)
    Oral Statement...............................................    26
    Written Statement............................................    28
    Biography....................................................    35

Discussion
  ISS Research...................................................    36
  Remaining Shuttle Flights......................................    37
  Project Prometheus.............................................    38
  Crew Exploration Vehicle.......................................    39
  NASA's Proposed Iran Nonproliferation Act Remedy...............    39
  Launch Vehicle for the Crew Exploration Vehicle................    40
  Soyuz and the Iran Nonproliferation Act........................    41
  NASA Workforce.................................................    42
  Buyouts........................................................    43
  Space Shuttle Flight Manifest..................................    44
  Alternatives for International Space Station Construction......    45
  Crew Exploration Vehicle Development...........................    46
  Future of NASA Workforce.......................................    47
  NASA Budget and Safety.........................................    48
  Space Shuttle and Crew Exploration Vehicle Safety Modifications    49
  Space Shuttle Return-to-Flight Safety Modifications............    51
  Possibilities for a Shuttle Servicing Mission to Hubble........    51
  International Space Station Safe Haven Capability..............    54
  Risk Assessment and Safety.....................................    56
  Hubble and the Future of NASA Astronomy........................    57
  Center Transformation and the NASA Workforce...................    59
  NASA Full Cost Accounting......................................    60
  NASA Priorities and Roadmapping................................    61
  Future of the International Space Station Without the Space 
    Shuttle......................................................    63
  Cost Estimates for the Development of the Crew Exploration 
    Vehicle......................................................    64

             Appendix 1: Answers to Post-Hearing Questions

Frederick D. Gregory, Deputy Administrator, National Aeronautics 
  and Space Administration (NASA)................................    68

             Appendix 2: Additional Material for the Record

National Aeronautics and Space Administration President's FY 2006 
  Budget Request.................................................   112

NASA FY 2006 Budget Request Summary..............................   113

The New Age of Exploration: NASA's Direction for 2005 and Beyond, 
  February 2005, National Aeronautics and Space Administration...   136


 
                NASA'S FISCAL YEAR 2006 BUDGET PROPOSAL

                              ----------                              


                      THURSDAY, FEBRUARY 17, 2005

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:06 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                        NASA's Fiscal Year 2006

                            Budget Proposal

                      thursday, february 17, 2005
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, February 17th at 10:00 a.m., the Committee on Science 
will hold a hearing on the National Aeronautics and Space 
Administration's (NASA) Fiscal Year (FY) 2006 budget proposal. The 
hearing will examine NASA's plans and programs and the rationale for 
the funding levels proposed in the agency's budget.
    In January 2004, the President announced a new Vision for Space 
Exploration. The President's plan can be seen as having three distinct, 
but related aspects. The first aspect concerns current human space 
flight programs. The President proposes to complete construction of the 
International Space Station (ISS) by 2010 and to retire the Space 
Shuttle at that point. ISS research is to be reconfigured to focus on 
questions related to the impact on human health of spending long 
periods in space. Under the proposal, the U.S. participation in ISS is 
slated to end around 2016, although the Administration has said that 
that date may shift. NASA has also decided to cancel the Shuttle 
mission that was needed to keep the Hubble Space Telescope in operation 
past 2007. Completing construction of the Space Station by 2010, 
enabling the Shuttle to be retired that year, is necessary to free up 
the funds needed to return to the Moon by 2020.
    The second aspect of the Vision concerns new medium-term goals for 
human space flight. The central goal is to return humans to the Moon 
between 2015 and 2020. To do this, NASA will develop a new Crew 
Exploration Vehicle (CEV), which will be tested without carrying people 
by 2008 and will carry humans into space by 2014.
    The third aspect of the Vision concerns long-range goals for the 
years past 2020. The entire plan is geared toward preparing for this 
period, but what will happen during these years is (perhaps 
necessarily) left entirely open-ended. The ultimate goals are to send 
humans to Mars and ``worlds beyond'' and to increase the commercial 
exploitation of space. The timing of future exploration is left open 
and will depend on the pace of technology development and discovery and 
the availability of funds.

Overarching Questions:

    Questions about the budget proposal basically fall into three 
categories:

        1.  SHUTTLE AND STATION: How will NASA ensure that the Shuttle 
        is retired by 2010? Will that require scaling back the Space 
        Station? How will the Space Station contribute to Space 
        Exploration?

        2.  IMPLEMENTATION OF THE EXPLORATION VISION: When and how will 
        NASA determine the specific goals for the CEV? Will the 
        development costs of the CEV stay within budget projections?

        3.  OVERALL NASA BUDGET: To what extent should other portions 
        of the NASA budget (Earth Science, Space Science, Aeronautics) 
        be cut to free up funds for human space programs? What would 
        the impact be of the proposed cuts in these areas?

Witness:

Mr. Frederick D. Gregory is the NASA Deputy Administrator. He is 
expected to be named Acting Administrator once the resignation of Sean 
O'Keefe is officially effective on Feb. 18.

Budget Highlights:

    NASA's budget request for FY06 is $16.5 billion, an increase of 2.4 
percent over the $16.1 billion provided in FY05. (The FY05 level does 
not include the $126 million emergency supplemental provided to fix 
facilities damaged from last year's hurricanes.) While this year's 
increase for NASA is larger than that for most other agencies, NASA's 
overall the budget is $546 million less than the 4.7 percent by which 
its budget was projected to grow in last year's budget documents.
    The Vision for Space Exploration continues to be the priority in 
NASA's budget. The Space Shuttle and Space Station continue to bulk 
large in the budget, together accounting for 39 percent of the proposed 
NASA budget for FY06. Development of the CEV would jump in the FY06 
budget by more than 500 percent, from $140 million in FY05 to $753 
million in FY06, as work on the vehicle gets underway in earnest to 
allow for an unmanned test in 2008. In general, no element of NASA's 
budget related to exploration is proposed for a cut in FY06 for reasons 
of budget stringency, although a few areas are cut either because new 
cost estimates are lower than previous ``placeholder'' numbers or 
because of problems with specific projects. The primary example of the 
latter is the reduction in Project Prometheus, which is working to 
develop nuclear propulsion techniques. NASA has decided not to move 
ahead now with the Jupiter Icy Moons Orbiter (JIMO) as a first test of 
Project Prometheus technology because it was proving to be too complex 
and expensive. NASA is reviewing options before deciding what mission 
to substitute for JIMO as a test. Funding for research aboard the Space 
Station is proposed for a cut as NASA reorients the program toward 
research on human physiology.
    The budget does propose cuts to programs that are not related to 
the Vision, including Earth Science, Aeronautics and some portions of 
Space Science. The proposed cuts in these areas along with a 
reassessment of NASA's personnel needs for exploration is leading NASA 
to consider reducing its workforce by as many as 2,000 people, through 
layoffs if necessary.
    A Senate-requested study by the Congressional Budget Office last 
year determined that if costs for the Exploration Vision grew at the 
same pace as costs for previous NASA projects, the Vision could cost as 
much as $32 billion to $61 billion more than has been estimated by 
2020. CBO did not assess the likelihood of such an escalation 
occurring.
    In FY05, as part of the Omnibus Appropriations Act, Congress 
provided NASA with its full funding request, an increase of more than 
five percent from FY04, and gave NASA flexibility in allocating the 
money. The Appropriations Act did seek to limit spending on the Lunar 
Robotic Orbiter, scheduled to launch in 2008, but NASA has chosen to 
provide full funding for the project. The Act also provided funding for 
a robotic servicing mission to the Hubble, which NASA is now canceling. 
Congress has not yet had a specific vote or debate on the President's 
Vision, and the report accompanying the Appropriations Act asked for 
numerous reports to fill in details about the Vision.

Issues:

When will the Space Shuttle return to flight? The Shuttle is currently 
slated to return-to-flight in May or June of this year, after having 
been grounded for more than two years since the Feb. 1, 2003 loss of 
the Columbia. NASA has been working to implement the recommendations of 
the Columbia Accident Investigation Board (CAIB) and its efforts are 
being reviewed by a NASA-appointed group, the Stafford-Covey Task 
Force. The Task Force has determined that, so far, NASA has 
successfully completed work on six of the CAIB's 15 recommendations for 
returning to flight. NASA officials and the Task Force appear 
cautiously optimistic that NASA will be able to stick to the May-June 
schedule even though NASA will probably not have developed a repair 
capability for the Shuttle's tiles by then. NASA officials and Task 
Force members have expressed concern, however, that NASA could learn of 
problems during a successful first flight that could complicate future 
launches. The Shuttle will be under intense scrutiny during that 
flight, and since the Columbia disaster NASA engineers have learned of 
more aspects of Shuttle flights that need to be monitored (like the 
foam shedding that brought down the Columbia) because they could 
imperil the vehicle. NASA estimates that returning the Shuttle to 
flight will cost about $762 million more in FY05 than had been 
requested originally.

How many more Shuttle flights are needed to complete the Space Station? 
NASA has flown 16 Shuttle missions to the ISS so far and currently 
estimates that another 28 are needed to complete its construction. 
Doubts have been raised inside and outside NASA that 28 flights could 
be competed in time to retire the Shuttle by 2010. As a result, NASA is 
in the process of reviewing its options to reduce the number of flights 
(see more below), including by scaling back the Space Station and by 
using other vehicles for logistic and crew missions for which the 
Shuttle is not required. NASA officials have suggested that the number 
of flights could be reduced to 23 and perhaps to as few as 16 with 
changes to the Space Station. Also, the Shuttle is required to ferry 
large replacement parts to the Station, such as gyroscopes, as they 
wear out. If the Station is to remain in use until around 2016, the 
Shuttle will have to launch and pre-position in space, large 
replacement parts before the Shuttle is retired.

What is the future of the Space Station, and how will it contribute to 
the program to go to the Moon and Mars? The President's Vision called 
for research on the Space Station to be reoriented from a range of 
biological and physical research projects to a narrower, more focused 
agenda researching matters necessary to keep humans alive and healthy 
during long stays in space. NASA now expects to have a review completed 
by the end of this month of how the Station could contribute to space 
exploration. The two greatest human health issues involve the effects 
of low gravity and the effects of radiation. Radiation research is 
better conducted on Earth than on the ISS, and NASA has a facility for 
that purpose at the Brookhaven National Laboratory in New York. The 
question then is what kinds of research can be done on the Station to 
learn how to mitigate the effects on the body of low gravity and 
whether that research can be conducted only on the Station. A related 
question is whether enough astronauts can serve on the ISS long enough 
for statistically sound conclusions to be reached before the Station is 
retired. NASA is seriously considering scaling back the Station to 
eliminate projects that may not be required to understand how 
astronauts could spend long periods on the Moon. NASA may cancel the 
centrifuge being built for the U.S. by the Japanese that was to study 
the effects on animals of low gravity. While in the past, the 
centrifuge was described as perhaps the most useful piece of scientific 
equipment designed for the Station, NASA is now beginning to argue that 
it needs human rather than animal research and that the centrifuge 
research is more relevant to a Mars mission than to a lunar one. Once 
NASA determines how it will use the Station, it will then determine how 
many Shuttle flights will be needed to complete the Station and when 
they will be needed. That review is expected to be completed late this 
spring.

Will Americans still be able to use the Space Station effectively after 
next April when our agreement with the Russians expires? NASA faces a 
legal hurdle next year that could prevent any effective utilization of 
the Space Station after next April. The U.S. is dependent on the 
Russians for crew rescue capability, which is provided by Russian Soyuz 
vehicles. The Shuttle is not capable of remaining docked at the Station 
for long enough stays to provide this service, and U.S. regulations 
prevent astronauts from being aboard the Station if there is no rescue 
capability. But under the Iran Nonproliferation Act (INA), the U.S. is 
forbidden to provide the Russians with cash or services under a new 
agreement unless the President certifies that the Russians are not 
proliferating nuclear technology from Iran--a certification the 
President is highly unlikely to make. NASA has no known alternative 
plans for providing a crew rescue capability beyond buying such 
services from the Russians. The matter is currently the subject of an 
interagency review, and the Administration is expected to send up an 
amendment to the INA, perhaps as early as next month. It is unclear how 
Congress would react to such a proposal with Iran being such a focus of 
attention in foreign policy. The International Relations Committee, 
which shares jurisdiction with the Science Committee over the Act, has 
been a strong proponent of the Act. If Congress fails to amend the INA, 
the U.S. would not be able to use the Soyuz as a rescue vehicle or to 
use Russian Soyuz and Progress vehicles to ferry astronauts and cargo, 
respectively, to and from the Station to limit the use of the Shuttle.

Will the Space Station program exceed the Congressional cost cap? 
Another legal hurdle facing the ISS program is the $25 billion cost cap 
for ISS development set by Congress. (The cap only applies to ISS 
development costs and does not include costs for operations, Shuttle, 
and research.) The original cost estimate for ISS development in 1993 
was $17.4 billion. In 1998, NASA announced an increase to $21.3 
billion. As a result, NASA asked an outside task force to evaluate the 
cost and schedule credibility of the ISS program. The task force 
estimated the development cost of the ISS, given the configuration at 
the time, at $24.7 billion. Congress then set a $25 billion cost cap on 
the ISS in the NASA Authorization Act of 2000 (P.L. 106-391). According 
to NASA's FY06 budget request, the ISS will exceed the Congressional 
cost cap in FY05. NASA is likely to request legislative relief from the 
existing cost cap.

How is NASA proceeding with development of the CEV? NASA intends to 
issue a Request for Proposals for companies interested in developing 
the CEV in March. Then toward the end of FY05, NASA intends to select 
two teams to prepare prototypes of a CEV. As a result, large-scale 
spending on the CEV is slated to begin in FY06. NASA has described its 
budget request for CEV for FY06 as something of a ``placeholder'' 
because no contract has yet been let. NASA has estimated total 
development costs for the vehicle at about $15 billion. NASA is moving 
ahead with contractor awards without settling many of the questions 
concerning the vehicle, and, indeed, will leave some of these questions 
to two contractor teams that will design the vehicle. Among the key 
open questions are whether the CEV will be able to dock with or service 
the Space Station and the number of crew members it will be able to 
carry. Relatedly, NASA has not yet decided what astronauts will do once 
they get to the Moon. Some of those decisions will have to await the 
data gathered by the Lunar Robotic Orbiter, due to be launched in 2008, 
which will gather data on potentially landing sites and the 
availability of resources on the Moon, including water.

What launch vehicle will the CEV will require? NASA has also not yet 
decided what vehicle to use to launch the CEV. It could choose to 
launch the CEV into space on top of an expendable rocket like the 
Defense Department uses to launch satellites, although alterations 
might need to be made to such a rocket for it to be considered 
sufficiently safe for human launches. Or NASA may choose to develop a 
launch vehicle based on the components of the Space Shuttle. 
Alternatively, it may choose to develop an entirely new vehicle, 
although that would probably increase the costs for the Vision beyond 
current estimates.
    NASA must make a decision soon, especially if the agency chooses a 
Shuttle-derived design, because it must work to keep open production 
lines for Shuttle components beyond the point when they would otherwise 
be needed. The President's recently released Space Transportation 
Policy directs that NASA's decision be made jointly with the Department 
of Defense. NASA anticipates that it will conclude its study of launch 
vehicle options and submit its decision for interagency review sometime 
in the next few months.

How will the Vision affect NASA's science and aeronautics programs? 
NASA considers planetary science (such as robotic missions to Mars) as 
part of the exploration program. But other areas of Space Science, such 
as those more related to astrophysics, and all of Earth Science are not 
considered NASA priorities in the FY06 budget, although they continue 
to receive significant funding. The proposed changes in these areas are 
highlighted in the budget details in the next section of this charter. 
The FY06 budget calls for a significant paring back of aeronautics 
research, refocusing the program, and reducing funding to $850 million, 
down $250 million from FY04. NASA has requested adequate funding to 
preserve the launch date of 2011 for the James Webb Telescope, the 
successor to the Hubble Space Telescope.

What is the future of the Hubble Space Telescope? The budget request, 
in effect, allows the Hubble Space Telescope to die, as funding is 
included only to continue work on a de-orbiting mission; no funds are 
included for servicing. The Committee recently held a hearing to 
examine the options for the Hubble, of which there are basically four, 
each of which arguably cost in the range of $2 billion:

        <bullet>  Do not service the telescope. The telescope will then 
        cease to function as early as 2007. NASA does have other space 
        telescopes in orbit and others are planned to be launched in 
        2011, but none has the same capabilities as Hubble.

        <bullet>  Send the Shuttle to service the telescope. This is 
        the recommendation of the National Academy of Sciences. Like 
        any Shuttle mission, this would put astronauts at risk. It 
        would also delay completion of the ISS.

        <bullet>  Send a robotic mission to service the telescope. 
        There is wide disagreement as to whether this mission could be 
        ready in time. The National Academy of Science concluded it 
        could not, but those involved in the robotic effort believe it 
        can be done in time.

        <bullet>  Launch a new ``platform'' with the equipment that was 
        designed to be added to the Hubble (this is sometimes called 
        ``rehosting'') and perhaps include new equipment as well. This 
        would leave a gap in Hubble science, as the new platform would 
        probably not be ready until after the Hubble stopped operating.

Details of NASA's FY06 Budget:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Space Operations
    The primary programs within Space Operations are the ISS and the 
Space Shuttle, which together make up almost 40 percent of NASA's 
budget. The FY06 budget request for ISS and Space Shuttle totals $6.4 
billion, up $169 from FY05 and $945 million from FY04.
    Funding for the Shuttle would decline from nearly $5 billion in 
FY05 to $4.5 billion in FY06 as NASA finishes paying for the increased 
costs associated with returning the Shuttles to flight. NASA says that 
it will not know whether it will need to make adjustments to its FY06 
request for Shuttle until after the Shuttle returns to flight and the 
agency can assess whether additional work must be done to ensure the 
vehicles' safety. Also, NASA has indicated that the funding levels 
proposed for the years beyond FY06 (see attached table) are ballpark 
estimates and could rise as NASA develops a better understanding of the 
costs associated with retiring the Shuttle.
    The large increases in the Shuttle program from FY04 to FY05 were 
due to the escalating costs of returning the Shuttles to flight, 
expected this spring. The current launch window for return-to-flight is 
May 12th through June 3rd.

Exploration Systems
    Funding for Exploration Systems--which includes funding for the 
human Moon mission, including the CEV, and for the development of 
nuclear reactors for use in space and on other planets--would grow by 
nearly half a billion dollars from FY05 to $3.165 billion under the 
request. The CEV would grow from $140 million in FY05 to $753 million 
in FY06. Meanwhile Prometheus, NASA's nuclear reactor program, would be 
cut from $432 million in FY05 to $320 million in FY06.
    The Administration has described its FY06 request for the CEV 
program as something of a ``placeholder'' while the program continues 
to be defined. The funding level requested for Prometheus is a 
placeholder, as well, as NASA recently announced that it was scrapping 
its plan to send a nuclear-powered robotic mission to Jupiter's icy 
moons (an orbiter known as JIMO) and is instead conducting a complete 
review of its nuclear program. The agency says that the analysis will 
help it to determine how Prometheus might fit into the Vision and what 
kind of mission might provide the best opportunity to demonstrate its 
capabilities. In the meantime, JIMO is on hold, sidelining a mission 
that included investigations of the Jovian moon Europa, the number one 
priority among scientists, according to the latest National Academy of 
Sciences decadal survey of astronomy priorities.
    The budget requests $34 million for NASA's prize program, called 
Centennial Challenges, up from $9.7 million appropriated for FY05. NASA 
needs authorization from Congress to move forward with prizes greater 
than $250,000.
    NASA proposes to shift into the Exploration Systems account what 
was previously the Biological and Physical Research (BPR) program, now 
called Human Systems Research and Technology. The program funds 
research aboard the ISS. The program has been restructured numerous 
times over the past several years. The budget proposes a $198 million 
or 20 percent decrease from FY05 levels to $806 million as NASA 
determines the future of the program.
Science
    Funding for Earth and Space Science programs, which NASA proposes 
to combine into a single Science account for FY06, is only slightly 
down from FY05, but several hundred million below the level NASA 
projected last year that it would need. To accommodate the addition 
last year of the Lunar Reconnaissance Orbiter (LRO) mission, which will 
orbit the Moon to gather data in advance of a human mission, a number 
of Space Science and Earth science programs have been delayed or cut. 
As the LRO mission ramps up the amount of funding required, it is 
expected to have a larger effect on other space and Earth science 
missions unless the overall level of funding for science grows 
accordingly.
    Last year, NASA announced that it would delay the launch of the 
Joint Dark Energy Mission (JDEM), a mission NASA had planned to carry 
out together with the Department of Energy to explore the nature of 
dark energy. Scientists believe that understanding dark energy has the 
potential to fundamentally alter our understanding of the universe.
    The following are changes NASA proposes to make in this year's 
budget:

        <bullet>  Cut to Earth Science: The budget cuts the Earth 
        Systematic Missions program by $118 million, or 40 percent 
        below FY05. As a result, NASA proposes essentially to cancel 
        the Glory mission, which the Administration believes will 
        answer critical questions about climate change. While the 
        budget continues the Global Precipitation Measurement (GPM) 
        mission, it is not clear whether enough funds are provided in 
        FY06 to allow for the planned 2010 launch. Earth scientists 
        have called GPM one of their top priorities for understanding 
        severe weather events such as hurricanes.
             Also, a mission designed to ensure that weather 
        instruments are properly tested before they are launched on the 
        Nation's next generation of weather satellites is running into 
        problems and will be delayed if it does not receive additional 
        funding.

        <bullet>  Addition to Earth Science: The budget increases funds 
        for Earth System Science Pathfinder projects by $27 million, or 
        25 percent over FY05. However, the budget documents NASA has 
        provided do not contain sufficient detail to determine which 
        programs will benefit from the increase.

        <bullet>  Change to Space Science: The proposed budget provides 
        $371 million for the James Webb Space Telescope. NASA continues 
        to hold to a launch date of the Webb to 2011. The budget for 
        Webb is an increase of $60 million over the FY05 level, but a 
        $23 million decrease from the level projected for FY06 last 
        year. It is unclear why NASA now believes the Webb Telescope 
        needs less than it had previously projected.

        <bullet>  Cut to Space Science: The budget proposes slipping 
        the Space Interferometer Mission (SIM) by two years with launch 
        now scheduled for 2012. SIM will detect Earth-like planets.

        <bullet>  Cut to Space Science: The Future New Frontiers 
        program is cut by $56 million from FY05. The budget cut will 
        delay selection of the second New Frontiers mission. The first 
        mission, called New Horizons, a mission to Pluto, is scheduled 
        to be launched next year.

Aeronautics Research
    The budget request for Aeronautics is $852 million, a decrease of 
$54 million from FY05 and $182 million below the FY04 level of $1.034 
billion. The Aeronautics program has three main components, Aviation 
Safety and Security, Airspace Systems, and Vehicle systems. NASA 
proposes to limit research within Vehicle Systems to activities related 
to noise and emissions reductions, and unmanned aerial vehicles. 
Vehicle Systems is a big user of wind tunnels, and maintaining these 
facilities puts significant pressure on the budget. NASA is proposing 
to restructure its research programs to focus on those that do not 
depend as heavily on wind tunnel tests.

Education Programs
    NASA proposes $167 million for its education programs, $2 million 
less than FY05, or a one percent cut. NASA's FY06 budget run-out 
projects that education will get cut again in FY07, bringing it down to 
$155 million where it will remain at that level through 2010.

Other Issues:

Financial Management Issues at NASA
    In three of the past four years, NASA has not been able to produce 
auditable financial statements; its financial auditors disclaimed 
opinions on NASA's financial statements for fiscal years 2001, 2003, 
and 2004. NASA's new auditors for FY 2004, Ernst & Young, reported that 
many financial management weaknesses continue to persist, including the 
following:

        <bullet>  NASA has not been able to reconcile its Fund Balance 
        with Treasury account since FY 2003. Although NASA reportedly 
        has resolved many of the errors causing a difference of almost 
        $2 billion as of September 30, 2003, Ernst & Young identified 
        unreconciled differences between NASA and Treasury of $313 
        million as of September 30, 2004.

        <bullet>  NASA lacks adequate controls to ensure that its 
        Property, Plant, and Equipment and Materials and Supplies are 
        properly valued and accounted for. As of the end of FY 2004, 
        NASA reported the value of these assets as $37.6 billion.

        <bullet>  NASA lacks an integrated financial management system, 
        as required by the Federal Financial Management Improvement Act 
        of 1996.

    In April 2000, NASA began development of its Integrated Financial 
Management Program (IFMP), consisting of nine systems or modules to 
support a range of activities, including accounting, asset management, 
contract administration, and human resource management. The Core 
Financial module, considered the backbone of IFMP, was implemented in 
2003. However, the Government Accountability Office (GAO) reported that 
NASA did not follow disciplined processes in implementing this module 
and as a result, NASA has been experiencing numerous data integrity 
problems with the system. Ernst & Young recently reported that the Core 
Financial module is not integrated with certain subsidiary systems, 
does not facilitate the preparation of financial statements, and does 
not contain sufficient controls to detect and correct invalid data in a 
timely fashion. According to NASA, problems with the Core Financial 
module are the cause of $565 billion in adjustments needed to complete 
its FY 2004 financial statements.
    NASA plans to complete implementation of all nine IFMP modules by 
FY07. While NASA has estimated the life cycle cost of IFMP to be almost 
$1 billion, GAO found that this estimate does not include all costs.

Workforce
    To support the Vision, NASA has said that it needs to ``transform'' 
its workforce into a smaller force with a different set of skills than 
those possessed by its current employees. Overall, the agency aims to 
reduce its total workforce from 19,227 full-time employees in FY05 to 
18,798 in FY06, a net reduction of 429 employees.
    The total additions and reductions in staff are likely to be 
greater, however, as NASA has determined that about 2,000 of its 
employees have skills that are not well matched to the skills the 
agency now believes it needs. NASA believes that it simply no longer 
needs the skills of about 1,000 of these employees, many of them 
technicians that work in with aeronautics research facilities. NASA has 
offered voluntary buy-outs to these employees, but as of January 12, 
only 302 employees had accepted them. As of February 7, NASA has given 
its center directors approval to begin talking about the potential for 
positions to be eliminated and the news has been covered widely in 
media reports, so the number of employees taking voluntary buy-outs may 
increase.
    NASA believes the other 1,000 employees might be able to compete 
for future projects and thus retain their jobs, but that outcome is 
uncertain and it is possible that the agency would eventually resort to 
mandatory Reductions In Force (RIFs) to accomplish its workforce goals.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. We have a crisis. Someone stole the 
Chairman's gavel. As a strong advocate of clean water, I will 
gavel this. This hearing will come to order.
    I want to welcome everyone here this morning to this 
important hearing on the NASA budget. I see this hearing as the 
first in a series that will culminate in the introduction of a 
NASA authorization bill. Our goal is to get such a bill to the 
House Floor in time to influence the appropriations process. I 
know that is Chairman Calvert's goal as well, and I want to 
welcome him to his important responsibilities as Chairman of 
the Subcommittee. Last year, we were deeply engaged in that 
process behind the scenes. Now, we should be ready to go more 
public.
    I want to do an authorization bill, because I think it is 
critical that Congress have a full and open debate on the 
President's Vision for Space Exploration and the future of 
NASA, before NASA barrels ahead with the program. Congress has 
never endorsed, in fact has never discussed the vision. What we 
did do, as part of a huge omnibus bill, is provide the money to 
enable NASA to continue planning how it wants to go forward, 
but the truly critical spending commitments start in fiscal 
year 2006, so this year is when we must have the debate.
    Here are some of my current thoughts on how I would like 
that debate to come out. First, let me state clearly some 
things that I am for.
    I am for returning humans to the Moon by 2020. I am for 
moving ahead prudently but swiftly with the development of a 
crew exploration vehicle for that purpose. I am for retiring 
the Space Shuttle as soon as possible, but under absolutely no 
circumstances later than December 31, 2010. That is, 
incidentally, compatible with the Administration's position. I 
am for a NASA that sees itself as a science agency with all of 
space science, Earth science, and aeronautics receiving the 
attention and funding according to priority areas. I am for a 
NASA that is open to outside ideas from academia and the 
private sector.
    So where does that leave me on the current budget proposal? 
With the same mixed feelings I have had in the past. First, let 
me be blunt. I don't think NASA should be our top budget 
priority, either in this committee or in this Congress. That 
means in a budget as excruciating tight as this one, NASA 
probably should not get as much as the President has proposed. 
Moreover, even if NASA received every cent it has requested, it 
would still be trying to do too much at once, the historic 
pattern for the agency, as the Gehman Report noted. So 
something has to give, and this hearing will be a first step in 
looking at what that might be.
    There is one other problem we have reviewing this budget. 
There are a lot of fundamental questions that NASA still isn't 
ready to answer. That is not a criticism of the agency. That is 
just a description of where they are in the planning process, 
and we have to keep that in mind.
    What are some examples? They can't tell us what research 
will be done aboard the Station. They can't tell us how many 
more Shuttle flights will be scheduled. They can't tell us how 
they are going to get around the Iran Non-Proliferation Act. 
They can't tell us how many people the CEV will carry or 
whether it will go to the Space Station. They can't tell us 
what we might do when we go to the Moon. And they obviously 
can't tell us whether the Shuttle will once again fly 
successfully.
    Again, that is not because NASA hasn't been forthcoming. 
Quite the contrary. Top NASA officials have spent countless 
hours with us, giving direct and candid answers to a wide range 
of questions. But they can't provide answers that they don't 
yet have, and we need to understand just how much is unknown, 
the extent, for example, the cost--that cost estimates for the 
CEV and Project Prometheus are still ``placeholders.''
    So one thing I will be asking today is when some of our 
questions might be answered.
    I know some answers should be forthcoming soon. We 
understand, for example, that the Administration could send up 
in the next month or so proposed to language to amend the Iran 
Non-Proliferation Act. That is a critical matter, because the 
current law would bring the Station program to a halt by next 
April. Any proposal will be reviewed very carefully. The only 
thing I can say now, and I think the Administration agrees with 
this, is the Station is a lot less important than non-
proliferation is. I am not interested in having go into space 
because we've blown ourselves up.
    Well, with so many questions, let me just stop there. We 
have before us Fred Gregory, the Deputy Administrator of NASA, 
who has been an integral part of all the decision-making that 
went into the '06 proposal. The agency will be in good hands as 
he becomes Acting Administrator this weekend. But I am sure 
that he is as eager as anyone in this town to see an end to the 
parlor game or predicting who will be appointed when to succeed 
Sean O'Keefe. But I am as helpless as he is in bringing that 
about.
    Sean O'Keefe left the agency far stronger than he found it. 
Now, we need to decide what the next step is in creating a 
strong and productive NASA.
    Mr. Gordon.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    I want to welcome everyone here this morning to this important 
hearing on the NASA budget. I see this hearing as the first in a series 
that will culminate in the introduction of a NASA authorization bill. 
Our goal is to get such a bill to the House Floor in time to influence 
the appropriations process. I know that is Chairman Calvert's goal as 
well. Last year, we were deeply engaged in that process behind the 
scenes; now we should be ready for a public role.
    I want to do an authorization bill because I think it's critical 
that Congress have a full and open debate on the President's Vision for 
Space Exploration and the future of NASA before NASA barrels ahead with 
the program. Congress has never endorsed--in fact, has never 
discussed--the Vision. What we did do, as part of a huge Omnibus bill, 
is provide the money to enable NASA to continue planning how it wants 
to go forward. But the truly critical spending commitments start in 
FY06, so this year is when we must have the debate.
    Here are some of my current thoughts about how I'd like that debate 
to come out. First, let me state clearly some things that I am for.
    I am for returning humans to the Moon by 2020. I am for moving 
ahead prudently but swiftly with the development of a Crew Exploration 
Vehicle (CEV) for that purpose. I am for retiring the Space Shuttle as 
soon as possible, but under absolutely no circumstances later than 
December 31, 2010. I am for a NASA that sees itself as a science 
agency, with all of Space Science, Earth Science and Aeronautics 
receiving the attention and funding accorded to priority areas. I am 
for a NASA that is open to outside ideas from academia and the private 
sector.
    So where does that leave me on the current budget proposal? With 
the same mixed feelings I've had in the past. First, let me blunt, I 
don't think NASA should be our top budget priority either in this 
committee or the Congress. That means in a budget as excruciatingly 
tight as this one, NASA probably should not get as much as the 
President has proposed. Moreover, even if NASA received every cent it 
has requested, it would still be trying to do too much at once--the 
historic pattern for the Agency, as the Gehman Report noted. So 
something has to give, and this hearing will be a first step in looking 
at what that might be.
    There's one other problem we have reviewing this budget. There are 
a lot of fundamental questions that NASA still isn't ready to answer. 
That's not a criticism of the Agency. That's just a description of 
where they are in the planning process, and we have to keep it in mind.
    What are some examples? They can't tell us what research will be 
done aboard the Station. They can't tell us how many more Shuttle 
flights will be scheduled. They can't tell us how they're going to get 
around the Iran Non-Proliferation Act. They can't tell us how many 
people the CEV will carry or whether it will go to the Space Station. 
They can't tell us what we might do when we get to the Moon. They 
obviously can't tell us whether the Shuttle will once again fly 
successfully.
    Again, this is not because NASA hasn't been forthcoming. Quite the 
contrary. Top NASA officials have spent countless hours with our staff, 
giving direct and candid answers to a wide range of questions. But they 
can't provide answers that they don't yet have. And we need to 
understand just how much is unknown--the extent, for example, that cost 
estimates for the CEV and Project Prometheus are still (quote) 
``placeholders.''
    So, one thing I'll be asking today is when some of our questions 
might be answered.
    I know some answers should be forthcoming soon. We understand, for 
example, that the Administration could send up in the next month or so 
proposed language to amend the Iran Nonproliferation Act. That's a 
critical matter because the current law would bring the Station program 
to a halt by next April. Any proposal will be reviewed carefully. The 
only thing I can say now--and I think the Administration agrees with 
this--is that the Station is a lot less important than non-
proliferation is. I'm not interested in having go into space because 
we've blown ourselves up.
    Well, with so many questions pending, let me stop there. We have 
before us Fred Gregory, the deputy administrator of NASA, who has been 
an integral part of all the decision-making that went into the FY06 
proposal. The Agency will be in good hands as he becomes acting 
Administrator this weekend. But I am sure that he is as eager as anyone 
in this town to see and end to the parlor game of predicting who will 
be appointed when to succeed Sean O'Keefe. But I'm as helpless as he is 
in bringing that about.
    Sean left the Agency far stronger than he found it. Now we need to 
decide what the next steps in creating a strong and productive NASA 
should be.
    Mr. Gordon.

    Mr. Gordon. Thank you, Mr. Chairman. I would like to join 
you in welcoming Mr. Gregory to today's hearing, and I want to 
sincerely thank him for his long service to our country and to 
NASA, and to say I am very pleased that you are going to top 
this off by not just being interim, but the Acting Director for 
NASA. I think it is a position well deserved.
    You know, I feel a little embarrassed that I continually 
agree with the Chairman. The Committee--the Ranking Member is 
supposed to be raising some Cain here, but I think that our 
Chairman very well has stated what I think is the right view of 
our position, and looking at NASA now, I am very pleased that 
we are going to go forward with additional hearings, and have 
an authorization. I would have to say I disagree on the 
importance of NASA's budget. I would like to see that number 
not only stay where it is, but be increased. But again, I want 
to concur with the very good statement of our Chairman.
    I would also like to take a moment to acknowledge and 
welcome all of the new members of the Committee on both sides 
of the aisle, as well as to extend my good wishes to 
Representative Calvert and Representative Udall, as they embark 
on their responsibilities as chair and Ranking Member of the 
Space and Aeronautics Subcommittee. In those capacities, they 
will be leading the NASA-related issues on a regular basis, and 
I have no doubt they will do a good job.
    Mr. Chairman, today's hearing is likely to be one of the 
most important that we hold this session. More than a year ago 
has now--or more than a year has now passed since President 
Bush announced his Space Exploration Initiative. I for one 
support the President's proposal, but it needs to be paid for 
and sustainable. However, since the time the initiative was 
first announced, there has been little opportunity for 
Congressional scrutiny, and there has been no opportunity to 
develop a consensus on what Congress or the American people 
thinks of this initiative, which is very important if this 
Committee is to successfully convince our colleagues to 
continue its funding for several years during tight budgets.
    And while some have argued that the funding provided to 
NASA in Fiscal year 2005 omnibus appropriations constituted a 
Congressional mandate for the President's initiative, others 
would disagree. In point of fact, Congress was being asked to 
vote up or down on a $388 billion spending bill, funding a wide 
array of agencies and activities, with no opportunity for 
amendments. NASA's funding accounted for only four percent of 
the total funding of that bill, and despite the fact that NASA 
received close to its fiscal year 2005 request level, $1.5 
billion of funds provided to NASA in the omnibus are going to 
be needed to pay for things like the increase in the Shuttle 
return-to-flight costs that weren't in the original fiscal year 
2005 request.
    So it appears that we are entering this year with Congress' 
position on the Exploration Initiative still unresolved. It 
also appears that Congress is going to have to address some 
fundamental issues as we assist the President--assess the 
President's proposal, notably, what priority should the 
President's Exploration Initiative have, relative to NASA's 
other important missions? Are we prepared to maintain the 
funding and the schedule of the President's initiative, even if 
it results in the loss of opportunities in space and Earth 
science, and aeronautics research, and microgravity research 
and applications, in research into low-cost and high 
reliability launch capacities and technologies, or in other 
significant research areas?
    What role do we want NASA centers to play in the future? 
What type of workforce do we envision for NASA? In that regard, 
are we prepared to shed highly skilled scientists, engineers, 
and technicians from NASA's workforce if they do not directly 
support the requirements of the President's initiative? These 
are not idle questions. They go to the heart of what we want 
from our nation's civil space and aeronautics program. 
Moreover, I do not believe that Congress has the luxury of 
deferring considerations of these questions any longer. One 
thing is clear from NASA's fiscal year 2006 budget request and 
from recent actions taken by the agency. In the absence of any 
clear Congressional direction, NASA is proceeding to move out 
aggressively to implement the President's initiative. As a 
result, we are starting to get a clear picture of the 
Administration's vision for NASA. For example, just one year 
after President Bush launched his space initiative, the 
Administration has already started backpedaling on multi-year 
funding profile it had proposed for the agency. As a result, 
the Administration is planning to cut a total of some $2.5 
billion from the budget plan for fiscal year 2006 through 
fiscal year 2009 that had been proposed for NASA just a year 
ago.
    It is also instructive to see how NASA proposes to allocate 
the cut. It allocates 75 percent of the required cuts to NASA's 
science and aeronautics program, with just 10 percent having to 
be absorbed by NASA's exploration systems programs. What other 
clues do NASA's new priorities--are displayed in this year's 
budget request? As we have all heard, NASA is eliminating the 
funding for servicing the highly productive Hubble Space 
Telescope. NASA is cutting funding it contributes to the 
National Interagency Initiatives in nanotechnology, networking, 
information technology, and climate change science. NASA is 
eliminating funding for hypersonics research. NASA is reducing 
Space Shuttle Operation reserves in fiscal year 2006 and 2007, 
in order to support the funding requirements of the Exploration 
Initiative. NASA is cutting the funding for its science mission 
operations account, an action that will force the termination 
of some ongoing scientific spacecraft missions within the next 
year. I could cite other examples, but you get the picture.
    Contrary to the image it has fostered of a measured, go as 
you pay approach for exploration, the fact is that NASA is 
protecting the funding for its Exploration Initiative at the 
expense of other programs. I think it is reasonable to assume 
that unless directed otherwise, NASA will continue that 
approach in the future, as deficit concerns increasingly 
squeeze the agency's budgetary bottom line. And as I have 
previously stated, I am a strong supporter of exploration. I 
think it is important for our nation's human space flight 
program to be--to have a challenging, long-term goal. And I 
agree with the President that a step by step plan for 
exploration makes the best sense. At the same time, I am very 
concerned that the approach NASA is taking to exploration is 
not going to be sustainable.
    I am speaking as one who has to convince other Members of 
Congress of the value of investing in NASA at a time when a 
host of other national priorities are competing for the same 
dollars. It doesn't make my job any easier when Members see 
NASA cutting its commitment to aeronautics research that could 
reduce aircraft noise and emissions, and--or improve efficiency 
and safety of the air traffic management system, or cutting its 
commitment to research that could help us better understand the 
impact of the sun on weather and climate. Or eliminating 
research for the International Space Station that NASA has long 
asserted would benefit the health and welfare of our citizens 
back here on Earth, especially if they suspect that NASA is 
making those cuts in order to shift money to an Exploration 
Initiative whose budget doesn't match its goals.
    It becomes even more difficult when these same Members look 
at what NASA has been doing as part of its exploration 
initiative, and start asking questions such as how could NASA 
first make the Jupiter Icy Moons Orbiter mission its showcase 
flight demonstration of the initiative's nuclear technology 
program, and then wind up having to shelve it because of, and I 
quote ``concerns over cost and technical complexity.'' Well, 
why did NASA make purchasing Russia's Soyuz crew transfer and 
rescue services a basic elements of its human space flight plan 
when the current law prohibits such purchases? And now that 
NASA has done it, what is it going to do next to make it work? 
Or finally, how does NASA justify its apparent willingness to 
spend U.S. tax dollars to support European aerospace companies 
as part of the Crew Exploration Vehicle program? I don't have 
good answers to these questions, and I hope that Mr. Gregory 
will address them at today's hearing.
    Now, before I close, I would like to raise one final issue. 
NASA is starting to make sweeping changes in its workforce and 
centers, with the potential for several thousands of its 
employees to be let go, numerous facilities to be consolidated 
or done away with, and one or more of the centers to be 
privatized or even closed. Yet neither Congress nor NASA's own 
employees are being given a clear picture of what is planned. I 
don't think it is right to treat the dedicated men and women of 
NASA's workforce that way, and I don't think it is the 
appropriate way to deal with Congress.
    Mr. Chairman, we have important issues in front of us that 
need our attention. We can start to address them at today's 
hearing, but I hope that we will not stop with a single 
hearing. We need to devote whatever time and oversight effort 
is needed to chart a reasonable path for NASA, and it needs to 
be a path that is sustainable. I don't want to see us on the 
Floor of the House in a couple of years losing a vote to 
continue the program. I can still remember when the Space 
Station program avoided a similar fate by only one vote in 
1993.
    With that, I again want to welcome Mr. Gregory to today's 
hearing, and I look forward to your testimony.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    Good morning. I'd like to join the Chairman in welcoming Mr. 
Gregory to today's hearing.
    I'd also like to take a moment to acknowledge and welcome all of 
the new Members of the Committee on both sides of the aisle, as well as 
extend my good wishes to Rep. Calvert and Rep. Udall as they embark on 
their responsibilities as Chair and Ranking Member of the Space and 
Aeronautics Subcommittee. In those capacities they will be dealing with 
NASA-related issues on a regular basis, and I have no doubt that they 
will do a good job.
    Mr. Chairman, today's hearing is likely to be one of the most 
important ones we hold this Session. More than a year has now passed 
since President Bush announced his space exploration initiative.
    I for one support the President's proposal if it is paid for and is 
sustainable. However, since the time the initiative was first 
announced, there has been little opportunity for Congressional scrutiny 
or debate of the proposal. And there has been no opportunity to develop 
a consensus on what Congress thinks of the initiative, which is very 
important if this committee is to successfully convince our colleagues 
to continue its funding for several years during tight budgets.
    While some have argued that the funding provided to NASA in the 
Fiscal Year 2005 omnibus appropriation constituted a Congressional 
``mandate'' for the President's initiative, others would disagree. In 
point of fact, Congress was being asked to vote up or down on a $388 
billion spending bill funding a wide range of agencies and activities--
with no opportunity for amendments. NASA's funding accounted for only 
about four percent of the total funding in that bill. And despite the 
fact that NASA received close to its FY05 request level, $1.5 billion 
of the funds provided to NASA in the Omnibus are going to be needed to 
pay for things--like the increase in Shuttle return-to-flight costs--
that weren't in the original FY05 request.
    So, it appears that we are entering this year with Congress's 
position on the exploration initiative still unresolved. It also 
appears that Congress is going to have to address some fundamental 
issues as we assess the President's proposal, notably:

        <bullet>  What priority should the President's exploration 
        initiative have relative to NASA's other important missions?

        <bullet>  Are we prepared to maintain the funding and schedule 
        of the President's initiative even if it results in the loss of 
        opportunities in space and Earth science, in aeronautics 
        research, in microgravity research and applications, in 
        research into low cost/high reliability launch technologies, or 
        in other significant research areas?

        <bullet>  What role do we want NASA's Centers to play in the 
        future?

        <bullet>  What type of workforce do we envision for NASA?

        <bullet>  In that regard, are we prepared to shed highly 
        skilled scientists, engineers, and technicians from NASA's 
        workforce if they do not directly support the requirements of 
        the President's initiative?

    These are not idle questions--they go to the heart of what we want 
from our nation's civil space and aeronautics program. Moreover, I do 
not believe that Congress has the luxury of deferring consideration of 
these questions any longer.
    One thing is clear from NASA's FY06 budget request and from recent 
actions taken by the agency: In the absence of any clear Congressional 
direction, NASA is proceeding to move out aggressively to implement the 
President's initiative.
    As a result, we are starting to get a clearer picture of the 
Administration's vision for NASA. For example, just one year after 
President Bush launched his space exploration initiative, the 
Administration has already started back-pedaling on the multi-year 
funding profile it had proposed for the agency.
    As a result, the Administration is planning to cut a total of some 
$2.5 billion from the budget plan for FY06 through FY09 that it had 
proposed for NASA just a year ago.
    It is instructive to see how NASA proposes to allocate that cut--it 
would allocate 75 percent of the required cuts to NASA's science and 
aeronautics programs with just 10 percent having to be absorbed by 
NASA's Exploration Systems programs.
    What other clues to NASA's new priorities are displayed in this 
year's budget request?

        <bullet>  As we have all heard, NASA is eliminating the funding 
        for servicing the highly productive Hubble Space Telescope.

        <bullet>  NASA is cutting the funding it contributes to the 
        national interagency initiatives in Nanotechnology, Networking 
        and Information Technology, and Climate Change Science.

        <bullet>  NASA is eliminating funding for hypersonics research.

        <bullet>  NASA is reducing Space Shuttle operations reserves in 
        FY06 and FY07 in order to support the funding requirements of 
        the exploration initiative.

        <bullet>  NASA is cutting the funding for its science mission 
        operations account-an action that will force the termination of 
        some ongoing scientific spacecraft missions within the next 
        year.

    I could cite other examples, but you get the picture.
    Contrary to the image it has fostered of a measured, ``go as you 
pay'' approach to exploration, the fact is that NASA is protecting the 
funding for its exploration initiative at the expense of its other 
programs.
    I think it's reasonable to assume that unless directed otherwise, 
NASA will continue that approach in the future as deficit concerns 
increasingly squeeze the agency's budgetary bottom line.
    As I have previously stated, I am a strong supporter of 
exploration. I think it's important for the Nation's human space flight 
program to have challenging long-term goals. And I agree with the 
President that a step-by-step plan for exploration makes the best 
sense.
    At the same time, I'm very concerned that the approach NASA is 
taking to exploration is not going to be sustainable. I'm speaking as 
one who has to convince other Members of Congress of the value of 
investing in NASA at a time when a host of other national priorities 
are competing for those same dollars.
    It doesn't make my job any easier when Members see NASA cutting its 
commitment to aeronautics research that could reduce aircraft noise and 
emissions or improve the efficiency and safety of the air traffic 
management system, or cutting its commitment to research that could 
help us better understand the impact of the Sun on our weather and 
climate, or eliminating research on the International Space Station 
that NASA has long asserted would benefit the health and welfare of our 
citizens back here on Earth--especially if they suspect that NASA is 
making those cuts in order to shift money to an exploration initiative 
whose budget doesn't match its goals.
    It becomes even more difficult when those same Members look at what 
NASA's been doing as part of its exploration initiative and start 
asking questions:

        <bullet>  Such as, how could NASA first make the Jupiter Icy 
        Moons Orbiter (JIMO) mission its showcase flight demonstration 
        of the initiative's nuclear technology program and then wind up 
        having to shelve it because of ``concerns over costs and 
        technical complexity. . .''?

        <bullet>  Or, why did NASA make purchasing Russian Soyuz crew 
        transfer and rescue services a basic element of its human space 
        flight plan when current law prohibits such purchases? And now 
        that NASA's done it, what's it going to do next to make it 
        work?

        <bullet>  Or finally, how does NASA justify its apparent 
        willingness to spend U.S. taxpayer dollars to support European 
        aerospace companies as part of the Crew Exploration Vehicle 
        (CEV) program?

    I don't have good answers to those questions, and I hope that Mr. 
Gregory will address them at today's hearing.
    Now before I close, I would like to raise one additional issue. 
NASA is starting to make sweeping changes to its workforce and Centers, 
with the potential for several thousand of its employees to be let go, 
numerous facilities to be consolidated or done away with, and one or 
more of its Centers to be privatized or even closed.
    Yet neither Congress nor NASA's own employees are being given a 
clear picture of what is planned. I don't think that's the right way to 
treat the dedicated men and women of NASA's workforce. And I don't 
think it is an appropriate way to deal with Congress.
    Mr. Chairman, we have important issues in front of us that need our 
attention.
    We can start to address them at today's hearing, but I hope that we 
will not stop with a single hearing. We need to devote whatever time 
and oversight effort is needed to chart a responsible path forward for 
NASA. And it needs to be a path that is sustainable.
    I don't want to see us on the Floor of the House in a couple of 
years losing a vote to continue the program--I can still remember when 
the Space Station program avoided a similar fate by only one vote in 
1993.
    With that, I again want to welcome Mr. Gregory to today's hearing. 
I look forward to your testimony.

    Chairman Boehlert. Thank you very much, Mr. Gordon. The 
Chairman of the Subcommittee on Space and Aeronautics, Mr. 
Calvert.
    Mr. Calvert. Thank you, Mr. Chairman, and I--also looking 
forward to working with Mr. Udall, as I take on this--a new 
responsibility, and I would like to welcome Mr. Gregory for 
his--and his colleagues today to this important hearing, a 
hearing that will set the stage for the rest of the year. There 
are a lot of issues that we are going to cover today, so I will 
keep my remarks very brief.
    As we all know, this is a crucial time for NASA and the 
civil space program. NASA has made progress toward returning 
the Shuttle to flight, but some technical issues remain. We 
hope and believe the Shuttle will return to flight when it is 
ready and continue the assembly of the International Space 
Station. But as you said, no later than 2010, the Shuttle will 
be retired, so we can move forward with the exciting and bold 
exploration vision laid out by the President over a year ago, a 
vision that I strongly support.
    Today, it is important that we get a better understanding 
of the priorities reflected in NASA's budget proposal and 
specifics of how NASA intends to implement this vision. We also 
want to know how NASA intends to refocus its programs on the 
exploration vision while rebalancing its portfolio of science, 
aeronautics programs, since these programs are also important 
to the Nation.
    To help illuminate this issue, I plan to hold hearings 
focusing specifically on NASA's various roles, missions, and 
infrastructure. Just as important, I want to ensure that we get 
to work early to pass an authorization bill for NASA. We 
haven't passed one since 2000. I think it is important we not 
turn our responsibilities over to the appropriators as we enter 
a new era of space exploration.
    Lastly, I also look forward to the hearing on how NASA 
plans to expand, accelerate, and accommodate America's growing 
commercial and entrepreneurial spacefaring community. NASA has 
a lot on its plate. As this new Subcommittee Chairman, I look 
forward to working with all my colleagues on this committee, 
the Administration, and NASA to make sure the space program a 
success, and with that, I thank you, Mr. Chairman. I look 
forward to the hearing.
    [The prepared statement of Mr. Calvert follows:]

            Prepared Statement of Representative Ken Calvert

    Mr. Chairman, thank you. I would like to welcome Mr. Gregory and 
his colleagues today to this important hearing, a hearing that will set 
the stage for the rest of the year. There are a lot of issues we need 
to cover, so I will keep my remarks very brief. As we all know, this is 
a critical time for NASA and the civil space program. NASA has made 
solid progress toward returning the Shuttle to flight, but some tough 
technical issues remain. We hope and believe that the Shuttle will 
return to flight when it is ready and continue the assembly of the 
International Space Station. In 2010, the Shuttle will be retired, so 
we can move forward with the exciting and bold exploration vision laid 
out by the President over a year ago.
    Today, it is important that we get a better understanding of the 
priorities reflected in NASA's budget proposal and the specifics of how 
NASA intends to implement the vision. We also want to know how NASA 
intends to refocus its programs on the exploration vision while 
maintaining a balanced portfolio of science and aeronautics programs, 
since these programs are also vitally important to the Nation.
    NASA has a lot on its plate and as the new Subcommittee Chairman I 
look forward to working with my colleagues on the Committee, the 
Administration, and NASA to make sure our space program is a success.
    Thank you, Mr. Chairman.

    Chairman Boehlert. Thank you very much, Mr. Chairman. Now, 
Mr. Udall, the Ranking Member of the Subcommittee on Space and 
Aeronautics.
    Mr. Udall. Thank you, Mr. Chairman, and welcome, Mr. 
Gregory. We look forward to hearing your testimony today.
    As we all know, NASA is an important part of the Nation's 
science and technology infrastructure, and at their best, 
NASA's activities advance knowledge, inspire our youth, and 
improve the quality of life for our citizens. So it is 
important that Congress be involved in decisions on NASA's 
future, and along with my colleagues, I think this, and I know 
this hearing can be a good start toward gaining the information 
that we will need to make sure that those decisions are 
informed ones. In that regard, I look forward to working with 
Mr. Calvert in my new capacity as Ranking Member on the Space 
and Aeronautics Subcommittee to carry out additional oversight.
    Mr. Chairman, as you do, I consider myself to be a champion 
of space exploration in its broadest sense, which is the 
adventure of pushing back the boundaries of our ignorance with 
both robotic and human explorers, as well as with researchers 
in the laboratory and the observatory. I confess that I am--as 
I think we all are here, a bit troubled that the President's 
Exploration Initiative seems to be couched in terms of having 
to walk away from important research areas in science and 
aeronautics if we want to do exploration. One of those 
important research projects is, of course, the Hubble 
Telescope, which we all intend to discuss further during this 
hearing. But it is not the only one. Nevertheless, I think we 
are being presented with a false choice. We should be able to 
do both. It may require adjusting the pace of the President's 
Exploration Initiative, or making a tough love prioritization 
of the proposed exploration programs, but I believe it can be 
done. To do otherwise is to risk losing the fruits of 
investments we have made over the last 45 years to establish 
and maintain our current world class capabilities for research 
at NASA and at our universities.
    In addition, I think we should never forget that an 
important component of those world class capabilities is in the 
NASA workforce. As you may know, I have several federal 
laboratories in my district, and I have developed a keen 
appreciation for the intellectual capital that resides in those 
laboratories. And I have no doubt that similarly impressive 
intellectual capital exists at the NASA centers, though in 
contemplating changes to NASA's workforce, we should proceed 
very carefully. Change by itself is inherently neither good nor 
bad. It is just change. However, if we make precipitous changes 
to those centers without considering what the Nation will want 
from NASA in the future, we risk losing valuable skills and 
intellectual capital that we may never be able to recover.
    Now, I know that some champions of the President's vision 
want to move quickly to realign NASA to conform to that vision. 
However, as Members of Congress, I think we need to step back 
and take the broader view. We need to ask some hard questions, 
such as what do we want NASA to be? What are we asking NASA to 
contribute to our society and to our economy, and what steps do 
we need to make to ensure that NASA will retain the capacity to 
make those contributions for decades to come? It is not going 
to be easy to answer these questions. Nevertheless, it is vital 
that Congress, working with the Administration, try to answer 
them.
    With that, Mr. Chairman, I yield back the balance of my 
time, and I welcome you again, Mr. Gregory, and look forward to 
your testimony. Thank you.
    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    Good morning, and welcome Mr. Gregory--we look forward to hearing 
your testimony. As we all know, NASA is an important part of the 
Nation's science and technology infrastructure. At their best, NASA's 
activities advance knowledge, inspire our youth, and improve the 
quality of life for our citizens. So it's important that Congress be 
involved in decisions on NASA's future, and I think this hearing can be 
a good start toward gaining the information we will need to make sure 
that those decisions are informed ones. In that regard, I look forward 
to working with Mr. Calvert in my new capacity as Ranking Member on the 
Space and Aeronautics Subcommittee to carry out additional oversight.
    Mr. Chairman, I consider myself to be a champion of space 
exploration in its broadest sense--the adventure of pushing back the 
boundaries of our ignorance with both robotic and human explorers, as 
well as with researchers in the laboratory and the observatory. I 
confess that I am a bit troubled that the President's exploration 
initiative seems to be couched in terms of having to walk away from 
important research areas in science and aeronautics if we want to do 
exploration. One of those important research projects is of course the 
Hubble Telescope, which I intend to discuss further during this 
hearing, but it's not the only one.
    Nevertheless, I think we're being presented with a false choice. We 
should be able to do both. It may require adjusting the pace of the 
President's exploration initiative, or making a ``tough love'' 
prioritization of the proposed exploration programs. . .but I believe 
it can be done. To do otherwise is to risk losing the fruits of 
investments we have made over the last 45 years or more to establish 
and maintain our current world-class capabilities for research at NASA 
and at our universities across a wide range of scientific and 
technological disciplines.
    In addition, I think we should never forget that an important 
component of those world-class capabilities is the NASA workforce. As 
you may know, I have several federal laboratories in my district. I 
have developed a keen appreciation for the intellectual capital that 
resides in those laboratories. And I have no doubt that similarly 
impressive intellectual capital exists at the NASA Centers. When 
contemplating changes to NASA's workforce, we should proceed very 
carefully. Change by itself is inherently neither good nor bad--it's 
just change. However, if we make precipitous changes to those Centers 
without considering what the Nation will want from NASA in the future.. 
. . We risk losing valuable skills and intellectual capital that we may 
never be able to recover.
    I know that some champions of the President's exploration vision 
want to move quickly to realign NASA to conform to that vision. 
However, as Members of Congress, I think we need to step back and take 
the broader view. We need to ask some hard questions.. . . What do we 
want NASA to be? What are we asking NASA to contribute to our society? 
To our economy? And what steps do we need to take to ensure that NASA 
will retain the capacity to make those contributions for decades to 
come? It's not going to be easy to answer these questions. 
Nevertheless, it's vital that Congress, working with the 
Administration, try to answer them.
    With that, Mr. Chairman, I yield back the balance of my time. Thank 
you.

    Chairman Boehlert. Thank you very much, Mr. Udall.

    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    I believe that NASA's decision to abandon a Hubble telescope 
servicing mission is unwise and shortsighted. Given Hubble's tremendous 
history of scientific discovery and its continuing potential, there is 
no question as to the value of such a mission. I understand that the 
reasoning that led to this decision for decommissioning instead of a 
servicing mission is the purported safety risks to astronauts. While 
this is, of course, an important consideration, I believe the 
calculated risk does not outweigh the potential benefits of such a 
mission.
    Currently, there are 28 different missions planned by the Space 
Shuttle to the International Space Station (ISS) before the vessel's 
retirement in 2010. With a history of only two accidents in 113 Shuttle 
flights, for any single flight there is a 1.8 percent chance of 
failure. With 28 planned missions to the ISS, the cumulative risk of a 
single accident over the course of those missions is substantially 
higher (almost 40 percent). Simple mathematics shows me that one 
mission to service the Hubble telescope makes sense, given the minimal 
risk to the astronauts and the tremendous and proven scientific 
potential of the instrument. Coupled with the time that will be lost 
before another telescope is launched, decommissioning this telescope is 
clearly a questionable decision. In the case of Hubble, stewardship of 
our existing telescope is the smartest investment of our federal 
dollars.
    With a 1.8 percent risk to the astronauts of one Hubble mission, we 
get a tremendous amount of science accomplished, whereas, with the 28 
missions to the ISS there is uncertain scientific achievement coupled 
with a significantly higher risk. If NASA's goal is to conduct missions 
of the greatest scientific value and least amount of risk to 
astronauts, then clearly, a single mission to fix Hubble is the right 
decision.

    [The prepared statement of Mr. Forbes follows:]

          Prepared Statement of Representative J. Randy Forbes

    In only the last half century, space exploration and scientific 
discovery have brought an unquantifiable richness to human life. 
America's space program is a symbol of our success as a scientifically 
and technologically advanced nation. I am pleased that President Bush 
has devised a plan that seeks to advance human space exploration, 
however I am concerned that the FY 2006 Budget proposes cuts to vital 
programs that are not related to NASA's Vision for Space Exploration.
    In particular, I remain concerned that reduced federal funding for 
aviation and aeronautics research and technology in FY 2006 will 
jeopardize the Nation's leadership in providing the technologies needed 
to develop the next generation aircraft, improve aviation safety and 
security, and attract the next generation of aerospace scientists and 
engineers. We are in danger of falling behind our competitors in Europe 
who have announced that their goal is to dominate commercial aviation 
sales by 2020.
    In addition, cuts to the NASA Aeronautics budget will have a 
profound impact on the NASA Langley Research Center in Hampton, 
Virginia, which has a long and proud history of aeronautics research. 
NASA Langley's wind tunnels and laboratories, research aircraft and 
spacecraft and flight simulators have made significant contributions to 
our nation's advances in the aeronautics industry and have the promise 
of yielding many more in the future.
    Like the explorers of the past and the pioneers of flight in the 
last century, we cannot identify today all that we will gain from 
aviation and aeronautics research; however, we know from experience 
that the eventual return will be great. And the greater the investments 
of today, the greater the rewards for generations to come.

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank Honorable Frederick Gregory for 
appearing before our committee to discuss the NASA's FY06 budget 
proposal. Today's hearing serves as an opportunity for oversight of 
certain departmental programs. On January 14, 2004, the President 
announced his space exploration initiative which provides much needed 
long-term goals for our nation's human space flight program. The lack 
of clear direction has hampered NASA's effectiveness and has kept it 
from realizing its full potential as the Nation's space agency. During 
last fall's FY05 Omnibus, the appropriators gave NASA a great deal of 
latitude to determine how their money would be allocated. The 
understanding was that the appropriations committees would review the 
funding programs as part of the Operating Plan process. Months later, 
it is unacceptable that NASA has only submitted an initial Operating 
Plan that provides only partial information on how it intends to 
allocate its FY05 appropriation. I support the action of Ranking Member 
Gordon, who sent a letter to NASA indicating that he did not concur 
with the Operating Plan submission because it was incomplete.
    It is troubling that NASA continues to proceed on implementation of 
the President's exploration initiative in the absence of any clear 
Congressional direction on their priorities, their missions, and the 
future role of NASA Centers. In light of the President's new 
initiative, the budget for NASA leaves many significant questions 
unanswered and Congress needs more specifics as we consider the FY06 
budget request for NASA.
    NASA continues to be our gateway to the universe. It is through 
NASA's efforts that we will understand our planet, our solar system and 
beyond. NASA's budget should reflect a strong commitment to, and 
emphasis on, continuing to build the agency's core foundation of 
aeronautics and aerospace research and development as well as its 
missions of exploration and discovery to educate and inspire.
    While the President's initiative envisions human lunar landings by 
2020 and human missions to Mars at some point in the future, I am 
concerned that one year later, the budget plan for NASA has worsened, 
and the majority of the funding shortfall is to be absorbed by NASA's 
non-exploration initiative-related programs.
    Finally, I am concerned that many important and promising programs, 
such as the education programs and space station research, would be 
eliminated or have their funding cut, deferred, or flattened in order 
to fund the space exploration initiative. NASA's track record on the 
credibility of its cost estimates over the last several years is at 
best mixed. The President's proposal will have a high price tag and it 
should not come at the cost of our commitment to our children, our 
veterans, our seniors, and our other important domestic priorities. The 
federal deficit for 2004 will be a record $413 billion and the case is 
going to have to be made to this committee and the American people why 
the space exploration initiative should be supported in the face of 
that deficit.
    I welcome our witnesses and look forward to their testimony.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    First of all, I would like to thank the Chairman for bringing us 
together for this hearing today.
    The purpose of this hearing is to examine the President's proposed 
budget for the National Aeronautics and Space Administration (NASA) for 
fiscal year 2006.
    I have always been a strong supporter of the U.S. Space Program. I 
am a firm believer that the United States should continue our space 
program that has accomplished so much in the areas of research and 
science.
    While I am happy that the Administration's budget request is an 
increase from last year's, there are still many questions that must be 
addressed. I am quite concerned that this budget is actually lower that 
what was stated for the President's Vision for Space Exploration. How 
does NASA plan on reaching these goals with $2.5 million less than what 
was original stated?
    It is imperative that we today discuss safety and our return-to-
flight plans, since space travel is inherently dangerous. Under no 
circumstances should we allow budget cuts to ever interfere with the 
responsibility of maintaining safety.
    With that being said, I would like to again thank the Chair and 
Ranking Member for holding this hearing and the witness for agreeing to 
answer questions.

    [The prepared statement of Mr. Honda follows:]

         Prepared Statement of Representative Michael M. Honda

    Chairman Boehlert and Ranking Member Gordon, thank you for holding 
this important hearing today. This is an essential first step in the 
oversight process it is our committee's responsibility to perform. I 
emphasize that this is a first step, however--we must be sure to pay 
close attention to NASA represented here, both to celebrate successes 
and to make sure the agency is doing the job we expect it to do in the 
way we expect it to do that job.
    The number one issue in my mind as we discuss this budget is the 
``Transformation'' that NASA is executing in order to carry out the 
President's Vision for Space Exploration. I am very concerned about the 
lack of Congressional oversight of this transformation and the fact 
that NASA has not provided us with timely information about changes 
that are taking place.
    I know that our side of the aisle had serious concerns when NASA 
sought to switch to the Full Cost Accounting system, and I think that 
our greatest fears have come true. Full Cost Accounting has been 
combined with broad discretionary authority granted to the agency in 
the Fiscal Year 2005 Omnibus Appropriations bill to create a situation 
in which the salaries of vast numbers of Civil Service R&D employees 
are being moved out of project accounts and into general operations, 
which has created an artificial crisis at the centers and is being used 
as a reason to undertake large scale workforce reductions. To date, 
NASA has not provided us with a detailed Operations Plan outlining how 
these changes are being made, and NASA has not provided requested 
documentation outlining those ``excess competencies'' broken down by 
Center, so that it would be possible to see what areas NASA management 
considered to be no longer important to pursue. We must be kept 
informed, but NASA is doing everything to prevent that--according to a 
Center director, a page from NASA's budget submission to Congress about 
Civil Service employment numbers at the Centers should be ignored 
because it does not make any sense. How is it that Congress is not 
being given accurate information?
    A big question in all of this ``transforming'' is whether NASA will 
continue to honor the obligations it has already made. There are many 
research contracts and cooperative agreements between the agency and 
Centers and outside entities whose status remains uncertain. Without a 
detailed Operations Plan, we can not know what the future of these 
agreements is.
    I have a large number of questions that I want answers to, a larger 
number than I should have, because up to this point NASA has not been 
doing a good job of communicating with the Congress. I hope that I can 
start to get some answers to these questions at today's hearing.

    [The prepared statement of Mr. Davis follows:]

           Prepared Statement of Representative Lincoln Davis

    Good morning. Thank you, Mr. Chairman and Ranking Member.
    As a member of the Congressional Blue Dog Coalition, I am a fiscal 
conservative. As we consider the Administration's aggressive proposal 
for a manned space mission to the Moon, I think that we need to think 
about fiscal priorities.
    The Administration has repeatedly asked for billions upon billions 
of dollars for the Iraq conflict. An exit strategy has not been 
developed.
    Our health care system is broken. More than 45 million people are 
uninsured. In my own State, TennCare is in danger of collapse and will 
cause thousands more to become uninsured.
    And we are discussing an aggressive Space program? Mr. Chairman, my 
constituents and I understand the benefits of science and technology 
research, and we see the benefits of space research. But our nation is 
leaving a multi-trillion dollar deficit to its grandchildren, and as a 
Blue Dog, I want to express my disagreement with the Administration's 
aggressive space exploration agenda.
    Thank you, Mr. Speaker. I yield back the balance of my time.

    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman and Mr. Ranking Member, thank you for hosting this 
hearing, and Mr. Gregory, thank you for joining us today to discuss the 
NASA proposed budget request. I am very interested in hearing your 
testimony.
    I, as many on this committee, will be paying particular attention 
to what NASA's budgetary decisions mean for the long-term direction of 
the agency. I hope that you can elaborate on whether or not you believe 
it is possible for NASA to accomplish the President's space exploration 
agenda while simultaneously maintaining strong programs in each of 
NASA's mission areas.
    Furthermore, I want to state that I am concerned about a few 
specific elements of the budget. Specifically, I am troubled by both 
the decision to discontinue funding for hypersonic work in both my home 
State of Missouri and in Tennessee as well as the potential for halting 
development of the ISS centrifuge facility. Finally, I believe it is 
problematic that bidding on the Crew Exploration Vehicle may produce an 
outcome in which non-U.S. companies are paid with U.S. taxpayer 
dollars.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

Chairman Boehlert, Ranking Member Gordon,

    I want to thank you for organizing this important hearing to 
discuss NASA's budget proposal for fiscal year 2006. I want to welcome 
Mr. Gregory, NASA's Deputy Administrator and thank him for coming 
before this committee this morning. NASA faces a watershed moment after 
having endured a tremendous tragedy in the Columbia disaster and now 
trying to map its future with a return to the Moon and manned 
exploration of Mars.
    Unfortunately, while I wholeheartedly support the work of NASA, I 
am deeply concerned that the President's budget does not meet all the 
needs for future space exploration as we move forward in this new 
century. As I have stated before, this Administration has made many bad 
budgetary choices, which continue to push us further into a huge 
deficits and mounting debt during the last four years. In addition, the 
President has proposed a highly questionable plan for Social Security 
along with an uncertain military future in Iraq that in conjunction 
with proposed $1.6 trillion tax cuts will result in less funds being 
available for vital agencies such as NASA.
    I have been supportive of President Bush's Vision for Space 
Exploration because I firmly believe that the invest we make today in 
science and exploration will pay large dividends in the future. 
Similarly, I do not want to put a cap on the frontiers of our 
discovery, NASA should aim high and continue to push our nation at the 
forefront of space exploration. However, I find it to be more 
supportive of the President's plan, when I have no real specifics as to 
what this plan will entail. Large missions of this sort require 
detailed planning and as a Members of Congress we deserve to know how 
exactly the President's plan proposes to accomplish its objectives so 
that we can set out the proper resources and provide the necessary 
oversight. In addition, the President stated that the fundamental goal 
of his directive for the Nation's space exploration program is ``. . 
.to advance U.S. scientific, security, and economic interests through a 
robust space exploration program.'' I could not agree more with that 
statement; unfortunately, this President's own budget does not meet the 
demands of his ambitious agenda. One year after the Administration laid 
out a five-year funding plan for NASA that was intended to demonstrate 
the affordability and sustainability of the exploration initiative, the 
Administration has submitted a budget proposal for 2006 that would 
reduce that funding plan by $2.5 billion over the next four years. For 
example, in 2006, the Administration is seeking $546 million less than 
it said would be needed for NASA in 2006 in the five-year funding plan 
that accompanied last year's request. In fact 75 percent of the $2.5 
billion shortfall will fall to NASA's science and aeronautics programs. 
This kind of under funding for vital programs is unacceptable. Again, 
it is even more alarming because the President has not provided a 
detailed plan as to how he intends to accomplish his space exploration 
agenda; certainly draining money from the budget will not help that 
cause.
    My greatest concern with this budget is that it may not allocate 
enough money for ensuring the safety of all NASA astronauts and crew. 
After the Columbia disaster, safety must be our highest priority and it 
is worrisome that there is not a noticeable increase in funding to 
address all safety concerns. Presently, NASA is working towards a 
resumption of Space Shuttle flights, with return-to-flight currently 
scheduled for mid-May. However, once NASA returns the Shuttle to flight 
status, it is then supposed to begin the task of figuring out how to 
retire the Space Shuttle fleet in 2010 while continuing to fly the 
Shuttle safely up to the very last flight. I am concerned that pressure 
to retire the Shuttle by a fixed date to free up resources for other 
activities, coupled with the need to fly up to 28 Shuttle flights to 
assemble the Space Station, could--if not handled properly--lead to the 
types of schedule and budgetary pressures that were cited by the 
Columbia Accident Investigation Board (CAIB) as contributing to the 
Columbia accident. I hope this concern is paramount at NASA as we move 
forward in the future.
    While this NASA budget is supposed to move us forward toward 
exciting new discoveries, I was deeply disturbed to find that this 
budget if approved will mean the end of the Hubble Space Telescope. The 
Hubble Space Telescope has been one of the most productive and 
successful scientific facilities ever deployed. Hubble was originally 
intended to be operated with periodic manned servicing missions using 
the Space Shuttle. However, since the grounding of the Shuttle, NASA 
Administrator O'Keefe has canceled the final scheduled servicing 
mission to Hubble. Without this servicing mission, Hubble's support 
systems (gyroscopes for maintaining orientation, batteries to power 
heaters) will fail causing irreversible damage to the spacecraft. Three 
servicing options have been identified to deal with Hubble: 1) complete 
the scheduled manned servicing mission; 2) use a robotic spacecraft to 
service Hubble; and 3) incorporate ground based replacement parts 
intended for Hubble in a new telescope. At this time, none of those 
options have been exercised. Unfortunately, the only funds attached for 
Hubble in this budget will go towards de-orbiting the telescope. I 
believe there is a better way to keep Hubble in service where it has 
served our nation and in fact the world so well. Now is not the time to 
digress in terms of our discovery, Hubble served an essential function 
in our space exploration efforts. I hope that this Committee and 
Congress as a whole will work to save the Hubble telescope before we 
lose a valuable asset.
    As Members of this committee know, I have always been a strong 
advocate for NASA. My criticism of the President's budget is intended 
only to strengthen our efforts to move forward as we always have in the 
area of space exploration and discovery. NASA poses an exciting 
opportunity to charter a new path that can lead to untold discoveries. 
As always I look forward to working with the good men and women of NASA 
as we push the boundaries of our world once again.

    [The prepared statement of Mr. Matheson follows:]

           Prepared Statement of Representative Jim Matheson

    Thank you, Mr. Chairman and Ranking Member Gordon. As a supporter 
of science, I am well aware that space exploration benefits Americans 
by encouraging innovation in defense, education, communications, 
scientific research, and commercial technology.
    Today, I am concerned that the benefits of research are being 
curtailed by NASA's foolhardy decision to cancel a servicing missing to 
the Hubble Space Telescope.
    Hubble is one of the crown jewels of America's space science 
enterprise. Some of the greatest scientific benefits from the Hubble 
Space Telescope have been the unexpected discoveries that have expanded 
our knowledge about our solar system. It has also proven to be a 
powerful scientific and educational tool. I find it hard to believe 
that NASA is so willing to abandon this incredible project.
    Just a few weeks ago, this committee heard testimony from Dr. Louis 
Lanzerotti, Chair of the National Research Council panel, who asked to 
examine the issues surrounding the cancellation of Hubble's final 
servicing mission. His panel's report concluded that NASA should commit 
to a Shuttle-based Hubble serving mission, allowing the telescope to 
continue its highly productive scientific mission.
    Space industry workers in my home State of Utah and in other parts 
of our nation have already dedicated years of service to the Shuttle. 
They stand ready to continue that effort, so that Hubble can be 
serviced safely and efficiently. Finally, both the general public and 
the scientific community are very opposed to the discontinuation of 
Hubble and to the reckless postponement of needed servicing missions.
    I hope that NASA reviews and reconsiders its decision to cancel 
what would have been the fifth and final Hubble servicing mission. 
Thank you.

    Chairman Boehlert. Our first and only witness today is the 
Deputy Administrator, soon to be Acting Administrator of NASA, 
the Honorable Fred Gregory. We are very familiar with your 
work, Mr. Gregory. We thank you for your years of very 
distinguished service to the Nation in a variety of capacities. 
And I understand you will be accompanied by, and that is why we 
have the six chairs, Mr. James Jennings, Associate Deputy 
Administrator, Institutions and Asset Management; Rear Admiral 
Craig Steidle, Associate Administrator, Exploration Systems 
Mission Directorate; Mr. William Readdy, Associate 
Administrator, Space Operations Mission Directorate; Mr. 
Alphonso Diaz, Associate Administrator, Science Mission 
Directorate; Dr. Victor Lebacqz, Associate Administrator, 
Aeronautics Research Mission Directorate; and Mr. Steve 
Isakowitz, Comptroller, Office of the Chief Financial Officer. 
And Mr. Readdy, I am sorry for mispronouncing your name.
    Gentleman, take your seats, behind a multi-hatted Mr. 
Gregory. Mr. Gregory, you know the drill. And usually, we ask 
witnesses, because we have many panels and many distinguished 
witnesses, to summarize the statement. We are not going to 
waive that. We would ask you to summarize your statement, but 
we are not going to be so arbitrary as to only give you five 
minutes. But the shorter your statement, the more opportunity 
we have for a dialogue, which we have always found to be the 
most productive part of these hearings.
    So the floor is yours.

 STATEMENT OF HON. FREDERICK D. GREGORY, DEPUTY ADMINISTRATOR, 
         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Gregory. Well, first of all, let me tell you what a 
privilege it is to sit before such an august body. And Mr. 
Boehlert, thank you very much for inviting Mr. O'Keefe to come, 
and then allowing me to be, I hope, a worthy substitute. 
Ranking Member Gordon and the Committee Members, thank you for 
this opportunity to discuss this--NASA's fiscal year 2006 
budget request.
    This October 1, on the day when the new fiscal year begins, 
NASA will be entering our 48th year of serving the public 
interest, inspiring--and inspiring the next generation of 
explorers. For 31 years, I have had the privilege to serve on 
the NASA team, first as a test pilot, then as an astronaut, and 
more recently now as part of Agency leadership. I have never 
been as proud of our work and as hopeful about the space 
program's future as I am today. The exciting science findings 
on our Mars and Saturn missions, the research we are conducting 
on the International Space Station, and the assistance NASA 
satellites provided to Tsunami relief efforts highlight NASA's 
relevance in advancing America's scientific and technological 
leadership, and in providing people with tangible benefits.
    These accomplishments in NASA's steady progress towards 
safety, safely returning the Space Shuttle to flight, are the 
products of a team that has strived very diligently since the 
Columbia accident to operate all our missions safely and 
successfully. They also reflect Sean O'Keefe's outstanding 
leadership of the Agency these past three years, and I 
certainly thank you for acknowledging Sean's work. To be 
certain, NASA's successes also reflect a strong spirit of 
cooperation between the Administration and Congress. We 
appreciate your role in helping us to set program priorities, 
and in providing constructive oversight of NASA activities. We 
look forward to working with you to help advance the Nation's 
Vision for Space Exploration. Now well under way, the Vision 
promises to advance U.S. scientific, security, and economic 
interests through a robust program of human and robotic space 
exploration.
    Significantly, this budget will fully support the vision 
activities underway here on Earth, in low-Earth orbit, and 
throughout the solar system. It will also enable significant 
progress in other research priorities, such as aeronautics and 
Earth science. The budget as is--is, as promised, affordable, 
representing a 2.4 percent increase in a very tight fiscal 
environment. Finally, this budget is focused, as a result of 
NASA's disciplined effort to set priorities and align our 
workforce, organizational structures, facilities, and 
partnerships, with the unifying goals that many in Congress 
have long called for. The budget will provide resources to 
support Shuttle's safe Return-to-Flight, the continued assembly 
and operations of the International Space Station, progress on 
the Crew Exploration Vehicle, and the development of several 
transformative technologies. The budget will enable a new 
series of lunar science missions, beginning in 2008, and the 
new Mars missions, targeted to begin in 2011. And yes, this 
budget continues NASA's commitment to conducting world class 
astronomy. It will help us maintain our current fleet of 
orbiting laboratories, the Chandra, which is an X-ray 
observatory, the Spitzer, an infrared space telescope, and the 
Hubble Space Telescope, and develop impressive new tools, such 
as the James Webb Telescope and the Kepler Planet-Finding 
Telescope.
    Under this budget plan, we will strive to extend the 
scientific lifetime of Hubble through at least 2007 and 
possibly further, as well as support the analysis of past and 
current Hubble images. The budget also builds on NASA's long-
standing effort to improve life here, and better understand our 
home planet. It emphasizes our aeronautics research to enhance 
aviation safety and security, increases the efficiency of air 
traffic management, and invests in barrier-breaking 
technologies. Also, we will continue to add to the 
constellation of Earth-observing satellites, and develop new 
space-based technologies, and link systems for Earth 
observation.
    Finally, we will determine--we are determined to inspire 
and motivate the next generation of explorers, through a 
variety of innovative programs, such as the NASA Explorer 
Schools and the Scholarship for Service program. Significantly, 
the Scholarship for Service program is one of the many elements 
of NASA's strategy to help ensure that we sustain the Vision 
over the long haul. Under this strategy, we are also taking 
steps to reshape NASA's workforce so that our skillsets are 
properly aligned with our mission requirements. This obviously 
will cause some impact on the NASA workforce, but positively, 
we know that the vast majority of our existing skillset is 
directly applicable to this Vision. We also know that we have a 
large number of people eligible for retirement. Through our 
tools like the Workforce Flexibility Act of 2004, NASA plans to 
strategically build up our talent base for the future. To 
advance the Vision, we will also pursue innovative partnerships 
with academia, aerospace firms, and entrepreneurial companies. 
And we will encourage NASA centers to compete for useful work 
on technologies that can spin in to exploration agenda, and 
spin out into the economy at large.
    Indeed, all of NASA's strategic and transformational 
changes are oriented to making the Agency an even more vital 
contributor to the prosperity and well being of the 21st 
Century America. That is what this budget is all about, 
investing in the great cause of exploration and discovery, and 
the development of revolutionary technologies and capabilities 
for the future.
    I thank you once again for the opportunity to appear before 
this committee this morning, and I look forward to your 
questions. Thank you, sir.
    [The prepared statement of Mr. Gregory follows:]

               Prepared Statement of Frederick D. Gregory

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to appear today to discuss NASA's plans for the future as 
represented in the President's FY 2006 budget request for NASA. I will 
outline the major budget highlights and discuss NASA's transformation 
progress and strategic direction, and describe how exciting the 
Nation's future will be in exploration and discovery.
    As Members are aware, on January 14, 2004, President George W. Bush 
announced the Vision for Space Exploration. The President's directive 
gave NASA a new and historic focus and clear objectives. The 
fundamental goal of this directive for the Nation's space exploration 
program is ``. . .to advance U.S. scientific, security, and economic 
interests through a robust space exploration program.'' In issuing this 
directive, the President committed the Nation to a journey of exploring 
the solar system and beyond, returning humans to the Moon, and sending 
robots and ultimately humans to Mars and other destinations. He 
challenged us to establish new and innovative programs to enhance our 
understanding of the planets, to ask new questions, and to answer 
questions as old as humankind. NASA enthusiastically embraced this 
directive and immediately began a long-term transformation that will 
enable us to achieve this goal.
    In June 2004, the President's Commission on Implementation of the 
United States Space Exploration Policy, led by E.C. ``Pete'' Aldridge, 
Jr. (the Aldridge Commission), reported its findings and 
recommendations to the President. The Aldridge Commission emphasized 
the crucial role that technological innovation, national and 
international partnerships, and organizational transformation must play 
if we are to implement the President's Vision for an affordable and 
sustainable space exploration program. NASA is committed to making the 
necessary transformation to ensure our success in achieving the Vision.
    The President demonstrated his commitment to the Vision by making 
it a priority in his FY 2005 budget request, and Congress responded 
positively by providing funding for NASA at the level requested by the 
President. The President has reaffirmed his commitment to the Vision by 
also making it a priority in his FY 2006 budget request. The $16.46 
billion requested for NASA is an increase of 2.4 percent over FY 2005 
in a very challenging budget environment.

Exploration Vision is Well Underway

    Over the past year, NASA has made great strides in implementing the 
Vision:

        <bullet>  Returning to Flight--We are making final preparations 
        for Shuttle return-to-flight as early as May 2005 and Space 
        Station is entering its fifth year of continuous presence on-
        orbit.

        <bullet>  Exploring Our Solar System and the Universe--The Mars 
        twin rovers are exceeding all expectations and making 
        unprecedented discoveries; the Cassini/Huygens mission is 
        providing stunning views of Saturn and Titan; the Genesis 
        mission has returned primordial samples from space; new 
        missions have been launched to Mercury and comets; amazing 
        discoveries continue with Hubble, Chandra and Spitzer; and we 
        have completed deployment of the Earth Observing System.

        <bullet>  Laying the Groundwork for the Future--We have had 
        overwhelming interest in our exploration efforts with 5,000 
        letters of interest, 600 proposals submitted, and competitive 
        awards of 118 contracts for exploration technologies. Also, 
        initial contracts have been awarded as we prepare for major 
        milestones in 2008 including an unprecedented mapping of the 
        Moon with the Lunar Reconnaissance Orbiter, and a technology 
        demonstration flight of the Crew Exploration Vehicle, and a 
        planned ground-based nuclear reactor test for Project 
        Prometheus.

        <bullet>  Engaging the Public--All of these accomplishments 
        have created even greater excitement for space exploration 
        since the President's announcement of the Vision. Indeed, the 
        incredible 17 billion hits on NASA web site over the past year 
        is a testament to the intense public interest.

Funding Based on Long-Term Affordability

    In his February 2nd State of the Union Address, the President 
underscored the need to restrain spending in order to sustain our 
economic prosperity. As part of this restraint, it is important that 
total discretionary and non-security spending be held to levels 
proposed in the FY 2006 Budget. The budget savings and reforms in the 
Budget are important components of achieving the President's goal of 
cutting the budget deficit in half by 2009 and we urge the Congress to 
support these reforms. The FY 2006 Budget includes more than 150 
reductions, reforms, and terminations in non-defense discretionary 
programs, of which three affect NASA programs. The Agency wants to work 
with the Congress to achieve these savings.
    To achieve the Vision for Space Exploration, NASA is proceeding, as 
directed by the President, to plan and implement a sustainable and 
affordable, integrated robotic and human exploration program, 
structured with measurable milestones, and executed on the basis of 
available resources, accumulated experience, and technology readiness. 
NASA views human and robotic explorers as partners in achieving the 
Vision. Last year, we provided a long-range roadmap through 2020 to 
address how such human and robotic exploration would remain affordable:

        <bullet>  Human explorers would return to the Moon no later 
        than 2020 based on innovative new designs that would be 
        developed in ever increasing capabilities or ``spirals.'' Major 
        development of these hardware elements would commence later 
        this decade, given the retirement of the Space Shuttle in 2010. 
        These exploration elements would include needed launch 
        vehicles, in-space transfer systems, lunar landers and 
        habitation systems, and a Crew Exploration Vehicle (CEV) that 
        would ferry humans from Earth to the Moon and beyond. To 
        prepare for development decisions of these elements, we would 
        use the intervening years focusing on critical research and 
        technology (R&T). Such R&T would encourage new innovations, and 
        ensure development decisions that could deliver hardware at the 
        promised cost and performance. Funding for the R&T this decade 
        was largely achieved by terminating legacy human space flight 
        projects, such as canceling the Space Launch Initiative in last 
        year's budget, and focusing existing R&T investments on 
        exploration requirements.

        <bullet>  Robotic explorers would continue the exploration of 
        the solar system, traveling to places like Mars in anticipation 
        of eventual human visits, and going to destinations that are 
        more challenging, like Mercury, Saturn, Pluto, and comets. 
        Observatories would be deployed to search for Earth-like 
        planets and habitable environments around distant stars, and to 
        explore the universe to understand its origin, structure, 
        evolution, and destiny. Funding for these areas would 
        significantly increase over the coming years with Science 
        investments growing from 33 percent to 38 percent of the 
        Agency's total budget.

    These human and robotic explorers will enable our exploration and 
scientific plans. A recent report released on February 3, 2005, by the 
National Research Council entitled Science in NASA's Vision for Space 
Exploration states, ``Exploration is a key step in the search for 
fundamental and systematic understanding of the universe around us. 
Exploration done properly is a form of science. Both robotic spacecraft 
and human space flight should be used to fulfill scientific roles in 
NASA's mission to explore.''

Guided by Our Priorities

    Indeed, the President's FY 2006 budget request for NASA reaffirms 
the funding strategy outlined above. The FY 2006 budget identifies what 
is needed to proceed with the transformation of America's civil space 
program. It maintains resolute focus on key priorities, milestones, and 
schedules for the Vision introduced in the FY 2005 budget:

        <bullet>  First Step--Space Shuttle return-to-flight and 
        completion of International Space Station assembly;

        <bullet>  Flagship Program--Constellation Systems including the 
        2008 Crew Exploration Vehicle flight demonstration;

        <bullet>  Technology Base--Critical exploration technologies;

        <bullet>  Transforming Technologies--Prometheus Nuclear Systems 
        and Technology, including a planned flight demonstration in a 
        decade;

        <bullet>  Robotic Precursors--Lunar missions beginning in 2008 
        and Mars missions added in 2011;

        <bullet>  Shuttle Transition--Space Station cargo and crew 
        services via near-term commercial services and Shuttle 
        retirement in 2010;

        <bullet>  Scientific Breakthroughs--Exploration of the solar 
        system and the universe, such as the James Webb Space Telescope 
        launch in 2011 and the search for Earth-like planets.

    The FY 2006 budget also supports critical national needs in other 
areas:

        <bullet>  Aeronautics--Protecting priorities in aviation 
        safety, security and airspace systems and focusing on high-
        payoff, ``barrier-breaking'' technology demonstration projects;

        <bullet>  Climate Change--Supporting investments in the Global 
        Change Science and Technology Program and the next generation 
        Earth observing satellites;

        <bullet>  Education--Continuing to inspire the next generation 
        of explorers with programs like Explorer schools and 
        scholarship for service.

    To support the Administration's goal of reducing the deficit, 
NASA's budget was reduced $0.5 billion in FY 2006 below the level 
planned last year for FY 2006. In addition, returning the Shuttle 
safely to flight costs $0.4 billion more than previously estimated in 
FY 2006. To address these and other items the net result was $0.4 
billion (11 percent) less in Exploration Systems than previously 
planned for FY 2006, $0.3 billion (five percent) less in Science, $0.1 
billion (11 percent) less in Aeronautics, and $0.2 billion (four 
percent) more in Space Operations. These changes were not easy but, in 
the end, we made the tough decisions while protecting the priorities 
outlined above.
    On December 21, 2004, the President signed a new national policy 
directive that establishes guidelines and implementation actions for 
United States space transportation programs and activities to ensure 
the Nation's continued ability to access and use space for national and 
homeland security, and civil, scientific, and commercial purposes. NASA 
will play a significant role in implementing this directive, fostering 
and enabling the development of space transportation capabilities for 
human space exploration beyond low-Earth orbit, consistent with the 
goals of the Vision for Space Exploration.

Building on Our Scientific Successes

    The FY 2006 budget request of $5.5 billion for the Science Mission 
Directorate will support 55 missions in orbit, 26 in development, and 
34 in design phase. By 2010, the Science budget will increase by 23 
percent over current levels.
    The FY 2006 budget includes $858 million (a 17 percent increase) 
for Mars and Lunar robotic exploration. The Mars rovers, Spirit and 
Opportunity, are exceeding all goals with their unprecedented 
discoveries and longevity. Last year, they found definitive evidence of 
an ancient body of water on the Red Planet, and they continue to gather 
data more than a year after their successful landing. We recently 
awarded contracts for six instruments to be flown on the 2008 Lunar 
Reconnaissance Orbiter (LRO) that promises unprecedented mapping of the 
Moon's surface. The 2008 LRO should revolutionize our understanding of 
the Moon to the same extent that the Mars rovers have transformed our 
understanding of Mars.
    The budget also includes $218 million to maintain competitive 
efforts for the Explorer Program, $56 million (a 33 percent increase) 
for the Beyond Einstein program to study the universe, $234 million for 
studying the Sun in the Living With a Star program, and $136 million (a 
six percent increase) for competitive opportunities in the Earth System 
Science Pathfinder program. With our international partners, we also 
continue to add to the constellation of Earth-observing satellites that 
monitor our planet while extending our reach and presence further into 
the solar system. We launched Aura to look back at Earth and give us a 
better picture of our atmosphere and changing climate, and the entire 
Earth Observing System continues to return trillions of bytes of 
information about our dynamic Earth. In the future, NASA plans to 
develop a ``sensor-web'' to provide timely, on-demand data and analysis 
to users who can enable practical benefits for scientific research, 
national policy-making, economic growth, natural hazard mitigation, and 
the exploration of other planets in this solar system and beyond.
    NASA will continue to expand our exploration reach with an armada 
of existing and new space observatories operating in many different 
wavelengths and looking at different parts of our exotic universe. The 
three ``Great Observatories''--Hubble, Spitzer and Chandra--will 
continue to bring wondrous images to our eyes and exciting new 
scientific discoveries while we continue development of new tools for 
research like the James Webb Space Telescope and the Space 
Interferometry Mission that will vastly expand our understanding of the 
origin and evolution of the universe. Missions such as Kepler will 
provide a new understanding and knowledge of the planets orbiting stars 
far from our solar system, perhaps identifying new targets for voyages 
of exploration by future generations of explorers.
    This budget also includes $372 million (a 19 percent increase) to 
maintain the Webb telescope on pace for a 2011 launch and $93 million 
in development funds for the Hubble Space Telescope to extend its 
scientific productivity and initiate a robotic mission to safely de-
orbit it. This investment in the Hubble, together with the synergistic 
use of the other two Great Observatories and combined with the greatly 
increased capability of ground-based assets and the emergent science of 
optical interferometry, will ensure many years of new scientific 
discoveries for the Nation.
    NASA decided to discontinue the effort on robotic servicing of the 
Hubble Space Telescope, and, based on analysis of the relative risks, 
not to proceed with a Shuttle servicing mission. The Hubble will 
complete its originally planned 15-year mission this year and, with 
careful stewardship, should continue to operate for 2-3 additional 
years until its gyroscopes and batteries wear out. As it ages, other 
items may unexpectedly fail, such as the recent loss of one of the four 
scientific instruments, the Space Telescope Imaging Spectrograph 
(STIS). NASA's decision not to service the Hubble was a very difficult 
one given the Hubble's spectacular successes. Nonetheless, although the 
spacecraft may have limited lifetime, NASA is fully committed to saving 
the associated science. NASA's FY 2006 budget request is consistent 
with redirecting the HST effort to:

        (1)  Operate Hubble as long as the spacecraft generates useful 
        scientific data;

        (2)  Develop techniques to extend its life;

        (3)  Safely de-orbit the spacecraft after the end of Hubble's 
        useful life;

        (4)  Examine options for addressing some Hubble science such as 
        re-hosting new or modified Hubble instruments on new space 
        platforms;

        (5)  Continue analysis of the archived data generated by 
        Hubble; and

        (6)  Aggressively pursue development of the James Webb Space 
        Telescope, which promises an exciting future of continued 
        discovery.

    Even though the Columbia accident has compelled NASA to change its 
plans for the Hubble Telescope, NASA remains committed to our world-
class program of astronomy.

Preparing for Our Exploration Future

    The FY 2006 budget request of $3.2 billion for the Exploration 
Systems Mission Directorate includes $753 million for continuing 
development of the Crew Exploration Vehicle, America's future 
spacecraft for safe and affordable human exploration, scheduled for a 
flight demonstration in 2008. The CEV promises safer travel for 
astronauts into space and continuing U.S. human access soon after 
retirement of the Shuttle. The CEV as well as launch vehicles for 
transport of the CEV and cargo to low-Earth orbit, and any ground or 
in-space support infrastructure for communications and operations, is 
collectively known as the ``System of Systems.'' This will be developed 
in a ``spiral'' approach, wherein early demonstrations and prototypes 
are used to demonstrate capabilities, validate technologies, and 
mitigate risk, all along an evolutionary path toward a mature design. 
The first spiral development planned will provide the capability to 
deliver humans to orbit in a CEV by 2014. The second spiral will 
deliver humans to the lunar surface by 2020, followed by the third 
spiral that will enable extended visits on the lunar surface. As spiral 
development evolves, System of Systems elements will grow to include 
in-space support systems, destination surface systems, and additional 
human support systems. NASA will be assessing design options for the 
Crew Exploration Vehicle, including the ability to dock with the 
International Space Station.
    The FY 2006 budget request includes $919 million (a 27 percent 
increase) for Exploration Systems Research and Technology that will 
enable designs for sustainable exploration, including $34 million for a 
revamped technology transfer program and $34 million for the Centennial 
Challenges prize program. The Agency seeks the Committee's support in 
providing the authorization language to enable larger prize awards. 
This budget also includes $320 million for Prometheus Nuclear Systems 
and Technology to support a new flight demonstration that is less risky 
and more affordable than the Jupiter Icy Moons Orbiter mission. In 
addition, the FY 2006 budget request provides $806 million for Human 
Systems Research and Technology which has been restructured so its 
programs are now linked directly to exploration requirements for human 
missions to the Moon, Mars, and beyond.

Enabling Breakthrough Aeronautics Research

    The President's FY 2006 Budget fully supports the Aeronautics 
program's vital research especially in the areas of emissions and noise 
reduction, increasing the Aviation safety and security, and increasing 
the capacity and efficiency of the National Airspace System. The budget 
request also supports the critical research activities that have been 
identified by the Joint Program and Development Office. NASA's FY 2006 
request for the Aeronautics Research Mission Directorate is $852 
million. The President's FY 2006 budget increases the Aeronautics 
program's vital research in Aviation Safety and Security by four 
percent and Airspace Systems by 32 percent. These two priority programs 
are fully funded to ensure timely results critical to meeting national 
goals, especially those efforts in support of the interagency Joint 
Planning and Development Office (JPDO). This is a consortium of 
government agencies, of which NASA is a principal member, chartered to 
transform the U.S. air transportation system by the year 2025.
    Participants include Departments of Defense, Homeland Security, 
Commerce, and Transportation.
    To ensure maximum benefit to the taxpayer, we are transforming part 
of our investment in Aeronautics Research in order to more sharply 
focus the investment on breakthrough technologies. Toward this end, the 
NASA Aeronautics Vehicle Systems Program has been restructured from the 
current emphasis on numerous projects aimed at incremental 
improvements. Instead, the program is moving towards a smaller and more 
focused set of four projects seeking to achieve near-term flight 
demonstrations of revolutionary and barrier breaking technology: (1) 
reducing the noise of conventional aircraft to within the airport 
boundary, (2) reducing the supersonic boom allowing future supersonic 
aircraft to fly over land without the restrictions in place today, (3) 
developing electric propulsion systems for aircraft that eliminate 
pollution entirely because they do not burn hydrocarbon fuels, and (4) 
demonstrating high altitude, long endurance, remotely operated or 
autonomous aircraft to create opportunities for new applications 
including scientific platforms. The $459 million program request for FY 
2006 will fully fund these four projects. In concert with the Agency 
transformation, this program will be conducted using a higher level of 
competitively awarded research. We believe that this new focus and new 
way of performing the research will enhance the value of our vehicle 
research to the taxpayer.

Meeting Our Obligations

    The FY 2006 budget request of $6.8 billion for the Space Operations 
Mission Directorate reflects the first step in the Vision: returning 
the Space Shuttle safely to flight and resuming flight operations. The 
budget includes $4.5 billion to return the Shuttle safely to flight and 
maintain safe operations in support of five planned flights. NASA will 
retire the Space Shuttle in 2010. The FY 2006 budget also provides $1.9 
billion for the International Space Station. NASA currently is 
examining configurations for the Space Station that meet the needs of 
the Vision for Space Exploration and our international partners and 
require as few Shuttle flights as possible to complete assembly. A key 
element in the future of the International Space Station program is the 
purchase of alternate cargo and crew transportation services to 
supplement the Shuttle when it is in service, and to replace it when it 
retires. The budget provides $160 million for these services in 2006 
and NASA intends to solicit a Request for Proposal for commercial cargo 
transportation services to the Station this summer.
    We are making final preparations to return the Space Shuttle safely 
to flight in 2005. We have made more than 100 major maintenance 
modifications and upgrades to Discovery and its supporting systems, 
including new cabling and wiring that will support leading edge 
sensors, a digital camera, and a boom extension for the Shuttle's 
robotic arm that will enable us to inspect nearly all the outside areas 
of the orbiter's Thermal Protection System during missions. Technicians 
installed the Forward Reaction Control System and the Reinforced 
Carbon-Carbon Nose Cap, and 88 sensors are being installed on each 
wing; 66 will measure acceleration and impact data, and 22 will take 
temperature data during Discovery's journey. Overall, we are making 
excellent progress on the milestones toward a launch. The return of the 
Shuttle to flight is a key milestone and we are committed to keeping 
human space flight as safe as possible.
    As the United States implements the Vision for Space Exploration, 
the Administration recognizes the value of effective cooperation with 
Russia to further our space exploration goals. At the same time, we 
have to appropriately reflect U.S. nonproliferation policy and 
objectives in our relationship with Russia. The Administration is thus 
interested in seeking a balanced approach that continues to protect our 
nonproliferation goals while advancing potential U.S. cooperation with 
Russia on the Vision for Space Exploration. Such a balanced approach 
must include the Iran Nonproliferation Act of 2000 (INA), which 
currently complicates cooperation with Russia on the International 
Space Station (ISS), and will also have an adverse impact on 
cooperation with Russia on our future space exploration efforts related 
to human space flight. To that end, the Administration looks forward to 
working with Congress to ensure that the Vision for U.S. Space 
Exploration is able to succeed while remaining fully consistent with 
broader U.S. national security and nonproliferation goals.
    This year, we began our fifth year of continuous astronaut presence 
on the Space Station. Astronauts continued their international 
cooperation on-board the Station through a variety of joint research 
activities. Just last month, agency leaders from the U.S., Russia, 
Japan, Europe, and Canada met in Montreal, Canada to discuss Station 
cooperative activities. At the meeting, the Station partnership 
unanimously endorsed completion of this orbiting laboratory by the end 
of the decade.

Building the Pipeline for Future Careers

    The FY 2006 budget request of $167 million for the Office of 
Education reflects NASA's continued commitment to developing the next 
generation of explorers by inspiring and motivating students and 
educators at all levels in the formal and informal education 
communities to pursue careers in science, technology, engineering, and 
mathematics. We will achieve this goal by providing unique teaching and 
learning experiences, as only NASA can, through the Agency's research 
and flight missions. Students and educators will be able to work with 
NASA and university scientists to use real data to study Earth, explore 
Mars, and conduct scientific investigations. They will work with NASA 
engineers to learn what it takes to develop technological breakthroughs 
required to reach the farthest regions of the solar system and to live 
and work in space. To ensure diversity in NASA's future workforce, the 
education programs pay particular attention to under-represented 
groups. NASA will continue to support the Nation's universities to 
educate more students in science and engineering by providing 
meaningful research and internship opportunities for qualified 
students, plus a roadmap for students seeking NASA careers. The FY 2006 
budget continues emphasis on priority initiatives: NASA Educator 
Astronaut, NASA Explorer Schools, NASA Explorer Institutes, and Science 
and Technology Scholarship Program. Exploration advances knowledge.

The Vision is Transforming NASA

    To achieve the Vision for Space Exploration, NASA is engaged in a 
major transformation--taking the extraordinary capabilities we have 
throughout the Agency and restructuring them to achieve the goals of 
the 21st century. This is an enormous challenge, but in less than a 
year, we have begun to transform our entire organization to foster 
permanent change and making a positive, mission-driven culture. We are 
creating an environment of openness and free-flowing communication by 
continuing to assess our leadership practices. We also are sure that 
the entire NASA family is headed in the same direction.
    The focus of the transformed NASA is on how best to achieve the 
Vision and other national priorities assigned to our Agency. Guided by 
NASA's core values of Safety, the NASA Family, Excellence, and 
Integrity, the Agency's transformation is:

        <bullet>  Embedding a Safety Culture--NASA is continuing to 
        foster its safety culture throughout the organization. The 
        Agency has reduced workforce accident rates to industrial 
        world-class standards and implemented an Independent Technical 
        Authority (ITA) and NASA Engineering and Safety Center (NESC) 
        to guide NASA's continued safety improvements. NASA's FY 2006 
        budget assumes $87 million in Center service pool budgets to 
        support the ITA functions. The budget also includes $79 million 
        for the NESC (a 21 percent increase).

        <bullet>  Embracing Competition--NASA is embracing competition 
        as a way to elicit the best from the NASA's Centers, industry, 
        and academia. The Agency is using competitive processes to 
        encourage more cost-effective, innovative solutions to the 
        scientific and technical challenges presented by the Vision. 
        Over the past year, competitive selections in exploration have 
        demonstrated increased collaboration between NASA's Centers and 
        industry and academia. The budget provides well over $10 
        billion in new competitive opportunities over the next five 
        years.

        <bullet>  Enhancing Strategic Planning--In a new document 
        released with our FY 2006 budget request, The New Age of 
        Exploration: NASA's Direction for 2005 and Beyond, we outline 
        NASA's commitment to change and to achieving the Vision. This 
        document establishes NASA's long- and short-term objectives, 
        supports our re-mapped FY 2005 Performance Plan, and underpins 
        the structure and strategy of our FY 2006 budget. NASA's 2006 
        Strategic Plan--to be released next February with the FY 2007 
        budget request--will be informed by the strategic and 
        capability roadmaps currently being developed by national teams 
        of experts from academia, industry, other government agencies, 
        and NASA.

        <bullet>  Improving Decision-making--Our transformed 
        headquarters organization includes a Strategic Planning Council 
        and a supporting Advanced Planning and Integration Office to 
        enable better long-range planning, an Operations Council to 
        integrate NASA's tactical and operational decisions, and a 
        transformed NASA Advisory Council to integrate Agency 
        activities. We have streamlined our corporate structure by 
        reducing the number of headquarters organizations by half to 
        four Mission Directorates and eight Mission Support Offices.

        <bullet>  Reinvigorating Field Centers--NASA has identified 
        Core Competencies, involving human capital and physical assets, 
        which must be sustained within NASA in order for the Agency's 
        mission to be achieved. These specific Organizational Core 
        Competencies are resident at one or more NASA Centers and 
        funded primarily through competitive means. Every three years, 
        these Competencies will be assessed as a part of the Agency's 
        strategic planning process, and may be changed in response to 
        changing mission requirements, emerging commercial 
        capabilities, and/or competitive results. NASA's Centers will 
        build long-term business plans based on the Vision for Space 
        Exploration, strengthen institutional capabilities around Core 
        Competencies, and remain at the cutting edge through 
        competitive opportunities. NASA Centers will also be examining 
        alternative management structures to enhance organizational 
        agility and to foster new business opportunities.

        <bullet>  Transforming Human and Physical Capital --As NASA 
        sets its sights on exciting worlds beyond, NASA will require a 
        workforce and facilities with the right mix of world-class 
        capabilities. The Agency is actively engaged in a multi-faceted 
        approach to shape the workforce of the future, and to align it 
        physical assets in support of current and future mission needs. 
        The need to reshape workforce and align physical assets is not 
        a new challenge for NASA, but with the Vision we are now 
        provided the necessary long-term direction to guide the 
        transformation. In response to all these challenges, NASA will 
        use 2005-2006 as a transition period for Centers to reshape and 
        rebalance its workforce and facilities. The Agency is 
        undertaking a number of targeted workforce activities to ensure 
        the relevant skills are available to accomplish the mission. 
        Additionally, it is taking steps to identify underutilized 
        infrastructure that could possibly be replaced with state-of-
        the-art facilities providing greater utility or a lower cost 
        burden to the Centers. Before closing any facilities, NASA will 
        be coordinating with other users and government agencies to 
        determine the demand for underutilized facilities. In the near 
        future, NASA will be proposing a set of legislative initiatives 
        as part of the Agency's draft Authorization Bill that will 
        enhance the Agency's transformation in support of the Vision.

        <bullet>  Implementing Improved Program Management Procedures--
        The Agency is implementing improved cost estimating and earned 
        value management procedures to ensure we meet our cost 
        commitments. We are also establishing an acquisition strategy 
        approval process that will draw on the best processes from the 
        Department of Defense and prior NASA acquisition policies. This 
        is to ensure that before contract award, all acquisition 
        programs and projects will satisfy the requirements and that 
        the acquisition strategies, if done as planned, are executable, 
        have exit and entrance criteria, contain clear approval 
        milestones, and involve independent reviews.

        <bullet>  Improving Financial Management--For the past two 
        years, NASA has received a disclaimer of audit opinion on its 
        annual financial statements due largely to two issues--
        financial system conversion, and accounting for property, plant 
        and equipment, and materials and supplies. In FY 2003 NASA 
        converted the 10 separate NASA Center accounting systems and 
        the associated 120 subsidiary systems, along with over 12 years 
        of historical financial data, into one single integrated 
        agency-wide core accounting system. Problems associated with 
        this conversion have been greater than expected and are taking 
        longer than expected to correct. Accounting for property and 
        materials and supplies valued at $37.6 billion (83 percent of 
        NASA's assets on the balance sheet) lacks the necessary 
        internal controls and systems to support valuation for 
        management and audit purposes. NASA understands the seriousness 
        of these issues and has developed work plans to overcome these 
        and other material issues, however it will take time to 
        implement all of the corrective actions. NASA anticipates that 
        improved audit results could be achieved on the FY 2006 
        financial statements with a reduction in the number of material 
        weaknesses and reportable conditions.

The Nation's Future in Exploration and Discovery

    The torch is being passed from the pioneers, who first took us to 
the Moon and beyond, to the new generation of explorers who will take 
us into deep space to stay. A new era in space exploration begins with 
the return-to-flight of the Shuttle and the completion of the 
International Space Station, as we begin a journey that will take the 
next generation of Americans back to the Moon, to Mars, and beyond. We 
will also be pursuing ever more aggressive plans with advanced robots 
and space observatories that will require this nation's most 
sophisticated technical capabilities.
    This generation inherited great legacies from the exploratory 
voyages and discoveries of earlier centuries. It is our responsibility 
to ensure that future generations inherit from our journey a similar 
legacy of achievement and inspiration. Implementing the Vision will 
provide this legacy. The FY 2006 NASA budget reaffirms the President's 
commitment and allows us to take the next step in implementing the 
Vision.
    As President George W. Bush said, ``We choose to explore space 
because doing so improves our lives and lifts our national spirit. So 
let us continue the journey.''

                   Biography for Frederick D. Gregory

    Frederick D. Gregory is the Deputy Administrator of NASA. He 
assumed this position in August 2002. He serves as the Chief Operating 
Officer for the Agency and reports directly to NASA's Administrator. He 
is responsible for directing and managing many of the programs as well 
as the day-to-day operations and activities at NASA.
    Prior to becoming the Deputy Administrator, Mr. Gregory served as 
the Associate Administrator for Space Flight and was responsible for 
overseeing the management of the International Space Station; Space 
Shuttle operations; Space Access using Expendable Launch Vehicles for 
commercial launch services; Space Communications; and Advanced 
Programs. He held that position from December 2001 to August 2002.
    From June 1992 to December 2001, Mr. Gregory held the position of 
Associate Administrator, Office of Safety and Mission Assurance, at 
NASA Headquarters. As Associate Administrator, he was responsible for 
assuring the safety, reliability, quality, and mission assurance of all 
NASA programs.
    Mr. Gregory has extensive experience as an astronaut, test pilot, 
and manager of flight safety programs and launch support operations. As 
a NASA astronaut, he logged 455 hours in space: as pilot for the 
Orbiter Challenger (STS-51B) in 1985, as spacecraft commander aboard 
Discovery (STS-33) in 1989, and as spacecraft commander aboard Atlantis 
(STS-44) in 1991. Mr. Gregory served in several key positions as an 
astronaut, including Astronaut Office Representative at the Kennedy 
Space Center, for the first Space Shuttle flights (STS-1 and STS-2); 
lead Capsule Communicator (CAPCOM); Chief, Operational Safety at NASA 
Headquarters; and Chief, Astronaut Training. He also served on the 
Orbiter Configuration Control Board and Space Shuttle Program Control 
Board.
    Mr. Gregory retired as a Colonel in the United States Air Force in 
December 1993 after logging 7,000 hours in more than 50 types of 
aircraft, including 550 combat missions in Vietnam. His 30-year Air 
Force career included serving as a helicopter pilot and as a fighter 
pilot. He graduated from the United States Naval Test Pilot School and 
served as an engineering test pilot for the Air Force and for NASA. He 
was selected as a pilot Astronaut in January 1978.
    Mr. Gregory holds a Bachelor of Science degree from the United 
States Air Force Academy and a Master's degree in Information Systems 
from George Washington University. He is a member or past member of 
numerous societies, including the Society of Experimental Test Pilots, 
American Helicopter Society, Air Force Academy Association of 
Graduates, the National Technical Association, the Tuskegee Airmen, and 
the Order of the Daedalians, and the Association of Space Explorers. He 
has been or currently is a board member with the following 
organizations: Maryland Science Center; Young Astronaut Council; 
Kaiser-Permanente; the Photonics Laboratory at Fisk University, and the 
Engineering College at Howard University.
    His honors include the Air Force and DOD, Meritorious Service 
Medal, Air Force Commendation Medal, 16 Air Medals, two Distinguished 
Flying Crosses, Legion of Merit, Defense Superior Service Medal, 
Defense Meritorious Service Medal, National Intelligence Medal; NASA, 
three Space Flight Medals, two Outstanding Leadership Medals, 
Distinguished Service Medal; National Society of Black Engineers 
Distinguished National Scientist Award; the George Washington 
University Distinguished Alumni Award; President's Medal, Charles R. 
Drew University of Medicine and Science; Honorary Doctor of Science 
Degrees from the College of Aeronautics and the University of the 
District of Columbia. He was also awarded the Air Force Association Ira 
Eaker Award as well as numerous civic and community honors.
    He is married to the former Barbara Archer. They have two children 
and four grandchildren.

                               Discussion

    Chairman Boehlert. Thank you very much, Mr. Gregory, and 
let me tell you, this committee, on a bipartisan basis, was 
privileged and proud to work with you and all at NASA to get 
that Workforce Flexibility Act in place, to give you the 
flexibility you need to treat your staff the way it should be 
treated, as very able professionals.
    As I mentioned in my opening statement, there are a lot of 
questions NASA can't answer yet. And I understand that. I am 
going to go through a list of nine items, and for each of them, 
I would like to know when NASA will be able to give Congress an 
answer to the question. It would be helpful to know a month, 
but a season will do. I will stop after each item.

                              ISS Research

    First question. The research agenda for the Space Station.
    Mr. Gregory. I would say that the research agenda, at least 
the first part of it, should be available at the end of this 
month, or early in March, but if it is okay with you, let me 
ask Mr. Craig Steidle, who is responsible for that, to give 
you----
    Chairman Boehlert. Admiral.
    Mr. Gregory.--a more definitive answer.
    Admiral Steidle. Yes, sir. Thank you.
    We will complete the assessment that we have under way by 
the 28th of February, and I will give it to Bill Readdy, who--
and then together, we will put it together, and have a 
completion of that study at the end of April.
    Chairman Boehlert. Thank you very much. Next question. 
Whether the Space Station will be reconfigured once again, 
whether we will bring up the centrifuge.
    Mr. Gregory. The--about three weeks ago, we had the 
privilege of meeting in Montreal with the heads of agency, that 
would be the Sean O'Keefe equivalent in Japan, Canada, Europe, 
and Russia.
    Chairman Boehlert. Or the Fred Gregory equivalent, come 
Sunday.
    Mr. Gregory. Thank you, sir. I have had the privilege of 
chairing something called the Multilateral Coordination Board, 
which is the board just down from--the representatives just 
down from the top. During that session, we looked at the, and 
agreed to, the final configuration of the International Space 
Station. We made a recommendation to the heads of agency, which 
they accepted.
    As part of that configuration, we looked at the assembly 
sequence, and we looked at the number of flights that could 
accomplish that configuration. At the same time, however, with 
the change in--with the identified focus that we have now, as 
part of the Exploration Vision, we also held open the 
opportunity to re-evaluate the components that we will have on 
the International Space Station. This was very openly addressed 
with the international partners, and each has taken upon 
themselves, and given themselves the opportunity re-look at 
what they are--what they would have on the Space Station.
    We, of course, are focused toward the Exploration Vision. 
It is a requirement-driven activity that we have, as we assess 
each and every piece and component, as it prepares us to take 
the next step.
    Chairman Boehlert. So when will we be enlightened? A 
season, at least?
    Mr. Gregory. Well, Admiral Steidle gave you that answer 
just a moment ago. He said that they would report out at the 
end of February, and that probably by the end of April, all of 
us will know, sir.

                       Remaining Shuttle Flights

    Chairman Boehlert. Okay. The number of remaining Shuttle 
flights planned.
    Mr. Gregory. The--at this moment, we are looking at a 
number that is around 28. But as I said earlier, what we are 
looking at is the fewest number of flights necessary to 
complete the International Space Station with its requirements 
by December 31, 2010, as you mentioned.
    But let me have Bill Readdy give you his opinion.
    Chairman Boehlert. Mr. Readdy.
    Mr. Readdy. Thank you, Mr. Chairman. 28 flights is the 
baseline manifest, as agreed to by the international partners, 
but as a result of the Vision for Space Exploration, we are 
taking a very critical look at that, and what components will 
be flown, and as Mr. Gregory and Admiral Steidle both said, by 
the end of April, we should have a little bit more clarity in 
terms of perhaps some of the content for that.
    We don't want to use the Space Shuttle for any more flights 
than we have to, where its unique capabilities to carry modules 
to the International Space Station, to support spacewalks, to 
support robotic operations, and crew transfer, and logistics. 
We don't want to use that for any more flights than we have to 
to complete our obligations.
    Chairman Boehlert. Thank you very much. So by the end of 
April, we can expect something more definitive?
    Mr. Readdy. In terms of the centrifuge, that is correct, 
sir.
    Chairman Boehlert. And what about the number of flights?
    Mr. Readdy. The number of flights will be an iterative 
process with our international partners and ourselves, as we 
assess what our exploration goals are, and as they assess what 
their exploration goals are. So expect--that will be a 
continuing dialogue, but the first step in the Vision for Space 
Exploration, of course, is returning the Space Shuttle safely 
to flight, and we are very focused on doing that right now in 
late Spring.
    Chairman Boehlert. So it is still an open question on the 
number of flights, as you point out.
    Mr. Readdy. Yes, sir. I think it will be an open question, 
and it will certainly be dependent on how we fare with return-
to-flight, and the remainder of the flights this year, and 
input that we get from the international partners.
    Chairman Boehlert. Well, let us go on down to the manifest 
for the Shuttle flights. That is, which flight will conduct 
which mission? Has that been determined yet?
    Mr. Readdy. Yes, sir. At least in the baseline manifest, 
each and every one of those 28 flights has been laid out, with 
specific mission objectives, and that is how we pared it down 
initially, to meet our international commitments. We are 
assessing each and every one of those flights, and General 
Kostelnik and his Space Station Deputy, Mark Uhran, and the 
Program Manager, Bill Gerstenmaier, are looking at all of those 
flights to see which ones are uniquely requiring the Space 
Shuttle as a launch capability.
    As you know, we are also looking at commercial crew and 
cargo to the International Space Station this fiscal year. We 
look for the opportunity to be able to provide logistics with 
other than Shuttle, certainly after it is retired at the end of 
this decade, but to that end, this summer, we expect to have a 
request for proposal issued, and then by the end of this 
calendar year, we expect to start issuing contracts to that 
end.
    Chairman Boehlert. Whether NASA will have to lay off 
employees this year or next. Mr. Gregory.
    Mr. Gregory. The answer to that is very clear, and that is 
between now--this year and next, there will be no employees 
laid off. We have adequate budget to cover all salaries for the 
next year and a half or so, or the next two years. During that 
time, we will be assessing, in a very deliberate way, based on 
the Vision that we have, the kind of requirements that we have, 
and the kind of resources that will be necessary, and that 
includes people and facilities and capabilities, sir.

                           Project Prometheus

    Chairman Boehlert. What mission will be used as a test for 
Project Prometheus?
    Mr. Gregory. Craig Steidle.
    Admiral Steidle. Yes, sir.
    Chairman Boehlert. Admiral.
    Admiral Steidle. Yes, sir. Did you say vehicles, sir, or--
--
    Chairman Boehlert. What mission?
    Admiral Steidle.--test mission? Which mission? We don't 
know exactly what the mission will be to demonstrate 
Prometheus, but we are doing an analysis of alternatives to 
define exactly that.
    On Prometheus in general, we looked at the risk and the 
scope and the dollar value of the JIMO mission that was 
proposed. After we signed the MOU with Naval Reactors through 
its Department of Energy hat, we did an assessment of that 
particular mission, found that we were pushing the state of the 
art for what we were trying to achieve in the JIMO mission, so 
we looked at some earlier spirals, earlier demonstrations of 
fuel capabilities, probably in '08, demonstration of a 
prototype in '11, and hopefully, for a mission by--within the--
another decade. We haven't defined exactly what that mission 
will be, but it will be a demonstration of an in-space nuclear 
electric capability, a joint exploration and science mission.

                        Crew Exploration Vehicle

    Chairman Boehlert. Thank you very much. The basis 
parameters for the Crew Exploration Vehicle, including the crew 
size and whether it could service the Space Station.
    Mr. Gregory. The RFP for that will go out, I believe, the 
first week of March. We anticipate a response back, and a 
selection in the August timeframe, and let me, again, give 
Mr.--Admiral Steidle the opportunity to talk about that area.
    Chairman Boehlert. Admiral.
    Admiral Steidle. Yes, sir. Mr. Chairman, what we have done, 
slightly different, is we have tried to leave the trade space 
open as wide as we possibly could, first thing. And we tried to 
get as much participation with industry as we could in the 
early design and scope of the concepts.
    Chairman Boehlert. That is to be applauded.
    Admiral Steidle. Yes, sir. So what we--thank you--what we 
did is we led a Broad Agency Announcement, and we picked 11 
teams. They go from the traditional primes down to t/Space, and 
some of the nontraditional players, and brought them into the 
fold, actually working with us to define the requirements, and 
helping us write the RFP. So we have kept that trade space 
open. The final version of the RFP will go out by the 1st of 
March, with a selection, as Mr. Gregory said, in August. We are 
going to keep that trade space open through about the summer of 
'06, when we will define with more rigor such parameters and 
capabilities, such as the number of crew, and the launch 
vehicles, and pieces of that nature.

            NASA's Proposed Iran Nonproliferation Act Remedy

    Chairman Boehlert. NASA's plan for dealing the Iran 
Nonproliferation Act.
    Mr. Gregory. I appreciate that question. As we all work to 
accomplish the President's Vision for Space Exploration, we 
recognize that this is a journey for all mankind, and as with 
endeavors such as the International Space Station, the 
cooperation of international partners will be welcome.
    I can tell you from personal experience we have worked 
very, very closely with the Russians, and I will tell you, it 
has really surprised me how close these two countries have 
come, and how they have certainly exceeded our expectations. 
There have certainly been challenges. There are always 
challenges in programs such as this. But we recently 
accomplished something called a balance agreement, which 
preceded the INA activity, or the INA Act. And we are now very 
comfortable with the ability to maintain and sustain a human 
presence, both American and Russian, on the International Space 
Station through April 2006. It includes transfer, crew transfer 
both ways, and Station crew rescue capabilities.
    The Administration is interested in seeking a balanced 
approach that continues to protect our non-proliferation goals 
while advancing potential U.S. cooperation with Russia on the 
Vision for U.S. Space Exploration. Such a balanced approach 
must include the Iran Nonproliferation Act of 2000, which is 
the INA, which currently complicates the cooperation with 
Russian on the International Space Station, and we also have to 
address the impact on cooperation with Russia on our future 
space explorations, efforts related to human space flight. To 
that end, the Administration looks forward to working with 
Congress to ensure that the Vision for the U.S. Space 
Exploration is able to succeed while remaining fully consistent 
with broader U.S. national security and non-proliferation 
goals.
    Chairman Boehlert. So when will we know? We welcome their 
cooperation in space exploration, and applaud that. I would 
like to see that same cooperation----
    Mr. Gregory. It is----
    Chairman Boehlert.--with nonproliferation.
    Mr. Gregory. This is a very critical decision, that has to 
be made, and an agreement and understanding. I can't tell you 
yet what the form of it will be, but I do know that NASA, along 
with the Administration and the Department of State, are 
working diligently to prepare, so that we can engage with the 
Congress to come to an understanding. I would say that it would 
be sooner rather than later, and if you will allow, when we get 
greater detail, we will report back to you, sir.

            Launch Vehicle for the Crew Exploration Vehicle

    Chairman Boehlert. And finally, the launch vehicle for the 
CEV.
    Mr. Gregory. Let me give--again--this to Admiral Steidle.
    Chairman Boehlert. Admiral.
    Admiral Steidle. Yes, sir. What we have done, sir, is taken 
a step back, and I will get to answer in just a second. But 
what we have done is pulled out all of the trade studies that 
have been done from launch vehicles. We worked together, Bill 
Readdy, myself, and our Director of Mission Safety and 
Analysis, Brian O'Connor, to redefine the human ratings plan 
and human ratings document.
    We have--are going to share that with the industry. We are 
going to complete our trade studies, and present the 
capabilities to industry right after we put the RFP out, and 
that will be in April, so that is the capability that is going 
to be required for the Crew Exploration Vehicle.
    During the summertime, when we select the two teams that 
will actually build the demonstration model and go forward, we 
will share with them the human ratings document and plan, so 
that we can integrate this as a total system. We will also go 
out with an RFP for a launch vehicle to support the Crew 
Exploration Vehicle. In the December timeframe, we should have 
the selection of the Crew Exploration Vehicle launch vehicle.
    Chairman Boehlert. Thank you. I have exercised the 
privilege of the chair by going beyond my normal five minute 
question period, but these are questions that are on the minds 
of all of us on this committee, on both sides of the center 
aisle. And from the answers, and some of those, understandably, 
were somewhat vague, you can appreciate why we are having this 
hearing, and are determined to follow through and work 
cooperatively with you to ferret out the answers, so that we 
can make some decisions based upon fact, rather than just 
theory, or for that matter, emotion.
    We all are excited by space exploration, and I was one who 
was there when the President gave his January 14 speech last 
year. I stood and applauded, because he inspired us all. He 
outlined a vision, and to his credit, he didn't say we are 
going to do it tomorrow, and Congress, write me a blank check. 
But he did indicate a determined effort to explore the great 
beyond, and that is something we all are interested in.
    Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman. That was an important 
line of questioning. Over the last few years, we have been 
given a lot of wait and see type answers, and I think it is 
important that we do set some deadlines, and I will try to be 
brief, to make up for your lack of brevity here, because you 
served us all with those questions.

                Soyuz and the Iran Nonproliferation Act

    Now, Mr. Gregory, the last Soyuz we have contracted for 
goes up this year. And so in terms of timetables, next year, 
either we are going to have--the President is going to have to 
certify compliance, or there is going to have a repeal of the 
Non-Proliferation period--Treaty. Is that correct?
    Mr. Gregory. Sir, would you repeat the question----
    Mr. Gordon. Yes.
    Mr. Gregory.--one more time?
    Mr. Gordon. Since the last Soyuz is going to be going up 
this year, that we have contracted for, they have agreed to do, 
and we have no alternative method, then next year, and the 
Russians have made it clear, over and over, that they are not 
going to do it at their own expense, then so next year we are 
going to--the President either has to certify compliance or 
there is going to have to be some type of repeal of the Iran 
Non-Proliferation Treaty. Is that correct?
    Mr. Gregory. Sir, you are correct that we have an agreement 
with the Russians for them to carry out the crew transfer and 
the rescue. As I had stated earlier, it is vital that an 
agreement be reached on how we handle the INA. That is still 
being discussed on the Administration's side, and as soon as we 
are aware of the medium with which we will approach Congress, 
we will come back. From my point of view, it is essential, it 
is mandatory, and it will set us up to continue the build and 
completion of the International Space Station.
    Mr. Gordon. Now, the Russians have made it clear, they have 
said over and over, they are--that they are not going to do 
this on their own. So if that is the case procedurally, then, 
if we have to--and we have no alternative but to purchase 
additional Soyuzes next year. Then the only alternative, is 
this correct, that either the President has to certify 
compliance, or there has to be repeal or modification of the 
Act? Is that correct?
    Mr. Gregory. Something will have to occur, yes.
    Mr. Gordon. I know that. Right. But would it have to be one 
of those--is it--is there anything other than one of those two 
alternatives?
    Mr. Gregory. At this moment, I am aware, perhaps a waiver 
or an exception. Other than that, sir, I am--I don't know what 
the other vehicles would be.
    Mr. Gordon. There is a waiver or something. Could you--
then, could you lay out--would you provide for the Committee, 
please, what those alternatives would be?
    Mr. Gregory. Sir, if we would allow--we will provide that 
for the record, as soon as----
    Mr. Gordon. Right.
    Mr. Gregory. As soon as we learn.
    Mr. Gordon. Well, you don't know? I am not asking you what 
the President is going to do. I am asking you what are the 
alternatives the President can do?
    Mr. Gregory. Well, those----
    Mr. Gordon. Those should be known, shouldn't they?
    Mr. Gregory. Well, those are the two that I can speak of at 
this moment. But if you would allow, I will research and 
provide it for the record.

                             NASA Workforce

    Mr. Gordon. Again, I am not--I know that you, you know, 
don't have ESP. You can't know what the President is going to 
do, but you--he, I assume he is going to ask you what are the 
alternatives, and that is what we would like to know, what the 
alternatives and what the timeframe would go with that. Let me 
ask you, also, approximately how many employees does NASA 
currently have? Just approximately.
    Mr. Gregory. Jim Jennings, can you give us an answer?
    Mr. Jennings. Yes. We have approximately 18,000 employees 
in NASA today.
    Mr. Gordon. And what does your five year budget assume for 
the workforce levels over the next five years?
    Mr. Jennings. Our current budget, we are budgeted through 
'07 for the 18,000 employees. Going into '07, we are budgeted 
for about 2,000 less than that, and over the next two years, we 
are going to work to understand our exploration program, and 
where that competition lies, and our assumption is we will 
remain close to the 18,000 during the--through the run-up.
    Mr. Gordon. I thought you said there were going to be 2,000 
less. And you can't take 2,000 off, and then still have 18.
    Mr. Jennings. Our current budget planning is 2,000 less 
beginning in '07, but we have a lot of work that hasn't been 
defined in the exploration program. Our expectation is, over 
the--during this budget process, that work will be defined, and 
then, we can assign folks in the center to that fund.
    Mr. Gordon. But you can't put--you can't really have an 
accurate five year budget without knowing what your workforce 
level is going to be.
    Mr. Jennings. The process we go through, we define the 
mission, and then we look at and see what human resources is 
required to carry out that mission.
    Mr. Gordon. Well, that means you are going to be getting 
rid of current employees that don't meet your--the mission, and 
bring in additional employees that will have the skills and 
talents.
    Mr. Jennings. That will be part of the process, looking at 
our skill mix issues, but to answer the question, as we put the 
budget together, we didn't have a lot of the exploration vision 
defined, so we couldn't assign those employees at centers to 
it. So as we define those, we will assign the folks at the 
centers to that particular dollar lines.

                                Buyouts

    Mr. Gordon. And you have advertised buyouts at a number of 
the centers. Can you tell us how many employees you are hoping 
to take the buyouts and how many actually took the buyouts?
    Mr. Jennings. The current buyouts that we had planned, this 
year, we had hoped to get about 425 employees to take those 
buyouts. We got about 325. We are offering the buyout again 
across the Agency, and we hope to get about the same number in 
this new buyout.
    Mr. Gordon. Let me compliment you for--its--we don't often 
get specific information here, and I thank you for helping us 
with that.
    Mr. Gregory, the NASA briefing charts indicate that NASA 
has a team looking at, and I quote ``transformation to 
alternative organizations, such as Federally-Funded Research 
and Development Centers, and further consolidations with 
additional facility closures.'' In other words, privatizing the 
NASA centers or shutting down some of the facilities. Could you 
give the Committee specifics on what is being planned?
    Mr. Gregory. Certainly, sir. Well, first of all, as you 
look at the--if you look at the exploration vision, the 
exploration vision is probably the largest sustained activity 
that I am aware of, certainly nothing like this has ever 
occurred in the government, and probably in industry. As you 
transform and prepare yourself to look forward, and to sustain 
an activity like this, it requires changes. It is absolutely 
mandatory that changes occur. As we have reorganized the 
headquarters to bring together the themes that we have in order 
to support, it also requires that we look at the skill mix that 
we have in the agency. It looks at how we get the best bang for 
the buck. We are all taxpayers. We want that--the monies that 
come to us to be spent in a very reasoned way.
    It also requires that not only do we look at the skill mix, 
but it also requires that we take a look at the facilities that 
we have, and there are activities where we look not at closing 
down centers at all. That is not part of it. But looking at 
those resources that we have, assets that we have, to determine 
what is necessary, both in the short term and the long-term, 
that we should either maintain, upgrade, shut down, and 
rebuild. Another thing we are looking at are management 
organizations. You mentioned the FFRDC, the Federally-Funded 
Research and Development, but that is one of many alternatives 
that we are looking at, a university affiliate, industry 
partnerships, government institutes of sorts. And so we have 
actually asked each center director to evaluate what they do, 
and determine what are those obstacles, or those hindrances, to 
do even greater work.
    And so each center is looking at them, and there was a team 
put together that came up with several options, but I think it 
was very clear, as the team worked together, that there was not 
a single solution, that it could be one of several, that it 
would not necessarily replace, but might complement. And so all 
of those activities are going on as the Agency transforms 
itself to support the exploration vision.
    Mr. Gordon. Thank you, Mr. Gregory. My time is running out. 
But let me just say it was almost staggering, in terms of 
magnitude, that you described the changes that are getting 
ready to go on. This is sort of the genie going out of the box 
here. That is why we really would like to be partners with you 
in trying to determine where NASA is going, because there is 
the potential to lose a tremendous amount of skill and 
employees, and institutional knowledge that can't be 
replicated. And so we have got to be sure that we are going the 
right direction, and a sustainable direction, because the 
magnitude that you pointed out, there is no turning back.
    Mr. Gregory. Yes, sir. And I certainly agree with you, and 
that is why, as Mr. Jennings just mentioned, we have several 
years to thoroughly assess and make a reasoned--or give you a 
reasoned answer. No rash decisions at all, as far as I can 
tell, and I think that you will be very satisfied and pleased 
with the way the Agency responds to these very important 
questions.
    Mr. Gordon. It sounded like two or three years was--I don't 
know whether that is several, but it was--there is going to be 
some pretty big things happening in two or three years.
    Mr. Gregory. Until 2007, we have stability.
    Chairman Boehlert. Thank you. The gentleman's time has 
expired, and I want to commend the gentleman from Tennessee, 
who has proven that Democrats are as loquacious as Republicans, 
and just as constructive and productive in the line of 
questioning.
    Mr. Calvert.

                     Space Shuttle Flight Manifest

    Mr. Calvert. Thank you, Mr. Chairman. Thank you, Mr. 
Gregory, for your testimony.
    I guess this question is for both you and Mr.--and Admiral 
Steidle. You mentioned that approximately 28 missions were 
necessary to finish the International Space Station, and as we 
all know, when we look at the budget for NASA, the first thing 
that strikes you, of course, is that the Shuttle and the 
Station itself take up approximately 40 percent of the overall 
budget. So in order for us to move on to the President's 
vision, we need to stay on budget and finish the Station as 
soon as possible.
    Of the flights that are going to Station, how many are 
solely for the assembly of the International Space Station, and 
how many are purely supply missions?
    Mr. Gregory. As is usually the case, all Navy guys look the 
same. It was actually Bill Readdy, also a Navy person, who 
would be the appropriate person to answer that question.
    Mr. Calvert. All right.
    Mr. Readdy. Thank you, Mr. Calvert. The 28 flight manifest 
is a mix of some modules going up and logistics, and so you 
can't necessarily take one mission and say, okay, that is a 
logistics mission solely, because each and every mission is 
going to carry some logistics. Not every mission is dedicated 
to a particular cargo element. So there is some logistics and 
some assembly in most of those flights.
    I will get you the answer for the record, because we are 
assessing the mission content from that 28 flights and working 
backwards, based on our exploration vision.

       Alternatives for International Space Station Construction

    Mr. Calvert. The reason I was asking that question, are 
there alternatives--and some testimony that indicated that 
there was--besides the Shuttle. Obviously, the Shuttle is an 
expensive infrastructure to maintain, but the sooner we get the 
Station done, the sooner we could retire the Shuttle. Is 
there--have you looked into other lifting components to--that 
would be able to lift these components and get this done 
sooner?
    Mr. Gregory. Yes, sir, we have. And just to set the stage 
here, the International Space Station right now, that is on 
orbit right now, circling the world every hour and a half, is 
about half-built. It is about the size of a 747 jumbo jet. The 
solar arrays have got about the same wingspan as a 747, about 
the same habitable volume. Most of the other components are at 
the Kennedy Space Center, and they have already been integrated 
into launch packages, and they are ready to go, with the 
exception of the Columbus Laboratory that the Europeans are 
providing, which is over in Bremen, Germany, and some other 
components. So----
    Mr. Calvert. Have you looked into if, in fact, basically, 
the components that are on the shop floor, and it is a matter 
of getting these components up and constructing the Station to 
its--to completion, if in fact, we resolve our issues with 
Russia and the Iran proliferation problem that we have to work 
out, could they be helpful in getting this done sooner by using 
some of their lift capability?
    Mr. Gregory. We have already looked at the ability to use 
other launch vehicles, and because those launch packages, those 
modules were designed to be launched on board the Space 
Shuttle, the launch environments, the loads, the integration of 
those different packages doesn't allow you to repackage those 
for a different launch vehicle, with different interfaces, 
without substantial redesign. So we don't think that that is 
possible. It may be that by adjusting the manifest, there are 
some components of the International Space Station that, based 
on our new exploration vision, and that of our partners, may no 
longer fit in the assembly sequence, though.

                  Crew Exploration Vehicle Development

    Mr. Calvert. Going back to the CEV for a second, Admiral, 
you mentioned in your testimony in answering a question that 
determining at this point exactly how that vehicle is going to 
be comprised and moved forward, it seems me, I am new to this 
Chairmanship. I have been here two weeks, but I have been on 
the Committee 12 years, that we haven't had a lot of great 
success in working out the--a new launch vehicle. Can you make 
us more comfortable up here, what new emerging technology we 
have, and whether or not you are looking at new emerging 
technology, and new commercial folks out there, that can 
provide us some hope that we can actually get this completed?
    Admiral Steidle. Yes, sir. Yes, sir. We have, as I alluded 
to, we have done a lot of trade studies analysis. This is for 
the Crew Exploration Vehicle, not the Heavy Lift, which--we can 
segregate those two pieces into different avenues. But on the 
Crew Exploration Vehicle, there is a lot of commercial pieces 
that are available. The--we are looking from the Shuttle-
derived variations, where we can take the reliability of pieces 
that have been used on the Shuttle, to what is being used on 
the EELVs today, and doing the trade studies on both of those 
pieces.
    And that is the process that we are going through. You have 
to look at the life cycle costs of those particular systems, 
the logistics efforts of those, the infrastructure that is in 
place today, versus the development costs that are needed later 
on, and then, the human rating aspects of that, what it costs 
to actually put the Crew Exploration Vehicle on top of these 
particular pieces. That will be concluded in April, and then, 
Bill and I will work as--together to go forward to define those 
capabilities that are going to be required by the summertime 
for the teams that will actually build the demonstration, they 
need to have that information by the summer of '06.
    There is assets--there are assets out there that will meet 
our needs. There are proposals from these 11 teams that we have 
been working with for the last year right now, to put the Crew 
Exploration Vehicle on top of it. So I feel very confident that 
we are going to move forward, and have a very good solution for 
it.
    Mr. Calvert. Thank you, Admiral. I see my time has expired.
    Chairman Boehlert. The gentleman's time has expired. Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and to 
the full Committee Chairman and Ranking Member, to the 
Subcommittee Chairman and Ranking Member. I think this 
committee and the responsibility of oversight is, if you will, 
embracing of all philosophies. We know the importance of NASA. 
We know the importance of science, and so we come to the 
hearing with the concept of how we can do better.
    And I thought I would just offer some observations that are 
somewhat painful, but I think it is important to couch our 
debate or our discussion in a very realistic perspective. First 
of all, the budget that we are operating under, the proposed 
Administration's budget, and the constraints that we have to 
work on here in Congress, I think, can be appropriately named 
the pinch and pain federal budget. It makes it very difficult 
for us to make the right kinds of choices, and it forces on us 
priorities that eliminate some very good options and 
opportunities.
    I am concerned about that.
    I also believe that NASA has gained, and I thank Ranking 
Member Gordon for his leadership in terms of the advocacy that 
he has shown as it relates to the NASA human Space Shuttle in 
particular, because I am reminded of more than 10 years ago, 
when it was a very, very tall mountain to climb in order to get 
across the board support from all regions of the country to 
support NASA.
    Frankly, I believe it is important for us to develop 
stakeholders, more so than the reordering of an appropriations 
process to make friends. You don't make friends that way. You 
make friends by ensuring that the NASA program invests in many 
aspects of science, including human Space Shuttle, which I 
happen to be a very strong supporter of.

                        Future of NASA Workforce

    As I look at, if I may pose these questions dealing with 
employees and staffing, and I do so even in light of the fact 
that Kennedy and Johnson, Johnson in Texas, may have some 
protection only because we are dealing with the human Space 
Shuttle for the next couple of years, up to 2010. But I always 
am reminded of the fact that if they come for you at night, 
they will come for me in the morning. And so it is important to 
understand what we are doing with our employees.
    I am particularly concerned that if we have these rumors 
about closing, one, you are losing outstanding research 
scientists. Two, all of your future scientists now being 
trained in our institutions around the Nation, our institutions 
of higher learning around the Nation, and possibly 
international scientists, have no reason to look toward NASA or 
look toward the science entities here in the United States, 
because we are cutting individuals. Of course, maybe your 
answer will be that you are cutting administrative, et cetera. 
But that is not what is going out across the wires. So I want 
that question again, and I know that it was probed earlier, but 
this seems like a BRAC. We have no understanding, we--is there 
a commission? What is your timetable, etc.?
    My second question leads into my safety concern. The CEV 
vehicle that we are talking about, and I do want to 
acknowledge, mind my manners, thank Sean O'Keefe, the 
Administrator, for his great service, and I do want to say 
Administrator Gregory, which I will call you, your service is 
to be appreciated by this nation and by this committee. We 
thank you very much. But this vehicle that is proposed, there 
are proposals, but it is a draft request for proposal. It 
contains no requirement for the CEV to ferry crews to and from 
the International Space Station. One of the concerns I had with 
the Gehman report, and I couch it in terms of concerns, is that 
it didn't go far enough to review the safety needs of the 
International Space Station.
    Over the months and years, we have heard of different 
deficiencies. Safety is a big issue. Safety is an issue for the 
astronauts. Safety is an issue for those who are at Kennedy and 
Johnson. Safety is an issue for the ISS, and I would like 
specifically to ask what is the safety budget? Where is that 
line item for the next five years, and what is it for the last 
two years, so that we can compare? What is NASA's commitment to 
safety? So I ask you to share with me your ordering of this 
BRAC for NASA. How are we going to protect these employees or 
reinvest in our employees, so that we get the kind of talent we 
need, the CEV question, and of course, the safety question.
    I thank you, Mr. Gregory, very much.
    Mr. Gregory. Thank you, ma'am. Very, very, very important 
questions.
    Let me address the awareness, and I think you have 
rightfully pointed out an issue that we have really been 
working with. I think, if you would really look at what has 
occurred in the last year, we have always believed that if we 
make decisions at Headquarters, everybody knows exactly what it 
means, and there is no misinterpretation. What we found out 
was, in fact, that doesn't happen. And many times, decisions 
are made, and they are misinterpreted, and what we end up with 
are a series of rumors and people are very concerned about it, 
not only from their welfare, but the integrity of the programs 
that they are working on. We have taken a very active role in 
the last year to move to each center, and in fact, we have done 
that, with a group of folks, where we talk about those very 
specific areas and issues.
    And we have also been--major--we have also encouraged the 
center directors to go back and tell, as they should, exactly 
what the plans are. Sometimes, we miss a person, or a group of 
people, and we then very quickly try to go back and describe 
exactly what the process is, how it works with the vision, and 
what the transformations that occur, and after we have been 
able to do that, we have had, I think, very good agreement and 
understanding by our people. But we really need to do more.

                         NASA Budget and Safety

    The second issue, on safety. You have at this table two 
people who actually flew in the Space Shuttle, myself and Bill 
Readdy. And so we are very aware of the issues that you are 
mentioning. There has been a major re-look at the safety 
program in the agency. It has also looked at the independent 
assessments. It has also looked at the way that the agency can 
determine whether choices or decisions or waivers that have 
been granted are, in fact, valid. And so this is a dialogue 
that we should we have where we fully explain all of the pieces 
and parts that not only responds to the Accident Investigation 
Board, but we believe go way beyond that.
    Your question of budget, we have Steve Isakowitz, the 
Comptroller, on the end, and Steve, can you handle that?
    Mr. Isakowitz. Yes, sir. You asked a question on budget 
with regard to the safety.
    Ms. Jackson Lee. Sir.
    Mr. Isakowitz. Yeah. We actually don't have specific 
budgets just for safety. We have, in a number of areas, teams 
of folks that are dedicated, such as the NASA Engineering and 
Safety Center, that we had set up in this year's budget, which 
is about $70 million in the '06 request. We also had set up an 
independent technical authority, which was one of the 
recommendations that came out of the CAIB, and there, we had 
identified about $80 million in the '06 budget for that 
purpose. But we also, in the dollars that we invest in the 
Shuttle and Station program, we have people as part of their 
job, safety is an important aspect for it. And so to that 
degree, we don't specifically break out those safety-related 
items, even though it is integral to the overall safety 
strategy.
    Ms. Jackson Lee. Thank you, Mr. Chairman. I see my time is 
up. May I just pose this question to the Chairman? I would 
really like them to provide me in writing those specific 
numbers on safety, and also, the answer regarding the number of 
employees they are projecting to be cutting from around those 
centers. And I would appreciate it very much. And I thank the 
Chairman for his indulgence.
    Chairman Boehlert. Thank you very much, and all Members 
will be given the opportunity to submit questions in writing to 
our witnesses, and we will accumulate them, submit them to Mr. 
Gregory and his team, and ask for timely responses.
    The Chair now recognizes Mr. Hall of Texas.

    Space Shuttle and Crew Exploration Vehicle Safety Modifications

    Mr. Hall. Thank you, Mr. Chairman. I think Ms. Jackson Lee 
hit on the thing that this country listens more for at this 
time in conjunction with the space program than anything else, 
and that is safety. And I would like more specific than we have 
been given.
    I know it is difficult to design, because of weight 
problems, proper material, and designs, but two things that 
have kept us from having a safety escape mechanism of some type 
for these men and women, isn't design and difficulty, but 
design and cost. I can't accept the fact that you can put cost 
into that, because I don't think you can put a figure on the 
lives of the people that have--we have already lost, and all of 
you know that two years ago, the Columbia disaster underscored, 
I think, the sad reality that we have not done enough to ensure 
crew safety.
    I think you remember, or are aware of the fact, and I am 
sure the Comptroller is, that I authorized an amendment that 
was included in last year's NASA funding bill, that calls for 
$15 million to be used to solicit the best concepts from the 
aerospace industry and elsewhere to improve Shuttle crew 
survivability. You are aware of that, are you not?
    And I will go ahead and ask the second question. What 
safety changes have you made for the first future flight, which 
I understand the window opens about May the 12th for this year?
    Mr. Gregory. Mr. Hall, why don't I let Mr. Readdy answer 
that question, but let me tell you something. Safety permeates 
NASA. We have values, NASA values, number one is safety. Number 
two is the NASA family. Number three is excellence. Number four 
is integrity. When you go to different centers, you talk to 
different people, they don't have a variation of that. That 
is--those are the NASA values that we have, that we work to 
every day. Bill Readdy has been on top of the--of all of the 
safety enhancements, and I think--Bill, can you, why don't you 
summarize some of those for Mr. Hall?
    Mr. Readdy. Mr. Hall, thank you for your support. Crew 
escape is, I think, what you are talking about, and as you 
mentioned, the inherent design of the Space Shuttle really 
makes it nigh on impossible to put that into the Space Shuttle 
design. That was one of the things that influenced our thinking 
on making sure that we would only fly those flights necessary 
through the end of the decade to complete the International 
Space Station. And not fly to 2020, as had been previously 
planned.
    Admiral Steidle and his folks are ensuring that in the 
request for proposals for the Crew Exploration Vehicle, that we 
build in crew escape throughout all modes of that vehicle. And 
I think that represents the real commitment that we have in the 
future to providing a safer means of getting crew to and from 
space.
    Very specifically, though, in the Space Shuttle world, as 
we all know, the foam liberated off the tank caused the 
accident. But we haven't simply looked at insulation of that 
external tank as what we must do to Return-to-Flight. Today, we 
are testing solid rocket motors out in Utah. Today, the 
Stafford-Covey task group is down in Florida reviewing our 
progress on Return-to-Flight implementation plan. We are 
looking across the Space Shuttle hardware, from stem to stern, 
including all the ground operations that we do, and the 
management operations, in order to make sure that we come back 
not only much smarter as a result of the Columbia accident 
investigation, but also with a much stronger and safer program.
    Mr. Hall. I certainly don't question anybody's interest in 
safety, nor would I even dare to question those of you who have 
undergone the vicissitudes of flight, and the dangers, and know 
better than any of us here the--really the fragility of that 
flight in the future, and that one that we are going to launch 
later this year, and those that follow.
    What I want to know is, and I understand the difficulty 
involved in attaching or installing an escape module in any of 
the three existing Shuttles, but I don't really want to see us 
initiate any new thrusts unless we are at least underway with 
incorporating safety mechanisms and devices. I won't say 
modules, because you may have a module, and you can't put a 
module in a module, but I use the words safety mechanisms and 
devices. I think that is what this country and this committee 
and this Congress, and this--and everyone interested in the 
space thrust is listening for, is safety that you are underway 
with now. I would hate to have another tragedy, and not have us 
underway with trying to solve the problems that exist with the 
losses that we have had.
    So I guess what I really would like to know is the $15 
million, how that has been spent, and has it been spent, and is 
it allocated still toward that that it was set up for?
    Mr. Gregory. Admiral.
    Admiral Steidle. Sir, we will have to get you the specifics 
on exactly where the $15 million went. I can tell you, as Bill 
said, our top priority in the Crew Exploration Vehicle is safe 
escape throughout the entire envelope, and that is through 
mechanisms, modularization, and designed by industry with us. 
But as----
    Mr. Hall. What does that mean?
    Admiral Steidle. That means working with industry, we have 
established the capabilities, and we have stated that you--
industry and the design team has to have the capabilities for a 
safe crew ejection and safe return throughout the entire 
envelope. You may miss--we may lose a mission, but we will not 
lose the crew. That is the design specifications. Now, how you 
do that has to be done together with us and industry together 
in that. Specifically, where that particular funding went, I 
will have to get back to you, because I don't have that with 
me, sir.

          Space Shuttle Return-to-Flight Safety Modifications

    Mr. Hall. All right. All right. And the last thing I want 
to ask, I think there was a question asked about the basic 
changes in the--for the first launch. Was that your question, 
Mr. Chairman? And the number of crew members, and I didn't hear 
an answer to the number of crew members.
    Mr. Readdy. With respect to Return-to-Flight.
    Mr. Hall. Yes.
    Mr. Readdy. We have looked at those things that we must 
accomplish on that mission, and as you know, the first two 
flights are going to be test flights. There are so many things 
that we have done to improve the system, that even given the 
exotic laboratories that we have here on Earth, the vacuum 
chambers, the wind tunnels, the computational fluid dynamics, 
and everything else, quite simply, we won't know until we 
actually go fly. So the first two missions are test missions. 
They include a whole number of safety changes, not only the 
ability to observe the Space Shuttle during its ascent, all the 
way through the external tank separation, the ability to 
inspect the vehicle with an orbiter boom sensing system, and 
then, when we get to the Space Station, we will also be doing 
developmental test objectives to look at reinforced carbon 
carbon, or the wing leading edge material repair, as well as 
tile repair. All of those things require seven people on 
Return-to-Flight missions, sir.
    Mr. Hall. So seven is the figure.
    Mr. Readdy. Seven is the figure for the Space Shuttle 
Return-to-Flight.
    Mr. Hall. I thank you. I yield back my time.
    Chairman Boehlert. Thank you very much. And that return-to-
flight will be commanded by Colonel Collins?
    Mr. Readdy. Yes, sir. That is correct. Colonel Eileen 
Collins, sir.
    Chairman Boehlert. A New Yorker, I might add. The Chair 
recognizes Mr. Udall.
    Mr. Gregory. Not only Elmira, but also Air Force----
    Chairman Boehlert. And also a Syracuse University graduate.
    Mr. Gregory.--instructor at the Air Force Academy.
    Chairman Boehlert. Mr. Udall.

        Possibilities for a Shuttle Servicing Mission to Hubble

    Mr. Udall. Thank you, Mr. Chairman. I will attempt to 
follow in the footsteps of my good friend, Mr. Hall, in his 
loquacious brevity. The Hubble Telescope, of course, has been 
the center of a lot of discussion recently. I want to focus my 
initial comments on the telescope. And I have made no bones 
about my support for a servicing mission, and I am afraid the 
treatment of Hubble in your testimony doesn't really address my 
objections to the Administration decision to terminate funding 
for any Hubble servicing mission.
    I know you have to support the Administration's position on 
Hubble, so I don't expect you to change your testimony, but I 
would like to review the bidding. NASA asked the National 
Academies to review the options for extending the useful life 
of Hubble. A distinguished Committee did that, and their 
conclusion was unanimous and unambiguous, and that was that a 
Shuttle servicing mission is the best option for extending the 
life of Hubble, and for preparing it for eventual robotic de-
orbit. They also concluded that a robotic servicing mission was 
unlikely to succeed in the time available. In the wake of that 
report, what did NASA do? Well, NASA eliminated the funding for 
the robotic servicing mission, but it didn't reinstate the SM-4 
servicing mission, and I think I am not alone when I say I 
don't understand that.
    The Academies Committee squarely addressed the issue of 
safety risk, and concluded it was comparable to flying the 
Shuttle to the Station, which NASA is already committed to 
doing. And I haven't heard any convincing rebuttal from NASA to 
the Academies safety risk assessment since their report was 
issued late last year.
    So in that context, let us look at the remaining issue of 
cost. Your accomplished panel, Mr. Gregory, told the Chairman 
that it would be about 28 flights give or take what will be 
needed to complete the International Space Station, but you 
also said this number isn't solid, and could likely change, so 
it appears to me that the potential impact of an extra Shuttle 
flight to service Hubble is overwhelmed by the uncertainty in 
the estimates of how many more times we will be flying the 
Shuttle before it is retired.
    Isn't that so?
    Mr. Gregory. Administrator O'Keefe made a very conscious 
and deliberate and well-informed decision that the Shuttle 
would not service the Hubble. We acknowledge and recognize and 
agree with the Academy, when it says that the Hubble is a 
wonderful vehicle, has provided excellent information. We have 
learned quite a lot from it.
    Mr. Udall. Mr. Gregory----
    Mr. Gregory. But I can tell you that I agree with Mr. 
O'Keefe, as a former Shuttle pilot, and so I have the--at least 
the credentials to talk to you about what it is that I would 
consider safe or risky, and I will make that very strong 
recommendation to the next Administrator, who--either he or she 
is.
    Mr. Udall. No, I am not questioning your service and your 
valor. What I wanted to make the point is, is that in the 
context of 28 or 30 additional flights, because I am talking 
about cost now, not the safety side, of the equation is that an 
additional flight fit into that timeframe to me, doesn't seem 
to be something that is--would overwhelm what we are trying to 
do with the Space Station.
    So if I can continue, just--my commentary. The National 
Academies, when Dr. Lanzerotti spoke before us two weeks ago, 
he made a very important point. He said that when deciding 
whether to allocate the costs of a Shuttle servicing mission to 
the agency's science program, it is important to remember that 
throughout the life of the Hubble program, the costs of Shuttle 
missions to service Hubble have never been charged to the 
science program, and the costs of Shuttle missions to the ISS 
have never been charged to the Station program. I believe those 
statements are both true.
    Mr. Gregory. Now, those were true, and they were certainly 
applicable before the Columbia accident.
    Mr. Udall. And so in that context, do you see any logical 
basis for changing the commitment that Administrator O'Keefe 
made to Congress, namely, that the Shuttle costs of SM-4, 
Shuttle servicing mission, would not be charged to the science 
program? This statement from--answer to a question from 
Administrator O'Keefe was in response to Mr. Gordon asking him 
about the Hubble servicing mission, and it was in this 
statement, which I would like to enter into the record, Mr. 
Chairman.
    Chairman Boehlert. No objection.
    [The statement follows:]

                     Statement of Mr. Sean O'Keefe

    Below is the answer submitted by Mr. Sean O'Keefe, Administrator, 
National Aeronautics and Space Administration (NASA) in response to 
written questions submitted by Congressman Bart Gordon resulting from 
the February 27, 2002 Science Committee hearing on NASA's FY03 budget 
request:

Q2.  According to the FY 2003 NASA budget request, the new policy is 
that the cost of any Shuttle flight above the four per year allocated 
to the Space Station will be borne by the customer for that flight. In 
your response to my question at the February 27th hearing, you stated 
that ``in the next Hubble servicing mission two years out, you will see 
that cost incorporated in the space science costs.'' Does the five-year 
budget runout for space science contained in the FY 2003 budget request 
include funds for the cost of the Shuttle flight for the next Hubble 
servicing mission? If so, how much funding is allocated for that 
Shuttle mission, and where is it included in the space science budget, 
by account and fiscal year?

A2. The next Hubble servicing mission is SM-4, which is scheduled to 
launch in 2004. This long-planned servicing mission is considered 
``grandfathered in'' under this policy, and the projected budget for 
the mission was included in the five-year budget run-out under the 
Office of Space Flight. The Office of Space Science will have to budget 
for the Hubble retrieval mission, currently scheduled for the 2010 
timeframe.

    Mr. Udall. The servicing mission was considered 
grandfathered in under this policy. So the point I am trying to 
make is that I don't think cost is the concern here, and I 
would like your comments.
    Mr. Gregory. Thank you very much, Mr. Udall. Exactly right. 
Cost is not an issue, as we evaluated whether--if there were 
extra flights or so one of them could go to the Hubble. That 
was not an issue at all. What we have done is to look at what 
we have done in the past, and then, the--I think the Accident 
Investigation Board was really an eye-opener, and there is a 
paragraph in the Accident Investigation Board report that I 
would like to enter into the record, that really says you know, 
you guys have just become so can do that sometimes, you forget 
that this is an extremely risky business, and we tend to 
minimize what is sane to do and what is inappropriate.
    As I looked at it from the commander's point of view, and I 
have had that privilege several times, I began to look at what 
are those things that we would have to do to assure the 
absolute safety of the crew, and then I began to look at the 
options that we had. One of those that they mentioned in the 
Accident Investigation Board was a safe haven.
    A safe haven is a place where you can go without an issue 
of whether you will sustain your life or not, and have the 
ability to sit and think, not only on-board, but also, the 
people on the ground. If you go to the Space Station, you have 
that opportunity. You have a very large, as Mr. Readdy talked 
about, a volume in there, and you can put all of the crew in 
there to sit and think.
    When you go to the Hubble, you don't have that opportunity 
at all. The only life support activities, or the capabilities 
you have are those things that are resident on the Shuttle. And 
I know the Academy talked about 30 days. Well, let me tell you, 
that is not a good date. That is something that says you have 
powered down the orbiter to a point where you are maintaining 
the ability to power up and come home. But it really doesn't 
address the issue of what the quality of life is on board, or 
whether, in fact, it can sustain life. We do not have a 
Transatlantic abort site for a 28 degree launch. Now, let me 
tell you what that means. When you launch, you always want to 
have an opportunity to land, and if you lose a system or an 
engine, you would like to be able to proceed straight ahead and 
land at a prepared site. We do not have any sites for 28 
degrees, which is a due east launch out of Kennedy.
    The next thing is, we would have to hold a vehicle on the 
ground, and that sounds simple, but to have a vehicle standing 
by to get to the orbiter, that is--has a problem, within 15 
days or less. The agency has never demonstrated that capability 
before. So this is a very high risk activity. And let us assume 
that we had it. We will have never, ever practiced a rendezvous 
of two orbiters on orbit, and this sounds simple, again, but I 
can tell you, and Bill Readdy can tell you, this is something 
no one has ever done before. Probably, we could do it. 
Probably, I don't know how that means. I don't know what that 
really means. But it also means that we are going to have to 
rendezvous and get into an attitude, and connect these two 
orbiters. We have never done that before. And so we have a 
significant number of risks that I think that the Academy may 
have brushed over. And of course, the first one is that we 
haven't launched it yet, and that is not occurring until May, 
and so there were some assumptions--and there are many, many 
other areas that we have looked at----

           International Space Station Safe Haven Capability

    Mr. Udall. I see my time has expired. But I think if the 
Chairman will indulge me for a minute. I think this is an 
important line of discussion. I understand what you are saying, 
Mr. Gregory, but I also know that--at least, I am under the 
impression that NASA is not planning for a safe haven on the 
Space Station after the first two Shuttle return-to-flight 
flights. And the question then becomes how long are you going 
to baseline safe havens, if it is not going to be continued, 
then essentially, there is no difference between the ISS and 
the Hubble Telescope missions, and many in the astronaut corps 
have pointed that out, as the NAS study did as well.
    And I respect you defending the position that NASA has 
taken, but I do think that when you look at the relative 
dangers involved, and the risks involved in these two types of 
mission, that there is not a lot of difference between. And I 
know that there will be many of us who will continue to 
advocate that if we are unwilling to take the risks to go to 
Hubble, then what does that say about a Moon and eventual Mars 
mission, that there are risks in space travel and exploration, 
as my good friend Congressman Hall pointed out, but there are 
also ways to balance those risks with the rewards, and Hubble 
is such a tremendous asset, both public relations-wise, as well 
as the science that has been developed, that there are many of 
us that continue to believe there has to be a way here.
    I made a speech on top of my questions, and I apologize, 
but if you could briefly answer my questions about the baseline 
safe haven concept that you are pursuing.
    Mr. Gregory. Well, let me give you an initial one sentence, 
and then pass it over to Bill Readdy. A safe haven is always an 
opportunity on the International Space Station. It will always 
be there, and whenever we dock, whether we have planned to have 
it as a safe haven or not, it will always be there. It will 
always be there as a contingency, even though we have not 
planned to use it as a safe haven.
    Bill.
    Mr. Readdy. To provide a little bit more detail, you are 
exactly right. For the first two flights, we have insisted that 
we have a safe haven available onboard the International Space 
Station, and we are going to assess exactly how many days we 
have. As Mr. Gregory mentioned, what the Space Station offers 
is the ability to very deliberately assess the situation before 
you commit to launching another orbiter.
    We could certainly have another orbiter stacked, ready to 
go on another launch pad, but to commit to flying that orbiter 
to do a rescue mission, to do the high wire act that he talked 
about, a free space transfer of crew members, suited, from one 
ship to another, to commit to that ahead of time we don't think 
is a prudent thing to do, and we respectfully disagree with the 
National Academies assessment of that as trivial. De minimis, I 
think, was the term that they used.
    In terms of Space Station having a safe haven capability, 
on the 28th of this month, when the Progress launches, we will 
have an ability to assess what the safe haven capability is. 
Just for planning purposes, we have been looking at 33 days. 
That includes a number of engineering analyses that we have 
done, and counts on having failures as soon as you launch the 
Space Shuttle, of the oxygen generating equipment on board the 
Space Station. When the Progress docks, we think planned right 
now for March 2, we will have a much better assessment, and we 
would expect that the number of safe haven days aboard 
International Space Station would be 40 plus days at least. 
Some estimates are in the 50s of days. That certainly gives you 
an awful lot of time to very soberly, very deliberately assess 
the commit to launch of a rescue mission.
    And finally, with the Space Station, you can effect a 
shirtsleeve transfer just as part of our nominal operations, 
which we do routinely, with the Space Shuttle docked to 
International Space Station. So I think all of those things are 
not trivialities, as were kind of stated by the National 
Academies.
    Chairman Boehlert. Thank you very much.
    Mr. Udall. I thank the Chairman for his indulgence. I think 
this is a very important issue, and this discussion has been 
very helpful.
    Chairman Boehlert. I agree on both counts. Dr. Ehlers.

                       Risk Assessment and Safety

    Mr. Ehlers. Thank you, Mr. Chairman. I had planned to ask 
the same questions. So I will simply continue the line of 
questioning.
    The Hubble Telescope has been described as the greatest 
advance in astronomy since Galileo developed the first 
telescope, and I think that is probably accurate.
    The Hubble Telescope, in a week, would probably do better 
and more science than we are likely to do during the lifetime 
of the Space Station. I have yet to see any good description of 
any important, meaningful scientific research that we are 
planning to up there, and I would be--I would love to be shown 
wrong on that. But the Hubble is a real treasure. I believe Mr. 
O'Keefe's decision was wrong. I told him that the day after he 
made it. And what I see before me now appears to me very much 
to be simply trying to justify a decision that I believe was 
made in haste, and was not an appropriate decision.
    When you talk about the cost as being $2 billion, that is 
certainly an inflated figure, when you are able to fly, you are 
talking about five flights for $4 billion, why is it $2 billion 
for the Hubble flight? And Mr. Gregory, I have to respond to 
your question about absolute safety. If you are going to insist 
on absolute safety, you are not going to fly again, and you are 
definitely not going to send anyone to Mars. Get rid of the 
term absolute safety. There is no such thing.
    There is risk involved in going into space. Every one of 
your astronauts understands that. I have talked to them 
personally. I have asked a number of astronauts personally, 
would you be willing to volunteer to go on a Hubble mission if 
you were given the opportunity. None of them I have talked to 
have said no.
    The--I believe the commission that studied the Columbia 
disaster did an excellent job, but I am concerned about the 
lack of understanding of risk analysis among the public and 
many people involved with this. You cannot guarantee absolute 
safety. You try to reduce the risk as much as possible, but all 
of you--those of you who have been in space, those of you 
involved with this, recognize there is risk associated with it. 
There is also risk associated with me driving my car from my 
apartment to work, and a sizable risk, and yet, I do it every 
day.
    We live in a sea of risk, and we try to minimize the risk, 
and I appreciate what you are trying to do, but I think--I am 
really concerned, not just about the Hubble, but about the 
impact on NASA itself if we get so overwhelmed with concerns 
about safety and not--aren't willing to recognize that there is 
a risk, and set tolerable risk limits, so that you can 
accomplish your missions. Otherwise, as I say, we are never 
going to go to Mars, if we continue to insist on such low 
levels of risk. The costs will balloon out of sight, and the 
country will not be willing to pay for it.
    I--your analysis--I can understand why your analysis of 
risk might differ from the NRC's. At the same time, these are 
pretty bright people, and they understand this issue. You said 
in your testimony, the mission was canceled based on analysis 
of relative risk. I would like to see that analysis, if you 
would provide that to us, and see what detail you went into, 
and in what ways you differ from the National Academy of 
Sciences. I would very much like to see you change your 
position, and dedicate a flight to saving the Hubble. I believe 
the scientific merit of it deserves that chance, and the risk 
is no greater than any of the more than 100 missions you have 
already flown, and I think although the disasters you have had 
are horrible, you have lost two flights out of roughly 100, and 
that is greater than the risk you had anticipated when you 
began flying the Shuttle. But it is--I don't want to even say 
it is an acceptable risk, but I think you have got a pretty 
good record, and I don't think you should be ashamed of that. 
You have shown that the Shuttle is a safe vehicle. Both of 
these disasters can be explained by anomalies that were not 
foreseen, and--which is what most accidents are caused by. And 
you should not be ashamed of your safety record. I think it is 
good. I think you have really done a good job, and you have 
tried hard. And I don't see that much of a risk in going to the 
Hubble again, which you have already done a couple of times, 
and I would love to see it happen.
    I appreciate any comments you are willing to make in that 
regard. But if you are talking about 28 flights up to the Space 
Station, certainly one flight to Hubble is of lower risk than 
28 flights to the Space Station. You are much less likely to 
suffer a catastrophe on one flight to the Hubble than you are 
in the 28 to the Space Station. And I think you have to look at 
the relative value of those.
    Mr. Gregory. Dr. Ehlers, let us talk the science part of 
the relative value of the Hubble, how it works with the 
Chandra, with the Spitzer, with the Swift, with the James Webb 
that is coming up. Al Diaz would be the appropriate one to 
respond to the science aspect.
    Mr. Ehlers. Okay.

                Hubble and the Future of NASA Astronomy

    Mr. Diaz. Well, I appreciate the opportunity to say a few 
words here, because both Mr. Ehlers and Mr. Udall, I think, 
with their comments, really have confirmed that the work that 
we have done on Hubble has produced exactly what we intended 
to, which was world class astronomy for the past 15 years. And 
having been there in 1990, when Hubble was launched, and having 
been involved in the development of it, I am humbled by the 
fact that it was really the Space Shuttle and the Space Shuttle 
crews that made the difference between Hubble becoming space 
junk and it being exactly as the Academy identified it, as the 
greatest advance since Galileo.
    It has been difficult for the team to accept at times 
that--the nature of the decision that was made, but frankly, I 
think all of us have accepted the fact that in the wake of the 
Columbia accident, that it is impossible for the Agency to 
commit to doing another mission. In fact, as the director of 
the Goddard Space Flight Center last year, I was the one that 
proposed to the Administrator that we look at the robotic 
servicing of Hubble, which actually led to the Academy 
evaluation, and I must say that, in the end, while I might not 
agree with every one of the recommendations that the Academy 
has made, their final conclusion, actually, with respect to the 
robotics, is consistent with four or five other independent 
reviews, that being that the cost would be very high, and the 
$2 billion number that you mentioned, that is associated with 
that robotic mission.
    What we have been forced to conclude is that the discussion 
about Hubble really needs to be a discussion about continuing 
that world class astronomy program, and not about the 
telescope. And I think that--I would suggest to you that the 
budget that we have brought forward, and the strategy that it 
supports, is one that is focused on continuing that world class 
astronomy program. It clearly recognizes the need to continue 
the Hubble Telescope activities as long as possible. We believe 
that that could extend into 2008, at least now, and hopefully, 
we will be able to manage some developments that might get it 
to 2009. The other part of our strategy is to keep the 
development of the successor, or the follow-on telescopes, for 
the astronomy program, on their current schedules by investing 
in maintaining those schedules, specifically with regard to 
that--the James Webb Space Telescope, which promises to 
continue every bit of the discovery space that Hubble has.
    In addition to that, we intend to continue to support the 
development of other capabilities that might extend the 
telescope's life and continue the support of the archive data. 
I think it is probably not well-known, but 40 percent of the 
discoveries that are reported out of Hubble are actually 
extracted from the archives that are at the Space Telescope 
Science Institute. And so I think that we have come forward 
with a plan in the 2006 budget that is, in fact, one that 
promises to continue the world class astronomy program, despite 
the fact that we will no longer plan to service the telescope.
    Mr. Ehlers. In the appropriations last year, Congress 
directed NASA to spend $291 million on a Hubble servicing 
mission. What is happening to that money?
    Mr. Gregory. Craig, do you want to--Steve?
    Mr. Isakowitz. Sir, I will be happy to take that one. 
Congress did identify $291 million for the purposes of robotic 
servicing. In our first operating plan letter that we sent to 
the Congress that laid out our plans for fiscal year 2005, we 
had identified $175 million specifically so we can do some of 
this early design work, looking at the servicing, and now 
focused on a de-orbit mission that we think will take us 
through the March/April timeframe. Our current plan now is to 
assess where we are at that time, and determine what additional 
resources are needed in this fiscal year to take us through, 
and so our plan is in our--as early as our next operating plan, 
which could be at the end of February, early March, to indicate 
to the Congress our plans for how to go forward through the 
rest of this fiscal year.
    Chairman Boehlert. I thank the gentleman for his line of 
questioning.
    Mr. Ehlers. Let me just make a final comment. I don't think 
it makes sense to try to use robotics to continue the Hubble. 
The costs and the likelihood of success, I think, are too 
small.
    Chairman Boehlert. Well, the timing, too, is also a factor.
    Mr. Ehlers. Right. But I--yes, but I do strongly support a 
manned or womanned mission to continue the Hubble. I think you 
get a lot of good out of it for a fairly small investment. I am 
fully aware of the other advanced telescopes that are going up, 
but there is a gap between--there will be a large gap between 
the Hubble, end of the Hubble, and the beginning of the James 
Webb at this point, and I would like to see that gap filled.
    I am just concerned, as I said, that the decision was 
made--I don't think it was made on a sound basis, and now, I 
have seen NASA ever since then try to defend that decision, and 
come up with arguments of why that decision was right, rather 
than really going back and honestly re-examining whether or not 
it was right. And I would certainly appreciate an honest re-
examination of that. With 28 flights going up, as Mr. Udall 
said, it seems you could spare one for the Hubble, and I don't 
think that the risks are going to be very much, if any greater, 
than any of the other 28 flights.
    Thank you, Mr. Chairman.
    Chairman Boehlert. I thank the gentleman, and I want to 
reinforce his request, Mr. Gregory. The Committee would 
formally request that you share with us the risk report.
    Mr. Gregory. Yes, sir.
    Chairman Boehlert. Thank you very much. The Chair 
recognizes Mr. Honda.

              Center Transformation and the NASA Workforce

    Mr. Honda. Thank you very much, Mr. Chair, and welcome, 
Administrator Gregory. Well, all this line of question has been 
very interesting for me, because this is probably one of the 
first times that we really had some detailed discussions, but I 
am still not clear on a lot of areas. When I first visited NASA 
Ames through--facility in Mountain View, some of the comments I 
heard while walking around there was this terminology called, 
what is it, full cost accounting and its impact on the way our 
skills and our folks are being distributed or redistributed, 
and then, I am reading about this term transformation.
    I guess my question is, I would like to understand how you 
see the impact of transformation on existing contracts, 
including the research contracts and cooperative agreements, 
especially the kinds that we have had developed at NASA Ames in 
Mountain View with UC-Santa Cruz, or San Jose State, with 
Carnegie Mellon, and those others. Will NASA be fully honoring 
its existing obligations, and you know, and the reason I am 
asking is because I am concerned about the dissolution of that 
collaboration, relative to its impact on the kinds of science 
that we need to see, and relative to the kind of education I 
want to see happen from that point down into the public 
schools. And it just--I am not quite sure what all the details 
of your plan is to achieve your vision, and it seems to me that 
everything seems to be served, in my mind, disconnected or 
haphazard.
    And then, I have one more other question, that I will ask, 
so that I won't get stopped by the red light. In looking at the 
vision and the mission of sending--going back to the Moon and 
to Mars, and it has been about two years now, since we have had 
this activity in front of us, has anybody done a plan, if you 
will, that would map out, in a backward fashion, from 
achievement of the goal, working it backwards and figuring out 
what the steps are, and developed a PERT chart, program review 
evaluation technique, that they have used in the development of 
the nuclear submarine, which turned out to be a very good 
technique for moving a complex project such as this. Do you 
have that? Is that something that we can visit or see, or be 
shared with Members here, so that the complexity of the project 
can sort of be grasped by our minds, because right now, there 
are so many parts of it, it appears to be--there is costs, and 
there is personnel attached to it, and changing of techniques 
that--it seems to be very disorienting, I think, for a lot of 
people. And that is my questions.
    Mr. Gregory. Thank you, Mr. Honda. I think it would 
appropriate to have Al Diaz respond to the activities at Ames, 
and then, we will have Craig Steidle address the second portion 
of your question.
    Mr. Diaz. First, let me say that in my visits to Ames 
recently, I have recognized that the center has transformed 
itself dramatically over the course of the past five years of 
so when I previously visited. It is a new addition to the 
science family, and the center director and I have been having 
almost daily, if--well, weekly, anyhow, interactions about the 
transformation that is ongoing.
    It--with regard to the agreements, I must say that I have 
not reviewed all of the agreements. Although the Center 
Director has not indicated to me that there are any agreements 
that are in jeopardy because of the current transformation, or 
full cost accounting. What I would like to do is take the 
opportunity of your question to review that with him, and get 
back to you with a full report.

                       NASA Full Cost Accounting

    Mr. Honda. Just a real quick question. In that full cost 
accounting, how does that allow NASA to attain its vision, say, 
in terms of the arena of nanoscale activities, which to me 
seems to be very essential in developing materials for space 
flight and things like that, so you have a lighter vehicle, but 
stronger, and capable of probably lifting greater payloads. So 
it seems like we are cutting out certain arenas that will 
affect future needs.
    Mr. Diaz. Well, I may not be the right one to talk about 
full cost accounting in general, and so if there is any further 
comment, that might be appropriate to Steve Isakowitz. But I do 
come from a center that does a fair amount of research at the 
Goddard Space Flight Center, and I have been associated with 
work that has been done at JPL. Fundamentally, there is no 
inconsistency between full cost accounting and research type 
activities. The issue is making sure that we understand exactly 
what the cost is that is associated with all of those 
activities, including the workforce cost. Typically, that has 
been the cost that--the cost of the workforce, and the cost of 
overhead, that hasn't been properly accounted for. I think that 
the transition to full cost has created some, if you will, some 
new understanding of how high the cost actually is that is 
associated with doing some of our research, when it is compared 
to other organizations that already do full cost accounting, 
like JPL or external organizations.
    And maybe Steve would want to comment on it.
    Mr. Honda. But not being argumentative, it appears that in 
that full cost accounting, that you are forcing through 
budgetary actions, some elimination of necessary skills within 
our organization. Even though there may be other organizations 
that operate under full cost accounting, they are more of a 
privatized organization versus NASA, which is more government-
run, and more research-oriented, where you do a lot of 
research, and you know, that may come up with some outcomes 
that would be necessary for space flight. It is just--it just 
is an observation.
    Mr. Diaz. I understand what you are saying, and I think we 
are trying to be careful about that, but let me turn it over to 
Steve at this point.
    Mr. Isakowitz. I think Al Diaz had it exactly right. Full 
cost accounting is an accounting tool. It provides to managers 
the insight on the full cost of what it takes to accomplish 
their specific program and project goals. With that 
information, managers are then in a position to determine 
whether or not it makes sense to continue to make the 
investments inside the Agency or another. But in and of itself, 
full cost doesn't force us to take any specific action. It 
does, for the first time, though, give us the insight as to 
what the cost is for the skills we need and the facilities we 
need in order to execute our programs.
    Chairman Boehlert. Thank you very much. The gentleman's 
time has expired.
    Mr. Honda. Just very quickly, Mr. Chairman. I would like to 
sit down with you, and continue the debate, because you can 
have a budget-driven organization and miss your target, because 
you are on budget, and--but you are not going to be on target 
as far as your mission is concerned.
    Chairman Boehlert. The gentleman's time has expired. There 
has been considerable discussion this morning about risk, and 
as we all know, there is risk in everything, including being in 
this room for a prolonged period of time. It is more conducive 
to a discussion of our polar program. In any event, nothing is 
ever simple in Congress. We don't have control over the 
thermostat. We have checked with higher authorities, and have 
been advised by the Superintendent of Buildings that someone 
will be dispatched to turn up the thermostat, and they will 
probably arrive just as we adjourn, so if you can bear with us 
a few more minutes, I would appreciate it.
    Mr. Costa.

                    NASA Priorities and Roadmapping

    Mr. Costa. I will make one statement, though. Sir, you have 
already turned up the heat, and so I don't think anyone at this 
table is chilly.
    I am sorry, sir. Thank you very much, Mr. Chairman. I am 
new to the Committee, and hopefully, we will keep the 
temperature just about right.
    But in listening carefully to the questions that have been 
asked this morning, it seems to me what we really haven't come 
to the heart to, is what do we really want to make the basic 
mission of NASA for the next five or ten year period, 
notwithstanding the pronouncements of the President's with 
regards to the Moon exploration and Mars, it just seems to me 
that trying to get a handle, and a consistent, clear view on 
our manned space program and all that that entails, versus our 
other efforts with our exploratory astronomy, that we have yet 
to reach a consensus as to just exactly what NASA's mission 
needs to be over the course of the next ten years.
    I mean, the budget is what the budget is, and you know, it 
will vary, based upon our other priorities, but once we have 
made a decision on that, you have got a set amount of dollars 
to deal with, and it seems to me the underpinning of the basic 
hard question that we seem to discuss around, and I am 
supportive of the Hubble effort as well, but we need to 
complete the Space Station, I think. And the problem, it seems 
to me, is we basically haven't decided what the primary mission 
or missions of NASA is going to be over the course of the next 
ten years. And notwithstanding a lot of--what a lot of people's 
agenda or ideas are--and so I guess I would like you to maybe 
try to indicate to us in terms of what steps you are taking to 
attempt to prioritize, notwithstanding your funding, where you 
think the manned program fits with the other priorities that 
are there.
    I mean, it just seems like a whole lot of things that have 
been thrown against the wall at this point in time, and we are 
all very proud of NASA and the accomplishments that you have 
achieved over the decades, and obviously want to see that 
continue, but without a clear and concise consensus, I am not 
so sure that we are going to make much progress.
    Mr. Gregory. Thank you. Thank you, sir, that was an 
excellent question, and it is an area that we have not touched 
on. It is certainly one that we really need to inform all of us 
about.
    A while ago, in pursuit of the answer, we--the senior 
leaders decided that what we needed to do would be to develop 
roadmaps, and we--in fact, we have 13 of those. And each of the 
roadmap teams has a person from outside of NASA, from academia, 
or industry. We have a center director, in general, and we also 
have several of the members of this table as co-chairs, on each 
of these roadmaps. And each of them is looking at the future to 
determine what the future should be, and then, there is an--or 
a goal, as the agency moves forward.
    And then, there is an activity where we integrate all of 
these together, to come out with a single or several absolute 
goals that the agency would be holding our feet to the fire on. 
That is an activity, also, in work. And it is one of many 
activities in the agency that we have to make--decisions that 
we have to make that, again, gives us not 10 years, but 
probably 30 or 50 years in the future, to talk about how the 
agency, this great agency of NASA, provides a significant value 
to the population, not of the United States--not only of the 
United States, but of the world. And it is an activity, it is 
an ongoing activity. We have short-term goals and short-term 
goals take us out to 2020, 2030. It follows on the question 
that Mr. Honda just asked, about the goals in the future, and 
how you work--how you come back from that to determine what we 
do on the Space Station, what we have to learn from the Earth, 
what we will learn from the Moon, as we progress to Mars.
    And if you would, sir, the person who is responsible for 
that in the agency is Craig Steidle, and if it is okay, I will 
ask him to give you some further comments.
    Mr. Costa. I would specifically like to know what timeline 
you are focused on, in terms of internally making these 
recommendations to the Committee and to the Congress, as to 
where you think the priorities of NASA should be in the next 30 
years, using your timeline.
    Admiral Steidle. Yes, sir. We formed the 13 roadmaps, as 
Mr. Gregory pointed out, such as robotic and human exploration 
of the lunar surface, robotic and human exploration of Mars, 
transportation systems, launch systems, in space systems, and 
then we are going to integrate those particular roadmaps. We--
each one of those teams have been formulated. They are FACA, so 
they are open to the public. We have had a meeting of each one 
of the roadmaps, the last one being the nuclear roadmap, which 
I chair as well, yesterday. We will have a second meeting of 
those, and try and complete those, by the middle of April. And 
then we will integrate those, and take them this summer to the 
National Academy for review.
    And that should set, in very, very high terms, our 
strategic direction for the future. And that is--those are 
going to be living documents which will be reviewed on a 
reoccurring basis. That will also translate to technology 
investments and requirements below those strategies, to support 
those in the future, which will lead to our investment 
strategies and our budgets of the future. So to answer your 
question, they are coming together, the first blush will be 
completed in the second in the second meetings, by around 
April, mid-April timeframe, and then to the National Academy as 
soon as we can get it scheduled, early summer.
    Mr. Costa. Thank you very much, Mr. Chairman.

      Future of the International Space Station Without the Space 
                                Shuttle

    Chairman Boehlert. Mr. Gregory, I want to commend you for 
the skillful manner you handled the newest Member of our 
committee. That is an excellent question you asked.
    I have got a few brief questions here that don't require 
long answers, and I would like to ask them now. Does NASA have 
a backup plan for constructing the Space Station, if the 
Shuttle cannot remain in service?
    Mr. Gregory. And--you are referencing some time between now 
and 2010, if we lose the----
    Chairman Boehlert. Right.
    Mr. Gregory.--capability.
    Chairman Boehlert. That is correct.
    Mr. Gregory. This is a--certainly a question that Bill 
Readdy would, and can answer. I can tell you, though, that the 
resiliency of the Agency and the industry that supports the 
Agency would answer, if we lose another Shuttle, that we would 
still be able to complete the International Space Station, with 
the two remaining. Each time we have lost a Shuttle--each time 
we have preceded the lost of a Shuttle, we had told ourselves 
that if we lose another one, we can never proceed, or we can't 
proceed. But in each case, we have. Now, we have come out a 
stronger Agency each time. But Bill, let me pass that to you, 
and see what your response would be.
    Mr. Readdy. Well, Mr. Chairman, I--if your question is the 
unique capabilities of the Shuttle, not only to take these 
modules, and provide the right launch environment for them, 
haul the cargo, the crew, be the base for the robotics 
operation with the robot arm, and conduct assembly spacewalks, 
really, there is no alternative to that. In testimony before 
the Senate here some months ago, the same question was raised, 
and our estimate are that in order to provide an alternative 
launch capability, we are talking about on the order of $1 
billion to repackage those elements to launch in another 
capacity, and that doesn't include replicating the robotics 
capability, or hosting the spacewalks required.
    Chairman Boehlert. All right. Let me ask you then, do you 
have a backup plan for servicing the Space Station if changes 
are not made to the INA?
    Mr. Readdy. Well, clearly, we have worked together as a 
partnership, and the strength of the partnership, I think, is 
something that we are all extremely proud of, over these last 
four years, or these last two years since the accident, and we 
are now entering our fifth year of permanent presence on board 
the International Space Station. Clearly, we didn't anticipate 
losing the Shuttle. We didn't anticipate having to rely 
exclusively on the Progress resupply vehicle, and that has 
stretched our logistic supply line very thin. Fortunately, the 
Ariane 5 launched successfully on Saturday, this past Saturday. 
That is the launcher for the Autonomous Transfer Vehicle that 
the Europeans are providing. That will provide us an additional 
leg of redundancy, and resilience in our ability to resupply 
the Space Station. The Japanese HTV, their launch vehicle right 
now is planned for Return-to-Flight here on the 24th of this 
month, and so we have several legs of redundancy, in terms of 
being able to provide resupply for the International Space 
Station. And then finally, what we intend to issue, in terms of 
a request for proposal this summer, and complete a contract by 
the end of this calendar year, is commercial ISS crew and cargo 
services, which would, of course, be open to our industry.

      Cost Estimates for the Development of the Crew Exploration 
                                Vehicle

    Chairman Boehlert. Last year, NASA set its rough estimate 
for the total cost of developing the CEV was $15 billion. Is 
that still a good number?
    Admiral Steidle. Yes, sir. It is in the realm of putting 
the Crew Exploration Vehicle forward and with the 
demonstrations in 14, and the crewed version of that 15 to 16 
is what we have been logging in our books, sir.
    Chairman Boehlert. And when would you think would be a good 
time for Congress to assess the progress in building the CEV, 
so we could pull the plug if, and I hope this would not be the 
case, if it does not appear to be moving ahead successfully at 
a reasonable cost?
    Admiral Steidle. I think the most appropriate time would be 
a major design review that we hold in the summer of '06. At 
that particular time, we will have the two contractor teams 
that will enough specificity in their proposals, and we will 
hold a design review in the summer of '06 for a total review of 
the program.
    Chairman Boehlert. Mr. soon-to-be Acting Administrator, 
thank you and your team very much for an outstanding hearing 
and exchange. This hearing is adjourned.
    Mr. Gregory. Thank you, Chairman Boehlert.
    [Whereupon, at 12:18 p.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Frederick D. Gregory, Deputy Administrator, National 
        Aeronautics and Space Administration (NASA)

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  Last year, the Congressional Budget Office (CBO) completed a 
budgetary analysis of NASA's proposed new vision for space exploration, 
which concluded that the potential cost growth through 2020, based on 
NASA's history, is between $32 billion and $61 billion. What specific 
steps are being implemented to ensure that NASA's cost estimates for 
space exploration are as accurate as possible? What specific steps are 
being implemented to identify cost growth risks and manage those risks?

A1. NASA appreciates the analyses performed by the Congressional Budget 
Office (CBO) in their report A Budgetary Analysis of NASA's New Vision 
for Space Exploration (CBO, September, 2004), which ``are intended to 
illustrate potential upper bounds'' to NASA's budget projections for 
the Vision for Space Exploration. CBO assumes a 45 percent cost-growth 
risk factor, and applies that factor to the costs of human lunar 
exploration activities and robotic support missions. CBO's derivation 
of this factor is based on 72 historical NASA programs. The results of 
the CBO report could represent a ``potential upper bound'' for cost 
growth, but CBO does not address what may be the expected levels of 
cost growth. NASA believes that the expected cost growth will be much 
less than the `upper bound' estimated by CBO, and will be manageable 
while still achieving the goal in the Vision for Space Exploration of 
returning humans to the Moon by 2020. The CBO states in their report, 
``It is certainly not a foregone conclusion that technical programs 
such as those involved in NASA's exploration initiative will experience 
serious cost-growth problems. The Apollo project is a case in point. . 
.exceeding the budget laid out in 1961 by only about seven percent.'' 
NASA disagrees with some of the assumptions used by CBO to arrive at 
their `upper bound,' and already has strategies in place to ensure that 
costs are managed and that actual costs will be no where near the upper 
bound of potential cost growth estimated by CBO.
    The cost of any complex undertaking is highly dependent upon the 
underlying technical and programmatic architecture. With respect to 
NASA's new initiatives in human exploration, the Exploration Systems 
Mission Directorate (ESMD), in partnership with industry through the 
Concept Exploration & Refinement contracts, has been evaluating various 
alternative architectures with regards to sustainability, cost, 
reliability, safety, etc. In order to ensure that cost estimates are 
credible ESMD is embarking on a three-pronged strategy. First, the 
Directorate is developing a cost analysis career plan (in partnership 
with the NASA Cost Analysis Division of the Office of the Chief 
Financial Officer) that will delineate the knowledge, training, and job 
experiences that cost estimators should have in order to adequately 
perform their function. Second, ESMD is funding the development of new 
and improved cost tools that expand our capability to generate 
estimates and understand the underlying cost drivers. Third, ESMD is 
establishing a policy that requires independent cost estimates, both 
from within and from outside NASA at key decision milestones. This 
policy also institutionalizes cost estimating as a necessary part of 
effective program management.
    NASA has taken a number of steps to address independent technical 
and cost assessments at the agency level in addition to the steps 
identified above. First, the Agency is adding new tools, procedures, 
and personnel to the Independent Program Assessment Office (IPAO) to 
independently review projects at critical milestones. The IPAO reports 
to the Chief Engineer and Chief Financial Officer, both of whom are 
adding personnel in this area. Second, NASA has revised and released 
its program management handbook (NPR 7120.5C) which includes clear 
decision milestones to determine if projects will proceed to the next 
phases of development. These milestones are supported by independent 
technical and cost reviews. Third, the Agency strengthened its safety 
and mission assurance organization by creating an Independent Technical 
Authority (ITA) at all NASA field Centers and establishing the NASA 
Engineering and Safety Center to enhance independent safety and 
engineering oversight. Fourth, NASA has benchmarked its cost estimating 
practices against other organizations, including Department of Defense, 
and will be introducing improved earned value management requirements 
later this summer. NASA has established a policy requiring independent 
cost estimates at Pre-Non Advocate Review and Non Advocate Review 
milestones, has implemented Continuous Cost-Risk Management, which 
requires project estimates to be developed during formulation. This 
estimate can be referred to during project management reviews and 
updated at critical milestones.

Q2.  In your written testimony you are very cautious in stating that 
the Shuttle return-to-flight date could occur ``as early as May 2005.'' 
How certain are you at this point that you can meet that date? Many 
inside and outside NASA have said that they are less worried about the 
success of the first flight than they are that something could be 
learned on that flight that presages future problems. Could you comment 
on that?

A2. On February 18, 2005, the NASA Space Flight Leadership Council 
reviewed the progress being made to ensure a safe Return-to-Flight and 
approved a launch date of May 15, 2005 for STS-114. All major flight 
hardware is at the Kennedy Space Center in Florida and being processed 
through a normal pre-launch flow. Meanwhile, the independent Return-to-
Flight Task Group (RTFTG) continues to assess NASA's efforts to meet 
the fifteen Return-to-Flight recommendations made by the Columbia 
Accident Investigation Board (CAIB). The RTFTG met in a plenary session 
on March 29-31, 2005, to consider the remaining open CAIB Return-to-
Flight activities. In the words of RTFTG co-chair Richard Covey, 
``Right now, we don't see anything that stands in front of the agency 
that can't be accomplished in order to make the May-June [2005] launch 
window.''
    NASA is committed to making the last flight of the Space Shuttle 
system at least as safe as the Return-to-Flight mission. All flights 
will be driven by safety milestones. If there is any indication that 
additional work needs to be done to meet those milestones, then the 
Space Shuttle program will take whatever measures are appropriate to 
ensure that those milestones are met--up to and including delaying 
launches, if necessary.

Q3.  You were clear in your testimony today that the Shuttle will be 
retired by the end of 2010. But in comments to the press, other top 
NASA officials have been much less firm. Is NASA's position that it 
will retire the Space Shuttle in 2010? Are there any circumstances 
under which NASA would fly the Shuttle after December 31, 2010?

A3. The President stated on January 14, 2004: ``In 2010, the Space 
Shuttle--after nearly 30 years of duty--will be retired from service.'' 
To enable the 2010 retirement date, NASA is examining configurations 
for the Space Station that meet the needs of both the Space Exploration 
Vision and our international partners using as few Shuttle flights as 
possible.

Q4.  You say in your testimony that the Crew Exploration Vehicle (CEV) 
``promises safer travel.'' Safer than what? How will you measure that? 
Will a risk level be specified in the requirements for the CEV?

A4. The Exploration Systems Mission Directorate's Level 1 Crew 
Transportation System Requirements (Rev D) establishes thresholds and 
objectives for the safety performance of the Crew Exploration Vehicle 
(CEV) and its associated human rated launch system. These preliminary 
requirements establish the failure tolerance design criteria for the 
system against the loss of successful mission completion, non-life-
threatening injuries, or significant damage to the system. The key 
measure in terms of safety is crew survivability. The preliminary 
requirements include a requirement that the predicted analytical crew 
survivability during ascent be 99,9325 percent with a 50 percent 
confidence level.
    The CEV safety thresholds have been established such that the 
vehicle will be safer than current systems including the Space Shuttle.

Q5.  Does NASA intend to close any wind tunnels this year, in FY 2006 
or in FY 2007?

A5. NASA will not close any wind tunnels in FY 2005 as directed by 
Congress in the Conference Report accompanying the FY 2005 Consolidated 
Appropriations Act (H. Rpt. 108-792). However, beginning in FY 2006, 
NASA cannot sustain the existing suite of NASA ground test facilities 
and wind tunnels with the FY 2006 aeronautics budget as submitted. 
Hence, on January 28, 2005, the Aeronautics Research Mission 
Directorate instituted a corporate management model for its wind tunnel 
facilities to enable an Agency-wide assessment of these needs. From the 
existing suite of facilities, the FY 2006 Vehicle Systems Program 
requires the use of only a few facilities for ground and test flight 
assets necessary to support aircraft and engine noise reduction, 
remotely operated aircraft design, development, and operations, and the 
development of electric (fuel cell) based power systems for an all-
electric aircraft.
    There are up to 20 ground test facilities and capabilities that may 
no longer be necessary to support the aeronautics research program, 
including most of NASA's large wind tunnels and engine test cells. 
Changes in operational status of these 20 facilities are needed by the 
start of FY 2006.
    Numerous other capabilities/facilities are to be retained and 
invested in as appropriate. These are the capabilities required to 
support research activities in Airspace Systems and Aviation Safety and 
Security Programs and are primarily information technology based 
infrastructure, such as simulators, communication systems and human 
factors laboratory capability.

Q6.  Your testimony says that the Space Shuttle mission to the Hubble 
was canceled ``based on analysis of the relative risks''? As requested 
during the hearing by Congressman Ehlers, please provide a copy of this 
analysis. Can you describe how it differs from the analysis by the 
National Academy of Sciences in its report on the Hubble?

A6. Please refer to the letter from NASA to Chairman Boehlert dated 
March 14, 2005, for additional information related to this topic.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The decision not to pursue a Shuttle servicing mission to the 
Hubble was based on a relative risk analysis and operational 
complexity. The National Academy of Sciences (NAS) report recommended a 
Shuttle-based servicing mission for Hubble, and concluded that a 
Shuttle flight to Hubble was not significantly more risky than a 
Shuttle flight to the International Space Station (ISS). Yet while all 
space flight is inherently risky, there are both on-orbit and ground 
processing requirements that would be notably unique to a Hubble 
servicing mission. While similar issues (thermal protection system 
inspection and repair, contingency Shuttle crew support, and 
potentially rescue) exist for missions to the ISS, they can be 
mitigated more easily, in part due to the increased time available for 
understanding and responding to an emergency situation at the Station. 
For a Hubble servicing mission, the options and available time for 
dealing with an on-orbit emergency are greatly reduced, posing 
additional risk to the mission.
    NASA has developed a five-point flight rationale (addressing safety 
requirements) for Space Shuttle RTF, which is grounded in the 
recommendations of the CAIB and predicated on primary hazard control, 
warning devices and special procedures. The first two elements of that 
flight rationale (Elimination of Critical Debris and Impact Detection 
During Ascent) rely upon Space Shuttle hardware, infrastructure, and 
procedural improvements that broadly apply to all missions, including 
those to destinations other than the International Space Station (ISS). 
However, the efforts of the Space Shuttle program to meet the three 
remaining elements of the RTF flight rationale (On-Orbit Debris Impact/
Damage Detection; On-Orbit Thermal Protection System Repair; and, Crew 
Rescue) assume access to the resources of the ISS. Developing the 
additional capabilities necessary to meet these three elements of the 
flight rationale for a Hubble servicing mission would entail additional 
risks above and beyond those inherent in a mission to the ISS.
    The ISS provides Space Shuttle managers with three critical 
capabilities not found in autonomous missions. First, the ISS serves as 
an independent observing platform for assessing the integrity of the 
Space Shuttle's Thermal Protection System (TPS). Second, the ISS can 
operate as an independent working platform from which Space Shuttle 
crews can conduct repairs to the TPS if necessary. Finally, the ISS 
provides redundancy as a safe haven platform capable of sustaining a 
stranded Space Shuttle crew for a significantly longer period of time 
than the Shuttle alone can.
    To apply this same flight rationale to a Hubble servicing mission, 
NASA would have to develop new capabilities that are analogous to those 
provided by the ISS. The Orbiter Boom Sensor System would have to be 
extensively modified, or an alternative capability would need to be 
created. Specifically, there would have to be new hardware and 
procedures to provide space-walking astronauts a platform from which to 
effect repairs to a damaged TPS, without increasing the risk of further 
damaging the Orbiter. Additionally, a way would need to be found to 
sustain the crew of a hopelessly crippled Orbiter with limited life-
support capabilities long enough for a second Shuttle to be launched on 
a rescue mission. That rescue mission, in turn, would need to be 
processed at the same time as the Hubble servicing mission itself, a 
situation which would be highly complex, would require double the 
normal workload on ground launch and processing teams, and would put an 
unprecedented strain on the overall Shuttle system. Finally, a rescue 
mission would require many unproven techniques, such as emergency free-
space crew transfer in space suits while performing Space Shuttle to 
Space Shuttle station-keeping. Being based at the ISS offers the 
advantages of multiple hatches, airlocks, and established docking and 
evacuation procedures, which would afford a shirt-sleeve, nominal 
transfer of crew from the ISS to the rescue Orbiter.
    New capabilities would need to be built, tested, and validated 
before Hubble had degraded to the point where any reasonable repair 
effort would be impossible. Seeking to develop and validate these new 
capabilities in time for Hubble servicing, as well as process a second 
launch, is contrary to the milestone-driven approach NASA has adopted 
in response to the CAIB recommendations.
    Based on analysis of the relative risks, operational complexity and 
implicit schedule pressure, in February 2004, NASA decided not to 
proceed with a Shuttle servicing mission of Hubble. The new NASA 
Administrator has stated his intention to revisit this earlier decision 
in light of what NASA learns after the Shuttle returns to flight.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Q7.  How does NASA intend to use the money proposed for crew and cargo 
services for the Station? When does NASA expect the first commercial 
cargo mission to launch? What is NASA specifically doing to develop 
additional service providers beyond the Russians?

A7. A portion of the money in the ISS Cargo/Crew services line will 
likely be used to procure Soyuz crew transportation services, if 
Congress agrees to a legislative solution to the Iran Nonproliferation 
Act of 2000 (INA). Over the last several months, NASA has been 
participating in an interagency coordination process related to INA, 
which seeks to protect our nonproliferation objectives while advancing 
potential U.S. cooperation with Russia on the Vision for U.S. Space 
Exploration. The results of this interagency coordination process will 
be presented to Congress shortly.
    The balance will be used to acquire commercial cargo transportation 
services. NASA is developing a Request for Proposal (RFP) to be 
released in 2005. The RFP will seek to develop an initial operating 
capability for commercial services for cargo transportation to the ISS 
before Space Shuttle retirement. NASA will also utilize partner 
capabilities for cargo transportation. The European Automated Transfer 
vehicle will make its first visit to the ISS in 2006. The Japanese H2A 
Transfer Vehicle is also in development.

Q8.  NASA has discussed the possibility of launching the James Webb 
Space Telescope on a foreign rocket, the Ariane. It is my understanding 
that the Europeans have offered to provide the Ariane launcher as well 
as an infrared instrument in exchange for 15 percent of the tasking 
time on Webb. Is this accurate? Please provide the terms and conditions 
for this arrangement. The President's Space Transportation Policy 
requires that use of a foreign launcher be coordinated through an 
interagency process. Has the interagency coordination process been 
initiated? When does NASA need to know which launcher it will use if it 
is to deliver Webb on schedule and within cost?

A8. The James Webb Space Telescope (JWST) is envisioned to be an 
international mission involving significant contributions from the 
European Space Agency (ESA) and the Canadian Space Agency (CSA). This 
is consistent with the Vision for Space Exploration, announced by the 
President on January 14, 2004, which directs the pursuit of 
opportunities for international participation to support U.S. space 
exploration goals. NASA pursues foreign cooperation on science missions 
for mutual scientific benefit on a no-exchange-of-funds basis, and 
considers scientific merit, engineering practicality, industrial 
capability and export control feasibility and compliance in assessing 
the potential contributions of foreign partners.
    ESA proposes to contribute significantly to the JWST mission. On 
JWST, foreign scientists are likely to receive significant amounts of 
science (measured in terms of observing time on the telescope). Case in 
point is the Hubble Space Telescope, where European scientists have won 
slightly more than 15 percent of the total observing time according to 
scientific merit through the competitive time allocation process. 
Therefore, it is fair and logical that NASA exact tangible 
contributions to JWST from foreign space agencies in proportion to the 
amount of science that the foreign scientists they sponsor and 
represent are likely to receive. Hence, NASA seeks about a 15 percent 
contribution from ESA.
    Discussions regarding possible ESA contributions have explored many 
possibilities. ESA proposes to contribute a near-infrared spectrometer 
(NIRSpec), an optical bench assembly for a mid-infrared instrument 
(MIRI), an Ariane 5 ECA launch vehicle and launch services with a 
launch from Kourou, French Guiana, and a small number of support staff 
in residence at the JWST science operations and control center. The 
Ariane presents a small number of simple interfaces, and thus is an 
attractive option from a technical viewpoint that reduces mission risk. 
It is also worth substantial value by itself such that the total value 
of ESA's proposed contribution package is approximately 15 percent of 
the total mission cost.
    Launch of any U.S. government payload on a foreign-supplied launch 
vehicle is subject to interagency review, in accordance with NSPD 40, 
National Space Transportation Policy, dated December 21, 2004. This 
interagency review has been completed, clearing the way for what is 
known as the C-175 process by which the Department of State grants 
authority to NASA to negotiate with ESA the terms of cooperation on 
JWST.
    JWST is approaching mission preliminary design review (PDR) in 
2006. Many subsystem design details depend on knowing the launch 
vehicle envelope and environment. Therefore, the designation of the 
launch vehicle for JWST is needed now to preserve the launch schedule.

Q9.  NASA was provided $15 million in the FY 2004 Appropriations Act 
for crew safety and survivability by Congressman Hall. Please provide a 
report on how this money was spent and how the results will improve 
safety and survivability of human space flight.

A9. The Shuttle program reviewed a wide range of options for addressing 
crew survivability, including major hardware modification of the 
vehicles. The evaluation process was revised in light of the Vision for 
Space Exploration, which calls for Shuttle retirement after assembly of 
the ISS is complete, planned for the end of this decade.
    Crew survivability options encompass a range of means that could be 
implemented to ensure crew safety and survivability and test new 
technologies as we move forward with the Vision for Space. The Program 
identified a series of options that can be accomplished and are being 
pursued.
    The following investment areas are being implemented. Items with an 
asterisk (``*'') denote potential applicability to exploration 
initiatives.

Improved Individual Tracking Device--will significantly increase the 
location accuracy and acquisition time for any contingency crew rescue 
operations including unconscious crew members. This effort is currently 
being reviewed and modified by the Department of Defense (DOD) for 
completeness and accuracy.

* Portable Radio Communication Device with GPS--will enable quick 
identification and location of conscious crew members during rescue 
operations. This device will transmit crew member identification and 
location data to multiple DOD Search and Rescue operation entities.

* Improve ISS Rendezvous Radar--place an active radar transponder on 
ISS to aid in Orbiter dock/undock operations. This effort provides one 
clean, uninterrupted sensor source for all phases of rendezvous. 
Hardware changes would be on the ISS side only. The current system 
becomes noisy due to radar wandering over the large surface of ISS. A 
transponder on ISS would eliminate that noise, providing for pristine 
relative navigation data for the manual phase and docking, thereby 
increasing the range at which the Orbiter could acquire a radar lock. 
It also improves navigation performance during the manual phase. A 
study of this proposal was completed and has been incorporated into a 
larger autonomous rendezvous and docking effort.

Continuation of the CAIB Directed Crew Survivability Working Group--
performing analysis and reconstruction of STS-107 post break-up crew 
cabin dynamics and forensics. To be included is an analysis/
reconstruction of the STS-51L crew compartment dynamics and forensics. 
This actual flight reconstructed data will be utilized by flight 
operations in future procedure development and possible crew 
compartment structural/thermal hardening for future vehicle design.

Egress Procedure Development--Develop crew operational procedures to 
support crew egress in the event of a catastrophic vehicle break-up 
where the crew cabin has separated intact. Testing the new procedures 
entails changes to the program requirements documentation and facility 
modifications to the Crew Compartment Trainer (CCT). Activity is in 
work and procedures will be made available in FY 2005.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q10.  In your testimony, you state that improved audit results ``could 
be achieved on the FY 2006 financial statements.'' How likely is that? 
What progress toward a clean audit opinion do you hope to make this 
year? What specific actions is NASA taking to ensure that its financial 
information is reliable in the future? Please describe the actions 
planned for the next six months and any longer-term plans to improve 
the accuracy of financial information.

A10. NASA has developed and implemented a work plan aimed at correcting 
the material weaknesses and reportable conditions published in the FY 
2004 Financial Statement Audit report; however, it will take time to 
fully implement all of the identified corrective actions. Nevertheless, 
NASA is aiming at gradually and consistently improving its audit 
performance, which includes a reduction in the number of identified 
material weaknesses and reportable conditions. Subsequently, NASA's 
objective is to receive increasingly positive audit results in each of 
the following years, possibly starting with a ``qualified'' opinion and 
ultimately ending with a sustainable ``unqualified'' opinion.
    The objective for this current year is to begin the reduction of 
material weaknesses and reportable conditions.
    One of our near-term goals is to eliminate the material weakness on 
the reconciliation of Fund Balance with Treasury in the FY 2005 audit 
report.

Q11.  Last year, NASA provided two different draft versions of a 
Financial Management Improvement Plan to this committee. We understand 
that a third version is being developed. What is the status of this 
plan and when do you expect it to be finished?

A11. NASA is in the process of coordinating its overall plan to improve 
financial management with NASA's Office of Inspector General and the 
Office of Management and Budget. NASA wants each of those offices to 
have the opportunity to review and comment on the plan. Once all of 
their suggested comments are incorporated into the revised document, 
NASA will deliver the financial management improvement plan to the 
Committees later this year.

Q12.  Has the budget for NASA's Chief Financial Officer (CFO) been 
reduced for FY 2005? If so, by how much was it reduced and what 
ramifications does this reduction have on NASA's efforts to improve its 
financial management? Does the FY 2006 budget increase or decrease the 
CFO's budget request?

A12. Agency-wide reductions across all Corporate G&A activities were 
imposed for FY 2005 and FY 2006 to help accommodate costs associated 
with the Space Shuttle Return-to-Flight activities. As a result, the 
staffing plan in the Office of Chief Financial Officer (OCFO) and the 
Center's Financial Offices was impacted. Additionally, the Agency's 
Integrated Financial Management Program was reduced by 37 percent or 
$41.5 million in FY 2005, and $7.8 million in FY 2006. This cut 
impacted the scope and schedule of the Asset Management activity. A 
revised scope and schedule reflecting the new funding profile is still 
in development.

Q13.  What effect will NASA's Earth Science cut in FY 2005 and its 
proposed cut for FY 2006 have on the overall climate change research 
program? To what extent did the other agencies involved in climate 
change research participate in the decisions to make these cuts? What 
criteria did you use to determine that the cuts did not adversely 
affect anything ``essential''? Which missions does NASA plan on scaling 
back, delaying or canceling as part of this reduction in funding? Are 
there any new Earth Science missions planned for the future that were 
not already part of the FY 2005 budget submission?

A13. The reductions to NASA's Earth Science programs in FY 2005 and FY 
2006 should not greatly affect the Climate Change Science Program 
(CCSP); NASA's role in research and the generation of synthesis reports 
(the principal near term product of the CCSP) will continue as before. 
NASA engaged the other CCSP agencies in discussions of the changes to 
NASA's budgets as they were being developed. The principal criterion 
employed was to do the least harm to current commitments and satellite 
programs currently under development. In the FY 2005 budget, the Ocean 
Vector Winds mission was canceled, and the Global Precipitation 
Measurement mission was delayed two years. In the FY 2006 budget 
request, the Glory mission is re-scoped to instrument development only 
with an expectation that it will fly on the NPOESS system, and the 
Landsat Data Continuity Mission now reflects the provision of two-
advanced land imaging instruments for flight on the NPOESS system. 
Funding for technology development and future mission concepts was 
reduced. No new missions have been identified that were not part of the 
FY 2005 budget submission. NASA eagerly awaits the decadal survey 
report of the National Research Council, as well as recommendations 
from our own strategic roadmapping team for guidance on identification 
of potential future missions.

Q14.  Your FY 2006 budget justification (page EC 2-6) refers to NASA's 
``reassessment of the ISS final configuration.'' Not quite a month ago 
(January 26, 2005), NASA and other ISS partners announced that all of 
you endorsed the ``Multilateral Coordination Board approved ISS 
configuration.'' Is that the configuration you are now reassessing? 
When will the final configuration of the space station be agreed upon? 
What changes to that configuration are being considered by NASA? In 
particular, are you reconsidering whether to launch the centrifuge? How 
important is the centrifuge to research planned by NASA and its 
partners?

A14. The International Partnership Heads of Agency (HOA) met January 
26, 2005, to review the status of ongoing ISS operations and NASA's 
plans for Shuttle return-to-flight. The HOA endorsed the Multilateral 
Coordination Board-approved ISS configuration. The partners reaffirmed 
their agencies' commitment to meet their ISS obligations; to complete 
Station assembly by the end of the decade; and to use and further 
evolve the ISS in a manner that meets their research and exploration 
objectives.
    NASA is now examining configurations for the Space Station that 
meet the goals of the Vision for Space Exploration and the needs of our 
international partners using as few Shuttle flights as possible. The 
timeline for completion for these studies will be determined by the new 
NASA Administrator.
    The Centrifuge remains on schedule for completion and delivery to 
Kennedy Space Center on time for a 2009 launch. NASA requirements for 
the Centrifuge are derived from the Human Systems Research and 
Technology (HSR&T) theme within the Exploration Systems Mission 
Directorate (ESMD). ESMD recently conducted a Zero-Based Review of the 
entire HSR&T portfolio in order to ensure that future efforts will be 
focused on research that directly supports the future safety of the 
astronauts.

Q15.  Does NASA have any back-up plan for providing rescue capability 
for the Space Station if changes are not made to the Iran 
Nonproliferation Act?

A15. With the exception of the Space Shuttle, the Soyuz is the only 
other proven spacecraft capable of performing crew transportation and 
rescue operations for the ISS. If the Soyuz were to become unavailable 
to NASA, the operation of the Space Station would be limited to those 
periods of time when the Shuttle could be docked to the ISS.

Q16.  How confident are you of the accuracy of the proposed CEV budget 
for FY 2006, which officials have described as a ``placeholder''? What 
is the range of possible costs for the CEV in FY 2006?

A16. NASA's Exploration Systems Mission Directorate, in partnership 
with industry through the Concept Exploration & Refinement (CE&R) 
contracts, has been evaluating various alternative CEV concepts with 
regard to safety, sustainability, cost, reliability, etc. The 
culmination of this evaluation process will be the Constellation 
Mission Systems Spiral 1 Milestone-A Review. At this review, 
Exploration Systems will present to the NASA Program Management Council 
a range of cost estimates for CEV. This range of possible costs will be 
the result of industry inputs through the CE&R contracts and internal 
NASA studies, validated by an independent cost assessment conducted by 
the NASA Cost Analysis Division with assistance from the Independent 
Program Assessment Office. Currently, the Spiral 1 Milestone-A Review 
is planned for July 2005.
    In addition, Exploration Systems is in the process of procuring a 
minimum of two contractors to complete preliminary design and perform a 
risk reduction demonstration in 2008. These contracts will be signed in 
September 2005. At this time, all information and analyses indicate 
that Exploration Systems will be able to perform preliminary design 
activities and initiate development of risk reduction demonstrations in 
FY 2006 within the proposed budget.

Q17.  As Admiral Steidle has described, NASA is using an unusual 
procedure for the CEV--going out with initial contracts before many 
parameters of the vehicle are nailed down. What are the risks and 
advantages to that approach?

A17. The capabilities and technologies developed to extend, in an 
affordable and sustainable manner, human presence beyond low-Earth 
orbit to the Moon, Mars, and beyond will require NASA to respond 
flexibly to new scientific discoveries and incorporate new 
technologies, while minimizing risk and avoiding costly redesign. In 
order for ESMD to execute the Vision for Space Exploration effectively 
and affordably, its governing acquisition policies draw on the best 
processes from the DOD, Naval Sea Systems (NSS), and NASA acquisition 
models. Additionally, ESMD's use of the evolutionary acquisition 
concept of spiral development allows this flexibility. In spiral 
development, the overall program is broken up into a series of 
intermediate goals, each addressed by a spiral. Because it is not 
realistic to define all variables precisely now, NASA's plan is to 
separate the acquisition strategy for Moon and Mars exploration into a 
number of smaller acquisition programs called spirals. Each 
intermediate spiral will usher in a set of major new capabilities in 
support of the Vision for Space Exploration. These spirals will be 
structured based on specific requirements, well-defined goals and end 
points, then-current technologies, management risks, executable 
budgets, and knowledge gained from prior in-space activities. The 
spiral development approach builds on experience gained in early 
spirals to provide end points for the subsequent spirals. It also 
allows flexibility in responding to scientific discoveries and program 
direction and the ability to incorporate newly developed technologies 
into subsequent spirals through a pre-planned integration strategy.
    The acquisition strategy for a Spiral 1 CEV is using a phased 
approach. The criteria for entering the next phase will be based on 
approval of the CEV Acquisition Strategy and an Independent Cost 
Assessment. By the end of FY 2005, NASA expects to award two contracts 
for Phase I that will direct industry to:

        <bullet>  Conduct a flight demonstration program to validate 
        industry's capability to perform on cost, on schedule and on 
        performance. Additionally, the demonstration will be part of 
        the overall CEV risk mitigation strategy.

        <bullet>  Evaluate NASA's Exploration Systems Research and 
        Technology, Human System Research and Technology, and 
        Prometheus Nuclear Systems Technology themes for potential CEV 
        program integration as part of a concerted effort to improve 
        system effectiveness and affordability.

        <bullet>  Conduct a series of trade analyses on critical 
        performance drivers for the purposes of identifying threshold 
        and objectives for Phase 2 of the CEV contract. Affordability, 
        sustainability, and extensibility to future spirals will be the 
        focus of the analyses.

        <bullet>  Participate in a NASA-led System Readiness Review and 
        Preliminary Design Review for the human-rated CEV.

        <bullet>  Provide an iterative analysis of cost, risk and 
        performance based on realistic timelines and estimates of cost.

        <bullet>  Provide a risk management plan, which will mitigate 
        program uncertainties by establishing priorities, options, 
        adequate margins of safety, and ``off-ramps.''

    CEV Phase 1 actually began with a draft Request for Proposals (RFP) 
released in January 2005 seeking industry, academia and NASA Center 
inputs. A final RFP was released March 1, 2005, with planned contract 
award in September 2005. CEV Phase 1 ends with a planned down select to 
a single prime contractor in late 2008. Phase 2 of the CEV acquisition 
calls for a single contractor to complete the development, test, and 
deployment of a human-rated CEV. After completion of Phase 2, the 
contractor shall provide as government options, sustaining engineering 
services and production capability to support additional flights and 
additional CEV spacecraft. The government may elect to perform a down 
select at any time or not to select either contractor after 2008. ESMD 
has developed a Single Acquisition Management Plan documenting ESMD's 
Overarching Acquisition Strategy for Constellation Systems.
    The benefit of this phased approach is that Milestone A activities, 
specifically trade studies in major areas affecting affordability, 
risk, schedule, and performance, will enable ESMD to determine more 
achievable requirements for the next Phase of development. This 
approach also helps to anticipate and mitigate risk.

Q18.  NASA's FY 2006 budget basically cancels the Glory mission while 
allowing work to continue on the instrument. Our understanding, though, 
is that the contract for the satellite will actually be canceled this 
month. Is that right? How likely is it that NASA will find another 
satellite on which to launch Glory?

A18. In FY 2005, NASA is continuing development of the Aerosol 
Polarimetry Sensor (APS) and Total Irradiance Monitor (TIM) instruments 
and continuing the contract effort to refurbish the Vegetation Canopy 
Lidar bus as a dedicated spacecraft for Glory. NASA is currently 
assessing launch options for both dedicated and co-manifested launch 
vehicle configurations.

Q19.  If the Shuttle's failure rate in the past (two failures in 113 
flights) is taken to be the best estimate of its future rate of 
failure, a simple calculation shows that the probability that we will 
lose another Shuttle in 28 flights is more than 41 percent. Does this 
seem accurate to you? What is NASA's estimate of the probability that 
another Shuttle will be lost over the next 28 flights? Over the next 20 
flights?

A19. Through implementation of NASA's Return-to-Flight activities, the 
Agency has made substantial organizational and technical improvements 
that we believe will reduce the failure rate of the Shuttle below the 
historical level. This includes redesigns to address the cause of the 
Columbia accident and improvements in our knowledge of the state of the 
vehicle during various mission phases. We have also improved our 
ability to address the inherent risk of human space flight with a 
thorough review of individual and integrated risks. However, even after 
we have returned the Shuttle to flight and examined the data from the 
initial missions, it will still be difficult to estimate the actual 
risk that a given future mission will be lost.

Q20.  At the hearing, Mr. Jennings made the following statement 
regarding the budget and the number of employees the agency projects it 
will need. ``Going into '07, we are budgeted for about 2,000 less than 
that [18,000 employees], and over the next two years, we are going to 
work to understand our exploration program, and where that competition 
lies, and our assumption is we will remain close to the 18,000 during 
the--through the run-up.'' Please clarify this statement. Specifically, 
how many employees does the agency assume for each year of the five-
year budget projection?

A20. The President's FY 2006 Budget contains only workforce currently 
known to be funded. It does not include the estimated impact of future 
Exploration Systems competitive decisions or of other Transformation or 
reimbursable activities that may affect the size of the funded 
workforce. The FTE in the FY 2006 Budget are:

         FY 2005: 19,227 (funded by programs and G&A)

         FY 2006: 18,798 (funded by programs and G&A)

         FY 2007: 16,738 (funded by programs)

         FY 2008: 16,715 (funded by programs)

         FY 2009: 16,586 (funded by programs)

         FY 2010: 16,415 (funded by programs)

    As to the need for workforce in addition to that currently funded 
by programs, we can only estimate the results of the ongoing activities 
that will define such needs. These include competitions for major 
elements of work associated with the Exploration program and all other 
Transformation activities underway. Within those bounds of uncertainty, 
we estimate that the NASA workforce funded by programs as we move into 
FY 2007 could be as much as 2,000 lower than it is today. Beyond that 
point, as the Exploration program ramps up, and as Centers transform 
themselves to facilitate bringing in non-NASA work aligned with their 
capabilities, it is possible that the NASA workforce may grow back to 
where it is today or higher. However, the skill mix and distribution of 
that workforce will almost certainly be different.
    There is still a significant amount of FY 2007 programmatic money 
not yet assigned. This relatively high level of uncertainty was caused 
by major changes to the workforce. Planning assumptions between the FY 
2005 and FY 2006 budgets:

        1.  The Vision for Space Exploration

        2.  Requirements for the safe return-to-flight of the Space 
        Shuttle

        3.  Reprioritization within the major program areas (Mission 
        Directorates)

        4.  An increased emphasis on competition to identify the 
        optimum mix of civil servants, contractors and university 
        employees performing NASA work

        5.  An effort to maximize the resources available for direct 
        mission objectives vs. indirect support functions

    There are ongoing efforts to match needed skills with funded work. 
In addition, there will be billions of dollars of work available for 
competition as the Exploration program proceeds with its overall 
program definition, as well as its systems engineering and integration 
effort and Crew Exploration Vehicle activity. There will also be work 
available in various competitive science areas, such as the Discovery 
and Mars programs.
    NASA's ongoing health assessment of its core competencies may 
result in the application of additional program resources to sustain 
critical workforce. It is anticipated centers will pursue reimbursable 
work for non-NASA customers in their areas of special competence. 
Centers may also consider alternative management structures for more 
flexibility to pursue reimbursable tasks.
    As a result of these efforts, many of the FTEs not yet supported 
will likely be matched with funded requirements. It is also true that a 
significant number may not be, at least by the start of FY 2007. The 
best we can do is to offer an estimate based on what we know now and 
our judgment about how and when the various issues in the planning 
process will be resolved. We are working to reduce the uncertainty as 
quickly as possible.

Questions submitted by Representative Bart Gordon

Q1.  What was the rationale for the policy decision to accept a multi-
year gap after the Shuttle is retired during which time the United 
States will have no currently identified U.S. means of getting its 
astronauts into space and to and from the International Space Station?

Q1a.  Was it budgetary?

Q1b.  If not, what was the rationale?

A1a,b. It is important to note that the President's Vision for Space 
Exploration called for the Crew Exploration Vehicle to be ready no 
later than 2014. Administrator Griffin has stated his determination to 
endeavor to have the Crew Exploration Vehicle ready earlier than 2014, 
thus reducing any potential ``gap.''
    The decision to not guarantee a U.S. means of getting astronauts 
into space immediately following Space Shuttle retirement was informed 
by budgetary, technical and programmatic factors. These included:

        <bullet>  continuing concerns about Shuttle safety and the need 
        to recertify the Shuttle if it flew after 2010,

        <bullet>  assessments of how long the Shuttle was needed to 
        assemble the Space Station,

        <bullet>  the Space Shuttle's $4 billion to $5 billion annual 
        operating costs,

        <bullet>  the cost and time required to develop a new U.S. 
        capability to launch astronauts, and

        <bullet>  the disadvantages of having no guaranteed alternative 
        U.S. access to space immediately following Shuttle retirement.

Q1c.  What alternatives to a gap were considered, and why were they 
rejected?

A1c. Alternatives were assessed, including not retiring the Shuttle, 
retiring the Shuttle immediately without returning to flight, and 
mandating the CEV be ready by the time the Shuttle retired. These 
alternatives were rejected due to such factors as excessive cost, 
inability to meet international commitments, and technical risk.

Q1d.  If during the multi-year ``gap'' period, the Soyuz spacecraft 
becomes unavailable for either geopolitical or technical reasons, what 
is your backup plan for providing U.S. astronaut access to space/ISS?

A1d. Possible alternatives to the Soyuz include potential commercially 
developed U.S. services that NASA has procured through its ISS cargo 
and crew program. NASA intends to issue its first RFP under this 
program in the summer of 2005. If the Soyuz were unavailable to NASA 
and no commercial services were available, the operation of the Space 
Station would be limited to those periods of time when the Shuttle 
could be docked to the ISS.

Q2.  Given the existence of the Iran Nonproliferation Act as public law 
since 2000, what was the rationale for continuing to baseline the 
Russian Soyuz as the only means of crew rescue for the International 
Space Station (ISS) for the duration of the ISS program?

A2. Over the last several months, NASA has been participating in an 
interagency coordination process related to INA, which seeks to protect 
our nonproliferation objectives while advancing potential U.S. 
cooperation with Russia on the Vision for U.S. Space Exploration. The 
results of this interagency coordination process will be presented to 
Congress shortly.
    The utilization of the Soyuz spacecraft as the baseline crew rescue 
vehicle of the ISS is a result of an evolution of capabilities, partner 
commitments, costs challenges, the Columbia tragedy and changes in 
national priorities. As one of the ISS partners, the Russians have 
always been committed to providing a crew rescue capability for the 
initial years of ISS operation. The Soyuz is a tested, reliable and 
available capability. We believe our resources are better spent 
utilizing a proven capability, rather than spending time and money to 
develop a new one.
    In order to facilitate the continued use of the Soyuz crew rescue 
capability, the Addendum to the 1996 Balance Agreement, which covers 
necessary Russian services through 2005, was negotiated last year and 
completed interagency concurrence on January 26, 2005. The agreement 
covers ``habitation'' through December 2005 and crew rescue through 
April 2006. Currently, there is on-going interagency coordination on 
negotiation of a comprehensive re-balance. This coordination includes 
the development of an approach that would allow NASA to procure certain 
space goods and services from Roskosmos while maintaining a strong 
stance on nonproliferation issues.

Q2a.  What is your backup plan in case the Soyuz becomes unavailable?

A2a. The Soyuz spacecraft and Soyuz rocket booster have demonstrated a 
remarkable reliability record over their lifetime of operations. With 
the exception of the Space Shuttle, the Soyuz is the only other proven 
spacecraft capable of performing crew transportation and rescue 
operations for the ISS. Possible future alternatives to the Soyuz may 
include commercially developed U.S. services that NASA has procured 
through its ISS cargo and crew program. NASA intends to issue its first 
RFP under this program in 2005. If the Soyuz were unavailable to NASA 
and no commercial services were available, the operation of the Space 
Station would be limited to those periods of time when the Shuttle 
could be docked to the ISS. There are no plans for this mode of 
operation at this time.

Q3.  What are the specific options under consideration by the 
interagency team examining alternatives for dealing with the Iran 
Nonproliferation Act's impact on the International Space Station?

A3. As the United States implements the Vision for U.S. Space 
Exploration, the Administration recognizes the necessity for effective 
cooperation with Russia to further our space exploration goals. At the 
same time, it is imperative that we maintain appropriate U.S. 
nonproliferation policy and objectives in our relationship with Russia. 
Over the last several months, NASA has been participating in an 
interagency coordination process related to INA, which seeks to protect 
our nonproliferation objectives while advancing potential U.S. 
cooperation with Russia on the Vision for U.S. Space Exploration. The 
results of this interagency coordination process will be presented to 
Congress shortly.

Q4.  NASA has encouraged contractors bidding on the Crew Exploration 
Vehicle (CEV) project to include international participants on their 
industry teams. However, it appears that NASA is not seeking or 
expecting cost sharing by the governments of the non-U.S. companies. 
Instead, NASA apparently plans to pay the non-U.S. companies with U.S. 
taxpayer dollars.

Q4a.  Is that accurate--will American taxpayer dollars be used to pay 
non-U.S. companies for their participation in the CEV project?

Q4b.  If so, what is the rationale?

A4a,b. One of the goals of the Vision for Space Exploration is to 
promote commercial and international participation in exploration to 
further U.S. scientific, security, and economic interests. Exploration 
Systems is committed to fulfilling the Vision in an expeditious and 
cost-effective manner. The scope of international participation in the 
Vision is still being defined. In the areas of advanced concepts and 
technologies, Exploration Systems Mission Directorate (ESMD) has 
pursued ways of procuring foreign capabilities and expertise in areas 
where domestic sources are either unobtainable or the foreign sources 
reduce risks to the development of ESMD systems. As such, ESMD has been 
open to teaming arrangements between domestic and foreign vendors who, 
by linking their capabilities, are able to provide a better product for 
the American taxpayer than separate efforts would otherwise yield.
    Additionally, ESMD has been open to teaming arrangements between 
U.S. and foreign companies on the Crew Exploration Vehicle (CEV) 
Request for Proposal where U.S. capabilities are optimized by the 
foreign capability. NASA has not sought cost-sharing arrangements at 
this time for such potential teaming arrangements in order to ensure an 
even competitive environment for U.S. industry.
    NASA has not excluded the possibility of seeking cost-sharing 
arrangements in the future, so long as such arrangements do not 
introduce undo complications to the industry-to-industry relationship, 
result in an unfair competitive advantage to one industry team, or 
place foreign government support on the critical path for the CEV.

Q5.  When John Young, the highly decorated astronaut, finally retired 
from NASA at the end of the year, he gave an interview on December 17th 
in which he was asked about whether NASA's safety culture had changed 
in the two years since the Columbia accident. He said, ``I was in the 
astronaut office the other day and I asked them how many people thought 
NASA had changed its culture and nobody raised their hand. There were 
about a hundred people there, so that's how they feel now.''

Q5a.  That is a very troubling assessment from people inside the agency 
who are in a position to know. Would you care to comment?

A5a. The Columbia Accident Investigation Board (CAIB) report indicated 
that positive change to the NASA safety culture would be difficult to 
accomplish. Nevertheless, in the year and a half since the CAIB 
released its Final Report, NASA has significantly strengthened its 
safety organizations and culture. Following the CAIB's recommendations, 
we have established an Independent Technical Authority that operates as 
the warrant holder for all Space Shuttle waivers, deviations, and 
exceptions and acts as an independent check on engineering issues. We 
have created a NASA Engineering and Safety Center to act as a source of 
engineering expertise that is not tied to any one particular program 
and can be called upon to provide in-depth and independent analysis of 
complex technical issues. We have enlisted the services of Behavioral 
Science Technology, Inc. (BST), an industry leader in behavior-based 
performance improvement, to identify specific cultural and 
communications issue throughout the Agency and help develop mitigation 
strategies to resolve those issues. We are in the process of an Agency-
wide organizational transformation that has as one of its goals the 
elimination of communication barriers that can pose risks to safety.
    All of these changes are designed to enhance the ability of 
individuals to voice their opinions without fear of retribution or 
marginalization. The results of recent BST cultural surveys across NASA 
suggest that we have made some significant progress, in a very short 
period of time, in opening up communications between line operators and 
managers. Such improvements will have a positive impact on NASA's 
overall safety culture. The job is never done, and changes to culture 
tend to take a long period of time, but we feel that we have made a 
very positive start.

Q5b.  How confident are you that the safety culture will be strong 
enough at the time the Shuttle is scheduled to return-to-flight? On 
what do you base that conclusion?

A5b. The ultimate strength of a safety culture is evidenced in the 
ability of individuals working throughout the organization to elevate 
concerns to the appropriate level of management and be confident that 
those concerns will be thoroughly vetted. We believe that there is 
ample evidence of such a strong safety culture in the Space Shuttle 
program supporting Return-to-Flight. For example, we have pushed back 
the Return-to-Flight date on several occasions so as to give ample time 
to fully meet all of the CAIB recommendations and Space Shuttle 
program-initiated activities. The Space Shuttle program is sharing our 
lessons learned, issues, options and ultimate decisions on how to 
proceed with implementation of Return-to-Flight activities by fully 
documenting them in the Implementation Plan for Space Shuttle Return-
to-Flight and Beyond, which is now in its ninth revision. A key aspect 
of preparing for the upcoming mission has been a series of simulations 
where the Mission Management Team is presented with a variety of 
problems that could arise during a mission, and must investigate the 
problem and determine how to proceed. This is one example of 
opportunities for our Space Shuttle team to practice the types of 
behaviors we are stressing in our culture change activities, including 
understanding and assessing minority opinions. The Mission Management 
Team simulations have included external observers who provide feedback 
to the team. The Return-to-Flight Task Group, an advisory committee co-
chaired by Richard Covey and Thomas Stafford, provides an independent 
check on--and an unprecedented level of external scrutiny of--NASA's 
implementation of the CAIB recommendations. There are multiple, 
independent avenues for safety concerns to be elevated to senior 
program managers, and all of those avenues have been fully exercised 
over the past two years. We are confident that our safety culture is 
significantly stronger than it once was and that, while space flight 
can never be without risk, the safety culture is fully ready to support 
the Shuttle's return-to-flight.

Q6.  NASA has canceled funding for a Hubble servicing mission in the FY 
2006 budget.

Q6a.  What will happen to the civil servant and contractor workforce 
involved with Hubble servicing, and when?

A6a. The Administrator plans to review the possibility of conducting a 
Shuttle servicing mission to the Hubble once the Shuttle has returned 
to flight. Any final determination regarding the fate of the civil and 
contractor workforce associated with Hubble servicing must await the 
conclusion of that review.

Q6b.  If Congress or a new NASA Administrator decides to reinstate a 
Shuttle servicing mission to Hubble, what civil service and contractor 
workforce will be required to complete the mission within the required 
timetable?

A6b. On the Hubble program side, the workforce involved with ongoing 
operations, life extension, and de-orbit activity is essentially the 
same workforce that would be required to support a Shuttle servicing 
mission. Space Shuttle workforce requirements are relatively 
insensitive to the mission.

Q6c.  Does NASA have that workforce in place now?

A6c. Yes, NASA has that workforce in place now.

Q6d.  What additional funding would be required in FY05 and FY06 to 
cover the non-Shuttle-related costs of a Shuttle servicing mission to 
Hubble?

A6d. The Administrator plans to review the possibility of conducting a 
Shuttle servicing mission to the Hubble once the Shuttle has returned 
to flight. Any final determination regarding funding for Hubble 
servicing must await the conclusion of that review.

Q7.  Your testimony indicates that you have established ``core 
competencies'' at each of the NASA Centers that ``must be maintained in 
order for the Agency's mission to be achieved.'' You also say that 
these competencies will be funded through competition for work. What 
specifically are you going to do to retain the core competencies in a 
particular area at any given Center over those periods when there is 
insufficient project funding to cover the workforce and facility costs?

A7. We are currently engaged in a process to assess the health of all 
NASA Core Competencies, a process that will be repeated on an annual 
basis in conjunction with the budget development. As part of this 
assessment, we may use peer reviews, external awards, patents, and 
benchmarking to validate that NASA's core competencies remain 
competitive. Our core competencies sustainment strategy focuses on 
competition as the preferred approach for bringing to a Center the 
necessary level of work to sustain a core competency. However, this 
strategy further provides for alternative sustainment approaches when, 
for example, a gap in competition opportunities puts a core competency 
at risk. The Centers will be responsible for identifying where they are 
unable to sustain the critical level from the resources available to 
them. Mission Directorates will then be responsible for providing 
needed resources through direct work assignments to the Center if 
necessary. If that is not feasible, the Mission Directorates are then 
responsible for bringing the issue forward to the Agency leadership 
where a tailored investment strategy will be developed.

Q8.  Please provide both the actual civil service and the actual 
contractor workforce levels broken down by Center (including HQ) for 
the years FY 2004 and 2005, and also the projected civil service and 
contractor workforce levels broken down by Center (including HQ) that 
are assumed in the FY 2006 budget request for each of the years FY 2006 
through FY 2010.

Q8a.  How many of the current civil service employees does the FY 2006 
budget request assume will no longer work at NASA by FY 2007?

A8a. The chart below shows the NASA workforce requirements as 
identified by the existing Agency programs. These numbers do not 
reflect additional workforce that will be required as Centers are 
awarded additional projects currently identified in the budget for 
future competitions. As shown in the chart, NASA's budgeted workforce 
decreases by 2060 FTE from FY 2006 to FY 2007 as part of the 
transformation of the agency to fulfill the new Vision. There are 
ongoing efforts to match needed skills with funded work both at the 
Centers currently showing reductions and at other Centers that continue 
to hire. There is still a significant amount of FY 2007 programmatic 
money not yet assigned. There will be work available for competition as 
the Exploration program proceeds with its overall program definition, 
as well as its systems engineering and integration effort and Crew 
Exploration Vehicle activity. There will be work available in various 
competitive science areas, such as the Discovery and Mars programs. 
NASA's ongoing health assessment of its core competencies may result in 
the application of additional program resources to sustain critical 
workforce. It is also anticipated that Centers will pursue reimbursable 
work for non-NASA customers in their areas of special competence. 
Because of these ongoing activities, FTEs currently not supported may 
yet be matched with funded requirements.
    NASA's performance based procurements are not managed or budgeted 
by contractor head count, so accurate projections of the contractor 
workforce are not possible.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q9.  Please provide a breakdown by specialty and by Center of the 
number of civil servants that have been identified as ``excess 
competencies.'' What were the criteria used to determine who falls into 
the ``excess competency'' category?

A9. NASA has identified those positions that do not support a funded 
program or project and, therefore, must be funded through Center 
overhead funds. These are referred to as ``unfunded capacity.'' Some of 
these ``unfunded capacity'' positions include competencies that we know 
will not be needed in their current quantity to support the Agency's 
new Vision and those are the competencies that are currently part of 
our buyout activities.
    NASA will maintain the workforce necessary to assure the health of 
the core competencies the Mission Directorates rely on. We are 
currently engaged in a process to assess the health of all NASA's core 
competencies, a process that will be repeated on an annual basis in 
conjunction with budget development. Our core competencies sustainment 
strategy focuses on competition as the preferred approach for bringing 
to a Center the necessary level of work to sustain a core competency. 
However, this strategy further provides for alternative sustainment 
approaches when, for example, a gap in competition opportunities puts a 
core competency at risk. The Centers will be responsible for 
identifying where they are unable to sustain the critical level from 
the resources available to them. Mission Directorates will be 
responsible for providing needed resources, or if that is not feasible, 
bringing the issue forward to the Agency leadership where a tailored 
investment strategy will be developed.
    It is anticipated that Centers will pursue reimbursable work for 
non-NASA customers in their areas of special competence. Centers may 
also consider alternative management structures for more flexibility to 
pursue reimbursable tasks. Once this analysis is completed, NASA will 
be in a position to more precisely identify its excess workforce 
competencies.

Q10.  Administrator O'Keefe testified to our Committee in February of 
2004 that NASA would know whether development of a new heavy-lift 
rocket would be necessary to fulfill exploration mission requirements 
``within this next six months to a year.'' A year has now passed, and 
NASA has still not said whether it will need to develop a heavy-lift 
vehicle.

Q10a.  Why did NASA miss the milestone stated by the Administrator for 
reaching a decision?

A10a. Because the question of heavy lift is so central to the overall 
execution of the Vision for Space Exploration, NASA has moved very 
carefully to ensure that all potential technical, budgetary, and policy 
issues are fully considered and vetted. Since Administrator O'Keefe 
testified before the Committee in February, 2004, there have been a 
number of significant developments, including the release of the Final 
Report of the President's Commission on Implementation of United States 
Space Exploration Policy, the release of a new U.S. Space 
Transportation Policy, and the development of an Agency-wide strategic 
roadmapping process. All of these developments must be carefully 
considered by NASA in the decision process on the need for a heavy-lift 
vehicle.
    NASA has made significant progress in coming to an informed 
decision on the potential role of heavy lift within a mixed launch 
vehicle fleet. Among the issues and trades that NASA is considering are 
the technologies from which a heavy lift vehicle might evolve (Shuttle, 
expendable launch vehicle, or hybrid), the needs of the International 
Space Station in the post-Shuttle environment, potential synergy 
between the needs of the ISS and future exploration requirements, and 
overall cost and schedule impacts. Assessments and recommendations from 
this ongoing evaluation are also being coordinated with other Federal 
Government partners, including the Department of Defense, as directed 
by the new transportation policy.

Q10b.  When will NASA know?

A10b. We expect to have initial results from our roadmapping activity 
complete in May of this year.

Q10c.  What are the specific criteria that will be used in making the 
decision?

A10c. The criteria in making the decision of whether to pursue, and if 
so how best to pursue, an evolved heavy lift option will include 
overall best value to NASA across all present and future missions, 
total life cycle costs, the availability of technology options and the 
cost/risk associated with these options (including the unique 
consideration of human rated/high value payloads), and the potential 
availability of an evolved heavy lift option against our need date.

Q10d.  Is there funding reserved for such a launch vehicle in the five-
year runout of the FY06 budget and if so, how much and in what account?

A10d. No, although long-range budget planning for Constellation systems 
does include some provisions for a heavy lift option. However, these 
plans do not include heavy lift funding as a separate line item in the 
current five-year runout.

Q11.  In 2001, NASA and the Department of Defense entered into a 
collaborative National Aerospace Initiative (NAI). Hypersonics research 
to enable both near-term and longer-term advances in air-breathing 
hypersonics vehicles was considered to be an essential element of that 
Initiative. However, NASA's FY 2006 budget request contains no funding 
for hypersonics research. What is the reason for not providing 
funding--is it budgetary or is there a policy rationale for the 
elimination of the funding? If the latter, what is that rationale?

A11. Through a Congressional special interest item, NASA is currently 
funded to work on the X-43C concept in FY 2005. At present, there is no 
plan to continue funding hypersonics beyond the present year. In FY 
2006 and the near-term, NASA will refocus its resources for the Vehicle 
Systems Program on a limited number of demonstrations. The current four 
programmatic priorities are supersonic low-boom demonstration, a 
demonstration of a zero-emissions vehicle, a demonstration of high 
altitude long-endurance aircraft, and a demonstration of integrated 
subsonic noise reduction. Hypersonics demonstrations may re-emerge as a 
high priority in the out years.

Q12.  When the White House directed NASA to cut its four-year budget 
plan (FY 2006-09) by $2.5 billion relative to the budget plan that 
accompanied the FY05 NASA budget request, the aeronautics program had 
to absorb almost a third of that total cut.

Q12a.  What was the rationale for allocating that fraction of the cut 
to aeronautics?

Q12b.  Who proposed that allocation of the cut--NASA or OMB?

A12a,b. NASA budget formulation was guided by the Exploration Vision 
and other national priorities. Accordingly, resource decisions resulted 
in reductions between the FY 2005 and FY 2006 budget requests, which 
required all Directorates to contribute to deficit reduction. 
Throughout this process, NASA priorities and key milestones were 
retained.
    NASA is transforming its Aeronautics program in the FY 2006 Budget 
request. NASA is simultaneously transforming its Aeronautics Research 
investment to more sharply focus on revolutionary, high-risk, ``barrier 
breaking'' technologies. Toward this end, the NASA Aeronautics Vehicle 
Systems Program (VSP) has been refocused away from evolutionary 
research and technology development of the past and toward more 
revolutionary, ``barrier-breaking'' technology demonstration projects 
that address critical public needs related to reduction of aircraft 
noise and emissions, and enable new science missions. The revolutionary 
technologies developed by NASA within the next decade will form the 
basis for a new generation of environmentally friendly aircraft and 
will enhance U.S. competitiveness 20 years from now. This budget 
supports NASA's emphasis to address basic aeronautical barriers 
confronting our national aviation system and supports research to 
pioneer and validate high-value technologies that enable new 
exploration and discovery, and improve the quality of life though 
practical applications. The President's FY 2006 Budget fully supports 
the Aeronautics program's vital research in Aviation Safety and 
Security and Airspace Systems.

Q13.  Although the NASA Administrator, among others, had showcased the 
Jupiter Icy Moons Orbiter (JIMO) mission as the first flight 
demonstration of the exploration initiative's Project Prometheus 
nuclear technology program, NASA has now indefinitely deferred the JIMO 
mission due to ``concerns over costs and technical complexity.. . .'' 
What were the specific cost and technical issues, and when did they 
emerge?

A13. During the course of conceptual design and trade studies, it was 
determined that the mission requirements directly related to JIMO (such 
as mission lifetime to reach Jupiter) were too complex for a first 
mission to use space nuclear electric power and propulsion. These 
nuclear electric power and propulsion technologies will include a new 
capability to enter into orbit around multiple moons of the outer 
planets for long duration exploration and reconnaissance. Electric 
propulsion technology developed and flown in the past, and terrestrial 
nuclear power system development efforts both provide firm foundations 
upon which to build; but in both cases a flight system would require 
substantial technology maturation including life testing. Although NASA 
never prepared a formal cost estimate, a CBO estimate prepared in 
September 2004 indicated a cost of roughly $10 billion.
    In addition, the JIMO mission concept was developed before the 
announcement of the President's Vision for Space Exploration. As a 
result of NASA's new direction, the needs for and uses of nuclear power 
and propulsion have to be reassessed. NASA is currently reviewing an 
Analysis of Alternatives as well as undertaking a strategic roadmapping 
process to better integrate nuclear technology development with the 
Vision and determine a more suitable and affordable, first flight 
demonstration mission.

Questions submitted by Representative Mark Udall

Q1.  Please provide the risk assessment of the SM-4 Shuttle servicing 
mission that was prepared for Administrator O'Keefe, as well as any 
other safety analyses used by the Administrator in making his 
determination to cancel the SM-4 servicing mission.

A1. Attached is a letter provided to Chairman Sherwood Boehlert on 
March 14, 2005, that responds to your question. [See p. 71.]
    The decision not to pursue a Shuttle servicing mission to the 
Hubble was based on a relative risk analysis and operational 
complexity. The National Academy of Sciences (NAS) report recommended a 
Shuttle-based servicing mission for Hubble, and concluded that a 
Shuttle flight to Hubble was not significantly more risky than a 
Shuttle flight to the International Space Station (ISS). Yet while all 
space flight is inherently risky, there are both on-orbit and ground 
processing requirements that would be notably unique to a Hubble 
servicing mission. While similar issues (thermal protection system 
inspection and repair, contingency Shuttle crew support, and 
potentially rescue) exist for missions to the ISS, they can be 
mitigated more easily, in part due to the increased time available for 
understanding and responding to an emergency situation at the Station. 
For a Hubble servicing mission, the options and available time for 
dealing with an on-orbit emergency are greatly reduced, posing 
additional risk to the mission.
    NASA has developed a five-point flight rationale (addressing safety 
requirements) for Space Shuttle RTF, which is grounded in the 
recommendations of the CAIB and predicated on primary hazard control, 
warning devices and special procedures. The first two elements of that 
flight rationale (Elimination of Critical Debris and Impact Detection 
During Ascent) rely upon Space Shuttle hardware, infrastructure, and 
procedural improvements that broadly apply to all missions, including 
those to destinations other than the International Space Station (ISS). 
However, the efforts of the Space Shuttle program to meet the three 
remaining elements of the RTF flight rationale (On-Orbit Debris Impact/
Damage Detection; On-Orbit Thermal Protection System Repair; and, Crew 
Rescue) assume access to the resources of the ISS. Developing the 
additional capabilities necessary to meet these three elements of the 
flight rationale for a Hubble servicing mission would entail additional 
risks above and beyond those inherent in a mission to the ISS.
    The ISS provides Space Shuttle managers with three critical 
capabilities not found in autonomous missions. First, the ISS serves as 
an independent observing platform for assessing the integrity of the 
Space Shuttle's Thermal Protection System (TPS). Second, the ISS can 
operate as an independent working platform from which Space Shuttle 
crews can conduct repairs to the TPS if necessary. Finally, the ISS 
provides redundancy as a safe haven platform capable of sustaining a 
stranded Space Shuttle crew for a significantly longer period of time 
than the Shuttle alone can.
    To apply this same flight rationale to a Hubble servicing mission, 
NASA would have to develop new capabilities that are analogous to those 
provided by the ISS. The Orbiter Boom Sensor System would have to be 
extensively modified, or an alternative capability would need to be 
created. Specifically, there would have to be new hardware and 
procedures to provide space-walking astronauts a platform from which to 
effect repairs to a damaged TIPS, without increasing the risk of 
further damaging the Orbiter. Additionally, a way would need to be 
found to sustain the crew of a hopelessly crippled Orbiter with limited 
life-support capabilities long enough for a second Shuttle to be 
launched on a rescue mission. That rescue mission, in turn, would need 
to be processed at the same time as the Hubble servicing mission 
itself, a situation which would be highly complex, would require double 
the normal workload on ground launch and processing teams, and would 
put an unprecedented strain on the overall Shuttle system. Finally, a 
rescue mission would require many unproven techniques, such as 
emergency free-space crew transfer in space suits while performing 
Space Shuttle to Space Shuttle station-keeping. Being based at the ISS 
offers the advantages of multiple hatches, airlocks, and established 
docking and evacuation procedures, which would afford a shirt-sleeve, 
nominal transfer of crew from the ISS to the rescue Orbiter.
    New capabilities would need to be built, tested, and validated 
before Hubble had degraded to the point where any reasonable repair 
effort would be impossible. Seeking to develop and validate these new 
capabilities in time for Hubble servicing, as well as process a second 
launch, is contrary to the milestone-driven approach NASA has adopted 
in response to the CAIB recommendations.
    Based on analysis of the relative risks, operational complexity and 
implicit schedule pressure, in February 2004, NASA decided not to 
proceed with a Shuttle servicing mission of Hubble. The new NASA 
Administrator has stated his intention to revisit this earlier decision 
in light of what NASA learns after the Shuttle returns to flight.

Q2.  Please provide NASA's cost estimate for the SM- 4 Shuttle 
servicing mission to Hubble, including a breakdown of it by cost 
category and the specific assumptions included in the cost estimate.

A2. NASA estimates the cost of $1.7 billion-$2.4 billion for SM- 4 --a 
Space Shuttle servicing mission to Hubble. This estimate was provided 
to Aerospace Corporation to assist them in their development of an 
Analysis of Alternatives (AOA) for the Hubble Space Telescope. For 
Space Shuttle missions, the general assumption of five years of 
operations was made. The AOA report provided by Aerospace Corporation 
adjusted that estimate slightly by reducing two years of operations for 
the SM- 4 mission. Aerospace made this adjustment based on their own 
assessments of operations costs, therefore reducing the Space Shuttle 
numbers by two years of operations (worth about $200 million) in order 
to provide a baseline for comparison. The estimates provided are 
considered preliminary only. Additional assumptions included three 
years of Hubble operations after servicing is completed.
    These costs assume completion of required Return-To-Flight (RTF) 
actions for the Space Shuttle fleet and missions to ISS, but RTF costs 
are not included in the $2.4 billion estimate.
    The $2.4 billion includes a small portion of the cost to cover the 
de-orbit.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q3a.  NASA has not committed to providing a ``safe haven'' capability 
for the Space Shuttle at the International Space Station (ISS) beyond 
the first two Shuttle flights after Return-to-Flight. Does NASA intend 
to baseline such a requirement for the duration of the ISS assembly 
phase (running through 2010)? If not, why not?

A3a. NASA has not specifically ruled out the requirement to have a safe 
haven capability for an extended period. We are using safe haven as a 
last resort in the unlikely event that return-to-flight modifications 
are in error and there is a need to safely bring the crew home on 
another vehicle or vehicles.

Q3b.  What specifically would be required to enable a ``safe haven'' on 
the ISS for a combined crew of 9-13 Shuttle/ISS astronauts for 30-90 
days for the duration of the Space Station assembly phase? What changes 
to NASA's current ISS assembly and operations plans would be required?

A3b. By far, the greatest issue with maintaining a safe haven 
capability through 2010 is the adverse impact it would have on 
logistics needs and the upmass impact to the ISS to maintain the 
capability to support the larger crew. The Space Shuttle and 
International Space Station programs are currently assessing the 
logistics requirements needed to support the safe haven capability 
beyond the first two Return-to-Flight missions.

Q3c.  If NASA decides not to baseline a ``safe haven'' capability on 
the ISS for the duration of the ISS assembly phase, will NASA baseline 
a requirement for a backup Shuttle on the launch pad for all remaining 
ISS assembly flights?

A3c. The current safe haven approach does not require a backup Shuttle 
to be on the launch pad at the time of launch. For STS-114, the launch-
on-need vehicle will not have rolled out of the Orbiter Processing 
Facility, given that we launch at the opening of the window on May 15, 
2005. The requirement is to have a backup Shuttle in position to launch 
in sufficient time to meet the defined safe haven support window that 
the ISS offers the combined Shuttle/ISS crew. The requirement and 
timetable for the launch-on-need vehicle in support of STS-121 is 
similar to that for STS-114. The Space Shuttle program is currently 
assessing the launch-on-need requirement for missions after STS-121.

Q4.  NASA is significantly reducing its participation in a number of 
national interagency R&D initiatives in its FY06 budget request, most 
notably the Nanotechnology, Networking and Information Technology, and 
Climate Change Science initiatives. What are the specific reasons for 
each of the funding reductions?

A4. To pursue the Vision for Space Exploration in FY 2006, NASA must 
assemble a much broader portfolio of research than in past years. 
Nanotechnology and National Information Technology Research and 
Development (NITRD) were previously primary focus areas. NASA's 
transformation to the Vision has a much more focused research agenda 
than in previous years. At the same time, the funding available to 
support this broader research portfolio remains roughly unchanged. As a 
result, fewer projects in Nanotechnology and NITRD are competitively 
selected than in previous years.
    In 2006, NASA's Vision for Space Exploration and mission needs for 
Return-to-Flight will affect its participation in the National 
Information Technology Research and Development (NITRD) Program. NASA 
will continue operating the 52-teraflop Columbia computer acquired in 
2004 and 2005 for science and engineering simulation, including 
providing access to this world-class resource for the scientific 
community. Funding for Grand Challenge Applications will be reduced, 
and High-End Computing (HEC) technology research will be completed, 
reducing its HEC I&A (Infrastructure and Applications) participation 
and ending NASA's HEC R&D participation. NASA will continue interagency 
coordination activities in architectures, testbeds, and system 
performance assessment. Funding for research in intelligent systems and 
grid computing has been redirected to more directly address time-
critical agency mission needs related to Return-to-Flight and the 
Vision for Space Exploration, reducing NASA participation in Human 
Computer Interface and Information Management (HCI&IM) and Large Scale 
Networking [including Next Generation Internet] (LSN). NASA investments 
in autonomous systems and robotics are no longer counted as part of 
Software Design and Productivity (SDP), and NASA funding similarly is 
no longer counted as part of Social, Economic, and Workforce 
Implications of IT (SEW). As a result of these reductions and 
redirections, NASA overall funding for NITRD activities changes from 
$162.9 million in FY 2005 to $74.3 million in FY 2006.
    NASA continues its contribution of over $1 billion annually to 
improving our understanding of our Earth's climate. NASA's 
constellation of over 28 Earth-Sun observing satellites provides a host 
of on-going data sources to improve our understanding of Earth's 
climate. NASA is helping to protect this scientific resource by 
providing funding for extended operations of many satellites beyond 
their initial design life. Additional funding is provided in FY 2006 to 
complete several key missions in development, including Calipso, 
Cloudsat, NPOESS Preparatory Project (NPP), and Ocean Surface 
Topography Mission (OSTM). Additional missions in the formulation 
stage, if they are approved to proceed to development, will provide new 
ways to assess the Earth's climate. The percent reduction in CCSP 
elements of the FY 2006 budget reflects a decrease in mission 
operations funding due to several missions reaching the end of their 
operational life and decreased ground network expenditures, along with 
a planned ramp-down in spending on NPP, which is nearing launch. The 
FY06 request also assumes the Glory mission will be an instrument-only 
build.
    NASA continues to make a strong investment in nanotechnology, and 
will invite proposals for nanotechnology development in future 
responses to Broad Agency Announcements. In addition, NASA has had 
discussions with the National Science Foundation concerning strategic 
partnership in various areas of research and technology, including 
nanotechnology.

Q5.  Jupiter's moon Europa ranked very high on the National Academies' 
solar system decadal survey priority list. Since the FY06 budget 
effectively cancels--``indefinitely defers'' to use OMB's language--the 
Jupiter Icy Moons Orbiter (JIMO) project,

Q5a.  Are there any plans for an alternative mission to Europa within 
the next decade?

Q5b.  If so, where will the funding for it come from?

A5a,b. NASA is studying alternative ways to get to Europa. In addition, 
we have opened a dialogue with our international partners, particularly 
the Europeans, regarding this issue. No funding source has yet been 
identified for such alternatives.

Q6.  NASA has for years touted the Space Station's research program as 
benefiting the health and welfare of citizens back here on Earth. Now 
as part of the restructuring of the ISS research program, NASA has 
indicated that it will only focus on exploration-related R&D and will 
largely abandon any research directed at terrestrial applications.

Q6a.  What is the reason for eliminating essentially all non-
exploration-related research on the Station? Why can't it co-exist with 
the exploration-related research program?

A6a. NASA is in the process of realigning its research initiatives in 
order to support the Vision for Space Exploration. Efforts will be 
focused on research that directly supports the future safety and 
effectiveness of Expedition crews. NASA's efforts in the biomedical 
area are focused on research that will result in a significant 
reduction of risk to exploration crews. A curtailment of alternate 
research within our portfolio is necessary due to space-based resource 
limitations.
    The Exploration Systems Mission Directorate (ESMD) recently 
conducted a Zero Base Review of the entire Human Systems Research and 
Technology (HSRT) portfolio which consists of the programs and projects 
of the former Biological and Physical Research Enterprise. This review 
has identified the following research priorities for successful 
implementation of the Vision: space radiation health and shielding, 
advanced environment control and monitoring, advanced EVA, human health 
and countermeasures, advanced life support, exploration medical care, 
and space human factors and behavioral health. One of the conclusions 
reached during the Zero-Base Review suggested that NASA's research 
programs should prioritize medical research on human subjects over 
basic animal, cell, and tissue models. The redirection of the program 
in this way was based on an internal programmatic review and 
assessment, input from NASA's Medical Policy Board Subcommittee on the 
Centrifuge Accommodation Module and Centrifuge, and recommendations 
from the National Academies/Space Studies Board (NA/SSB) report: 
``Assessment of the Directions in Microgravity and Physical Sciences 
Research at NASA.''
    The HSRT Zero Base Review has been completed and results are being 
reviewed and integrated.
    Concurrent to the Zero Base Review activity, NASA is conducting an 
ISS utilization effort to identify the best means by which to use the 
unique ISS platform. Based on the results of the Strategy-to-Task-to-
Technology (STT) prioritization process currently in work, such 
utilization opportunities may include flight experiments to test and 
validate technologies like in-space assembly, cryo fluid management, 
advanced propulsion, and space power systems. NASA is also 
investigating how efficiencies can be gained in the area of payload 
planning, integration of research hardware into the launch vehicle and 
the ISS, crew training, and real-time operations support.
    Additionally, NASA continues to expand its contribution to Earth 
applications of our research technology development investments through 
the Innovative Partnerships Program (IPP). IPP is taking deliberate 
actions to improve the quality of life on Earth from these investments, 
through its current projects, technology transfer, Small Business 
Innovative Research (SBIR), Small Business Technology Transfer (STTR), 
Industry-led partnerships and University-Led partnerships, all 
fostering the creation of benefits throughout all NASA research and 
technology development programs. University-led partnerships include 
the Research Partnerships Centers (RPCs), an established network of 
dual-use research centers located at universities around the U.S., and 
the University Research Engineering Technology Institutes (URETI), a 
consortia of universities pursuing basic research in nano-technology. 
Highly leveraged partnerships such as the RPCs make it possible to meet 
NASA's exploration needs while at the same time fostering the creation 
and delivery of Earth benefits through the industrial partners. The 
leveraging of these partnerships helps to make the exploration vision 
affordable, while the benefits help to make it sustainable.

Q6b.  What are you telling all of the researchers who based their 
career plans on NASA's commitment to support such fundamental and 
applied microgravity research?

A6b. NASA is moving to the next step to implement the knowledge 
gathered by the research community on gravity-driven phenomena in 
biological and physical systems, and we will need the research 
community's further participation in solving more focused, but no less 
challenging problems. The scope of NASA's support to science and 
technology may need to increase as our efforts in space exploration 
become more substantial in the coming years. New areas of emphasis will 
provide opportunities for participants in the previous fundamental and 
applied microgravity research program to contribute to solving problems 
and advancing technologies in areas like in-situ resource utilization 
for life support and spacecraft propellants, in-space multi-phase fluid 
processes for propulsion and power generation, low-gravity processes 
for fabrication and repair, innovative technologies for medical and 
environmental monitoring sensors and integrated control systems, and a 
variety of advanced materials solutions needed for radiation 
protection. The opportunities for contribution from this community have 
not decreased--they have become more focused on space exploration.

Q7.  The last round of Discovery proposals (11) yielded only a 
``Mission of Opportunity'' (the Moon Mineralogy Mapper instrument for 
the Indian Chandrayaan 1 mission) and not a full mission. What will 
happen to the remaining funds? Will they be maintained within the 
Discovery program such that there may be funding for two missions in 
the next round (12)?

A7. The remaining funds will stay within the Discovery Program. The 
surplus early year funding will primarily be used to solve funding 
problems with Deep Impact, Stardust, and Kepler. Funding from about FY 
2007 onward will go toward a potential second selection in the next AO. 
A second mission will only be selected if it is qualified, and if the 
proposed funding can be phased such that it is affordable within the 
current (combined Discovery-11 and -12) budget profile. It is 
anticipated that this will indeed be the case. In the interim, NASA has 
assembled a review team to assess our recent decisions on the Discovery 
Program. NASA expects the results of this review in the coming weeks.

Q8a.  The Deep Space Network (DSN) is receiving a slight decrease from 
last year's budget. Your budget materials acknowledge that the DSN 
infrastructure is starting to show its age and repairs and upgrades are 
going to be needed. Will you have the resources you need for the 
approximately 35 missions the DSN will support this year and to prepare 
for the increasing data needs in future years?

A8a. The DSN will continue to support all current missions. The FY 2006 
budget request and the FY 2005 budget are adequate to support continued 
operation of the DSN. Additional investments will be required in the 
future to support new missions, and to renew aging infrastructure. The 
strategy for making these investments is currently under development.

Q8b.  What repairs and upgrades planned for the DSN to prepare it for 
the increasing data needs expected in future years will be deferred, 
delayed, or otherwise negatively impacted as a result of the FY 2006 
budget and its five-year runout?

A8b. The Science Mission Directorate is working with the Exploration 
Systems Mission Directorate to develop and validate requirements and 
capabilities for future needs. We recognize that the DSN will need 
significant upgrades to satisfy these future needs and are assessing 
infrastructure and performing failure analyses to help determine how to 
focus the effort. The specific plan will be refined as part of the FY 
2007 budget process.

Q8c.  Please provide the seven-year (FY 2004-2010) budget plan for the 
Deep Space Network, broken down by category of expenditure.

A8c. The FY 2006 budget request for the Deep Space Network is shown 
below, by major categories.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q9.  What are the specific ``schedule issues'' that have caused 
Kepler's launch to be delayed apparently indefinitely?

A9. Funding issues within the Discovery Program necessitated a 
reduction in the FY 2005 funding profile for Kepler. The total impact 
of this reduction is still in work, but it is expected to result in a 
six to eight months slip in the Kepler launch date. This means that 
Kepler would launch between June and August 2008.

Q10.  GLAST is having schedule delays in part due to ``withdrawal of 
international partners''--who are these partners, what were they 
responsible for and why have they withdrawn? Besides schedule, what 
else will this withdrawal impact?

A10. GLAST entered development at the end of 2003. The Large Area 
Telescope (LAT) is the primary instrument on this mission, and is being 
developed under a NASA contract with the Stanford Linear Accelerator 
Center, which is operated by Stanford University for the U.S. 
Government Department of Energy. The LAT Principal Investigator 
assembled a consortium that includes the U.S. Department of Energy and 
institutions in France, Germany, Japan, Italy and Sweden to develop and 
build this instrument.
    During project formulation, the Italian Space Agency, ASI, and the 
French Space Agency, CNES, went through budgetary reprioritizations and 
withdrew from some of their GLAST LAT activities; ASI withdrew funding 
for the Malindi ground station in Africa, and CNES determined they 
could no longer provide their input to the LAT. The Italians, however, 
have continued to provide the remainder of their planned contribution 
(a portion of the LAT silicon strip detectors, the majority of the LAT 
tracker production costs, and science support). The French (CNRS/IN2P3 
and CEA/DSM) are providing science support, as well, and CNRS/IN2P3 
continues to supply the calorimeter structures.
    Prior to the aforementioned changes, GLAST had a working launch 
target of September 2006. At the time of Confirmation Review (December 
2003), the baseline schedule launch of May 2007 and the life cycle cost 
of $739.5 million (as reported in the FY 2005 NASA budget request), 
reflected the impact of these two changes in international 
participation.

Questions submitted by Representative Michael M. Honda

Q1.  There has been a reorganization at NASA HQ in order to better 
address the Exploration requirements. What is the impact of this on 
existing contracts, including research contracts and cooperative 
agreements? Will NASA fully honor its existing commitments to the 
University of California and San Jose State University?

A1. In 2004, NASA merged the former Space and Earth Science Enterprises 
into a single Science Mission Directorate with three themes: The 
Universe, Solar System Exploration, and Earth-Sun Systems. The science 
transformation also brought together similar needs/processes for 
engaging the external scientific community in planning/sponsoring 
scientific research, mission solicitation/selection/management, 
advanced technology development, and business management.
    The research and technology development activities of the former 
Exploration Systems Enterprise and former Biological and Physical 
Research Enterprise have been merged and are now both managed in the 
Exploration Systems Mission Directorate (ESMD). Organized in this way, 
ESMD will be able to fully integrate the critical human system element 
with the broad engineering systems infrastructure required for the 
human exploration of the Solar System. This full integration enables 
the early insertion of critical human support requirements to implement 
safety, sustainability, and exploration crew effectiveness.
    The Science Mission Directorate does not plan to terminate any 
research investigations as a result of reorganization at NASA 
Headquarters--on the contrary, the resulting efficiency improvements 
and science coordination will most likely allow SMD to provide 
additional science opportunities. In particular, all current 
commitments from the Science, Exploration Systems, and Education 
Mission Directorates to the University of California and San Jose State 
University will be honored.

Q2.  With mission complexity and duration increasing, the challenges of 
autonomy and software dependability appear to be more important than 
before. What is NASA doing to address these technical challenges where 
it has such aggressive requirements?

A2. NASA has been proactive in addressing software related issues for 
increased mission complexity and duration. The Agency is taking a 
multi-faceted approach to assure software-supporting NASA missions will 
meet the technical challenges associated with an aggressive set of 
requirements. Highlights of the Agency's approach include:

        a)  In the final quarter of 2004, NASA issued a new set of 
        procedural requirements (NPR 7150.2, Software Engineering 
        Requirements) and significantly updated two NASA standards 
        (NASA-STD-8739.8, NASA Software Assurance Standard, and NASA-
        STD-8719.13, Software Safety Standard).

        b)  The NASA Independent Verification and Validation (IV&V) 
        Facility is the Agency's agent for the development and 
        application of independent verification and validation 
        processes and technology to improve reliability and reduce risk 
        in software systems. The NASA IV&V Facility, located in 
        Fairmont, West Virginia, has been performing verification and 
        validation on mission critical software across the Agency's 
        missions and projects for over 10 years.

        c)  In January 2005, the NASA Chief Engineer issued a Technical 
        Warrant for the discipline of software engineering. The goal of 
        the NASA Technical Warrant system is to establish and execute a 
        standard, formal process for delegating technical authority 
        from the Chief Engineer to competent experienced individuals 
        conducting and overseeing high-risk technical work in order to 
        assure safe and reliable operations and missions.

        d)  NASA has funded research to improve the dependability of 
        software intensive systems. Two of these programs of note are 
        the High-Dependability Computing Program (HDCP) and the 
        Software Assurance Research Program (SARP).

        e)  NASA has an ongoing commitment to the NASA Software 
        Engineering Initiative Implementation Plan established in 
        January 2002. This initiative defines a NASA-wide comprehensive 
        approach for improving software engineering to a quantifiable 
        maturity level commensurate with mission criticality in order 
        to meet the software challenges of missions and projects. This 
        initiative employs the common frameworks of the Software-
        Capability Maturity Model (SW-CMM) and the CMM Integrated 
        (CMMI) developed under the auspices of the Software Engineering 
        Institute at Carnegie Mellon University.

        f)  The NASA Engineering Training program provides Agency-wide 
        training to advance software engineering skills and assure 
        critical personnel are properly trained in this discipline.

        g)  The NASA Engineering and Safety Center (NESC) at Langley 
        Research Center maintains a Software Super Problem Resolution 
        Team to coordinate and conduct robust, independent engineering 
        and safety assessments across the Agency.

Q3.  The Vision for Space Exploration is clearly a long-term goal. To 
accomplish such a long-term goal will take long-term stability and 
excellence within the Agency's technical infrastructure. Yet management 
is diverting much of its funds to meet short-term goals while 
sacrificing critical in-house core competencies and science. The 
Columbia Accident Investigation Board warned that excessive downsizing 
of the in-house technical competence contributed to the Columbia 
disaster, but NASA is accelerating this process rather than reversing 
it. How is NASA incorporating this lesson-learned from the Shuttle loss 
into its workforce plan?

A3. NASA is taking a deliberate, thoughtful and targeted approach to 
realigning its workforce to meet the Exploration Vision. This means 
that the competencies needed to accomplish its current and expected 
future work are being identified through an analysis of NASA's core 
organizational and workforce competencies. NASA's workforce will be 
realigned in a manner that ensures retention of needed competencies and 
avoids any skill gaps that may impact the success and safety of future 
missions. NASA's field centers are fully engaged in this review of the 
Agency's competency needs. Their assessments are a critical part of the 
decision process and key to the short- and long-term stability of the 
Agency.

Q4.  I would like to draw your attention to a table on page SD 5-1 of 
the budget materials your agency supplied to Congress. This table shows 
Civil Service Distribution of Full Time Equivalent employees at the 
Centers. I will focus on Ames Research Center in particular, since it 
is adjacent to my district. The table shows what can best be described 
as simple attrition-type decreases in FTEs. However, on February 7th, 
Ames' Center director announced to his entire staff that the FY 2006 
budget would require, among other things, a reduction of about 400 
Civil Service employees and an equal number of on-site contractors over 
the next year and a half. Similar draconian announcements have been 
made by Glenn and Langley's Center directors. Please tell me where do 
the numbers come from in your glossy notebook? And why is NASA telling 
Congress something so vastly different from what the employees at the 
Centers are being told?

A4. The FTE levels on page SD 5-1 represent the NASA workforce only 
through FY 2006 and do not show the workforce currently budgeted for 
funded programs from FY 2007 to FY 2010. The chart below shows the 
complete workforce runout through 2010 and shows the 400 FTE reduction 
in the level of the workforce currently budgeted for funded programs 
through FY 2010 at Ames Research Center. Similar situations exist at 
Glenn and Langley Research Centers. To a degree, these lower budgeted 
workforce levels reflect the fact that we are still engaged in an 
assessment of the workforce required to fulfill the Vision for Space 
Exploration.
    We are matching needed skills with funded work both at the Centers 
currently showing reductions and at other Centers that continue to 
hire. There is a lot of programmatic funding in the budget runout that 
is not yet assigned to a particular center, contractor, or research 
institution. Billions of dollars of work will be available for 
competition as the Exploration program proceeds with its overall 
program definition, as well as its systems engineering and integration 
effort and Crew Exploration Vehicle activity. There will be work 
available in various competitive science areas, such as the Discovery 
and Mars programs.
    We are currently assessing the health of NASA's core competencies 
required to support the Vision, a process that will be repeated on an 
annual basis in conjunction with the budget development. Our core 
competency sustaining strategy focuses on competition as the preferred 
approach for bringing to a Center the necessary level of work to 
sustain a core competency. However, this strategy further provides for 
alternative sustaining approaches when, for example, a gap in 
competition opportunities puts a core competency at risk. The Centers 
will be responsible for identifying where they are unable to sustain 
the critical level from the resources available to them. Mission 
Directorates will be responsible for providing needed resources, or if 
that is not feasible, bringing the issue forward to the Agency 
leadership where a tailored investment strategy will be developed.
    In addition to work associated with the Vision, it is anticipated 
that Centers will pursue reimbursable work for non-NASA customers in 
their areas of special competence. In this regard, Centers may consider 
alternative management structures for more flexibility to pursue 
reimbursable tasks.
    As a result of these activities, the workforce levels in the budget 
runout will increase to the extent additional FTE are needed to support 
identified and funded program requirements.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q5.  I have got some questions about the way in which you are 
introducing a competitive paradigm to the NASA. It appears that in-
house Civil Service employees are marginalized or excluded by chaotic, 
rushed, and unprofessional proposal and review processes and by 
outsourcing quotas. Can you comment on the procedures that have been 
used for both intramural and extramural calls for proposals by ESMD, on 
the shorter timelines provided for intramural proposers, and on the 
pre-determined allocation of greater funds for external calls for 
proposals than internal calls?

A5. New space technology developments are critical to the success of 
the Vision for Space Exploration. However, to have an impact, these new 
developments must be properly focused on the most important technical 
challenges that face NASA in realizing a long-term program of 
exploration that is sustainable and affordable.
    Because several of NASA's technology development efforts must be 
effectively and efficiently focused on exploration, a year long, multi-
step process was used during FY 2004 and early FY 2005 to reformulate 
and refocus ongoing NASA space technology R&D programs. This 
reformulation process began in February 2004 with a `zero base review' 
of ongoing technology projects in the former Mission and Science 
Measurement Technology Program, which were transferred to the 
Exploration Systems Mission Directorate (ESMD) from the Office of 
Aerospace Technology. At the same time, various studies within NASA and 
ESMD better defined initial objectives, schedules, requirements, and a 
spiral development approach for exploration in the context of the 
Vision for Space Exploration. On the basis of the Vision and the 
emerging requirements set, NASA established a new Exploration Systems 
Research and Technology theme (ESR&T) to develop the critical 
technologies needed for future exploration missions. The ESR&T theme 
includes the Advanced Space Technology Program, the Technology 
Maturation Program, the Innovative Partnerships Program, and the 
Centennial Challenges Program.
    Following the creation of the ESR&T theme, a NASA-wide team was 
established (involving every Center and over 100 individuals) to 
implement program-level planning efforts. This team developed content 
for an ESR&T Formulation Plan, which was issued in March, 2004. The 
ESR&T Formulation Plan outlined the major elements of each program, 
identified the technical areas that would be addressed to meet 
exploration mission needs, and established the processes for selecting 
new technology development activities.
    The selection process for new projects involved two separate 
competitions: an Intramural Call for Proposals (ICP) issued in May 2004 
to select projects led by NASA Centers, and a Broad Agency Announcement 
(BAA) issued in July 2004 to select projects led by external 
organizations. Both solicitations were based on the critical technology 
needs identified in the ESR&T Formulation Plan. This two-part selection 
process was designed to encourage partnerships between the NASA Centers 
and external organizations, to insure that the best ideas from all 
organizations would be proposed without concern for intellectual 
property infringement, and that technology development activities would 
be focused on practical applications and successfully infused into NASA 
missions. In the ICP projects, the majority of the work is performed by 
NASA researchers, with participating team members from industry, 
universities, and other government agencies. In the BAA projects, the 
majority of the work is performed by external researchers, with NASA 
personnel participating as collaborators.
    Although both ICP and BAA processes were conducted on an aggressive 
schedule (about 100 days in duration from release of a solicitation to 
announcement of awards), both efforts provided approximately two weeks 
for proposers to develop their one-page, non-binding Notices of Intent 
(NOIs), and 30 days to develop their full proposals.
    Both solicitations were highly competitive. Over 1300 NOIs were 
submitted to the ICP, and these were evaluated for their relevance to 
exploration mission needs by the ESR&T management team at NASA 
Headquarters. Based on the relevance evaluations, 147 NASA 
investigators were invited to submit full proposals. The full proposals 
were then reviewed for technical merit, management approach, and cost 
by an external peer review panel, and 48 intramural projects were 
selected based on the peer review panel recommendations. The ICP 
resulted in $573 million in new project awards.
    For the BAA, over 3,700 Notices of Intent were submitted. A team of 
reviewers from the NASA Centers evaluated the relevance of the NOIs, 
and 498 full proposals were invited. The full proposals were evaluated 
by peer review panels consisting of over 100 non-conflicted NASA and 
university reviewers, and 70 extramural projects were selected. The BAA 
resulted in an additional $1.1 billion in new project awards.
    Guidelines were established for the approximate scope of work to be 
led by either NASA or non-NASA investigators. However, there was no 
`quota' that set fixed limits on the funding that could go to 
intramural versus extramural projects. The actual selections were based 
on the competitive evaluations and the availability of funds. The NASA 
Centers received approximately 50 percent of available program funding, 
both as principal investigators on the intramural projects and as 
collaborators on the extramural projects. The two-part competitive 
selection approach using the ICP and the BAA resulted in over 250 
collaborations among NASA and non-NASA investigators, which was the 
original intent.
    The Exploration Mission Directorate is committed to enhancing all 
of our processes, as we evolve. Thus, based on lessons learned from the 
initial ICP and BAA competitions, we will be adapting our processes for 
future ICP and BAA competitions to ensure that we obtain the best value 
for the government, from all sources, including NASA field centers, 
industry, and universities. Specific suggestions for improvement are 
always welcome.

Q6.  What is going to happen if you realize in the future that some of 
the expert scientists and engineers that you have identified today as 
``excess competencies'' and are eliminating (or planning to) through 
buy-outs and other means are actually required to accomplish the Vision 
and you want to hire those employees back? From what I hear about the 
brutal way employees and contractors are being treated right now, they 
are not likely to want to go to work for NASA in the future and you are 
likely creating future recruiting problems for the Agency among those 
best and brightest scientists and engineers who can expect much better 
treatment from academia and industry even in times of economy hardship. 
If it is necessary to execute Reductions in Force (RIFs), will you 
commit to doing this in a reasonable manner and at a responsible pace 
after consulting with Congress through the annual workforce plan review 
process? Why not require direct funding of R&D Civil Service salaries 
at the centers at maybe half of the current level in FY06, and ramping 
this down over the following couple of years to allow for an orderly 
and fair transition to a more competitive environment? This phase out 
would allow for a smooth and rational transition to Full-Cost 
Management, in which 1) in-house proposers can transition off of their 
current tasks and compete for future funding opportunities and 2) 
Centers can properly shed institutional burdens to reset overhead. It 
would seem that demanding immediate change of both proposers and 
Centers is unrealistic and is driving the unnecessary loss of in-house 
capabilities and expertise.

A6. NASA is taking a deliberate and thoughtful approach to realigning 
its workforce to meet the Exploration Vision. This means that the 
competencies needed to accomplish its current and expected future work 
are being identified through an analysis of NASA's core organizational 
and workforce competencies. NASA's workforce will be realigned in a 
manner that ensures retention of needed competencies and avoids any 
skill gaps that may impact the success and safety of future missions. 
The process for assessing and revisiting the health of our core 
competencies is addressed in the answer to Question 4. All civil 
service staff is funded through FY 2006 to allow us to conduct this 
realignment using a strategic, deliberate approach, with a reduction in 
force as a last resort effort that will only be considered if all of 
our voluntary efforts (job fairs, buy-outs) are not successful. For 
competitive opportunities, Centers are permitted to use overhead rates 
for FY 2005 and FY 2006 that exclude the additional cost burden of 
uncovered capacity, so the overhead rate is ``reset.''

Q7.  How many managers and non-clerical administrative employees does 
NASA employ? How has this workforce sector been changing over the last 
four years? My reading of the numbers is that the ratio has bloated to 
a level of almost one administrative non-clerical employee for every 
two R&D employees (I believe at Ames there are about 400 non-clerical 
administrative employees for about 800 scientists and engineers). How 
do you justify that ratio for an agency with such ambitious technical 
goals? Any private R&D/engineering company with numbers like that would 
be ``transforming'' itself by getting rid of mid-level managers. Why 
isn't NASA planning a focused reduction in its management workforce?

A7. During the last four years NASA's civil servant science and 
engineering positions have increased from 10,957 positions to 11, 287 
positions while non-clerical administrative civil servant positions 
have increased from 4,454 positions to 5,181 positions. The size of 
NASA's non-clerical administrative workforce needs to be viewed in the 
context of NASA's overall science and engineering workforce, which 
includes the contractor workforce. For example, in addition to the 
civil servant population, NASA employs over 25,000 on-site contractor 
staff and another 5,000 employees at the Jet Propulsion Laboratory. 
These employees are predominately involved in science and engineering 
work.
    NASA's civil service professional/administrative workforce serve in 
important business management functions, such as procurement, contract 
administration, and financial management, that are necessary to ensure 
prudent stewardship of resources entrusted to the Agency.

Q8a.  How much of NASA's current workforce turmoil and financial 
uncertainty are due to the Agency's adoption of SAP financial 
management software?

A8a. The current workforce turmoil and financial uncertainty are due to 
Transformational realignment activities, and not SAP software. In FY 
2003, the Integrated Financial Management Program consolidated ten 
Center-based accounting systems and approximately 200 independent sub-
systems and transitioned to a single, Agency-wide accounting system. 
This exposed many problems with the integrity of historical data and 
weaknesses in financial practices and internal controls. Through the 
IFM Program and the Office of the CFO, NASA is in fact working to 
provide greater certainty and confidence in the financial data and 
management information it presents to its managers.

Q8b.  Management policies are often changed to fit the software, rather 
the product fitting the agency's needs. And while this software system 
is something NASA brags about in its budget, because adopting it got 
NASA a green light, rumor has it that it has ``transformed'' the 
process of getting a purchase order from something that used to take an 
hour to something that can now take months. How is this helping run the 
Agency?

A8b. Best practice--and in fact federal guidance--for implementing 
Commercial Off The Shelf (COTS) information technology systems dictate 
changing organizational structures and business processes to fit the 
software, and not the reverse.
    NASA is currently not rated at ``green'' for financial management. 
Nevertheless, we are proud of our achievements, especially given that 
the industry standard shows that less than a third of similar programs 
succeed.
    The SAP solution requires the fiscal discipline of understanding 
basic finance, knowing relevant procurement information, and more 
importantly, having the availability of funding before obligating 
taxpayer dollars. Should an organization or user possess this fiscal 
discipline and have funding available, transaction times are minimal. 
This level of internal control and fiscal discipline is imperative if 
NASA is to be struck from the GAO's High Risk List.

Q8c.  Why was SAP (a German software product) selected as opposed to 
Oracle (a U.S. product)?

A8c. The software selected by NASA was made in accordance with a 
competitive procurement process in line with Federal Acquisition 
Regulations. These regulations require that all federal agencies 
procure from approved suppliers on the U.S. General Services 
Administration's (GSA's) Financial Management Supply Schedule, and that 
any financial systems also be certified by the Joint Financial 
Management Improvement Program (JFMIP.) Neither the GSA nor the JFMIP 
have excluded non-U.S. suppliers.

Q8d.  Why is JPL not using SAP?

A8d. The Jet Propulsion Lab (JPL) is a Federally Funded Research and 
Development Center (FFRDC) operated under contract by California 
Institute of Technology (CaITech) CaITech, in this instance, is like 
any other federal contractor, and is at liberty to operate the business 
software of its choice. Lockheed Martin and Northrop Grumman, two 
significant NASA contractors, have chosen SAP.

Q9.  What is the value of fully completing the ISS if most of its 
scientific capabilities are being abandoned? What exactly is NASA 
expecting to accomplish either technically or scientifically with ISS 
and how does this justify the continued investment of billions of 
dollars and 28 risky Shuttle flights? How specifically does ISS 
contribute to the Exploration Vision given its severely limited 
capabilities? Would reprogramming some ISS, funds (by reducing the 
number Shuttle flights and limiting some ISS goals) over to CEV1 
development allow for an earlier delivery of CEV and associated 
independence from Soyuz (along with the reduced exposure to Shuttle 
failure)?

A9. NASA is in the process of focusing and prioritizing its research 
and technology development efforts for the International Space Station 
(ISS) on areas that best contribute to the Vision for Space 
Exploration. ISS provides a unique environment in which the astronaut 
crew can carry out scientific research, investigating the effects of 
the space environment both on human physiology as well as on spacecraft 
systems. NASA has identified 22 areas of research and technology that 
can be carried out on the International Space Station to reduce the 
risk associated with future human exploration missions. The ISS can 
specifically contribute to the Vision for Space Exploration in areas 
such as: testing and validating performance of closed loop life support 
systems; testing and validating both pharmaceuticals and new exercise 
systems to maintain astronaut health, and; demonstrating technologies 
necessary for future space systems such as thermal control, power 
generation, and management of cryogenic fuels in space.
    In response to the question of whether the CEV could be ready 
sooner, currently CEV development is paced by existing technology 
maturation timelines and the development and demonstration of a 
reliable human-rated launch system, all of which are constrained by 
available resources. While preliminary indications are that the CEV 
development could be accelerated, impacts relative to additional costs, 
performance, program risks, and what actual schedule acceleration can 
be achieved are yet to be determined. The Exploration Systems Mission 
Directorate (ESMD) is initiating a six-month study to determine 
potential CEV schedule acceleration and the concurrent impact on 
performance, cost, and risk. It is unlikely that CEV deployment could 
occur as early as 2010, when the Shuttle will be retired.

Questions submitted by Representative Sheila Jackson Lee

Q1a.  Members of the Committee were told during the NASA budget hearing 
that money for safety activities was not put in its own separate budget 
function but spread throughout the NASA budget.

      What is the combined total amount of funding in the NASA budget 
for safety?

A1a. Safety is one of NASA's core values and is embedded in all we do 
throughout the Agency. There are certain safety related activities that 
can be explicitly identified in our budget, and total over $400 million 
in the FY 2006 request. They include items in Corporate G&A such as the 
NASA Engineering & Safety Center (NESC), Safety & Mission Assurance 
(S&MA), and Independent Verification & Validation (IV&V); Center G&A 
for S&MA; and, Service Pools for S&MA and Independent Technical 
Authority (ITA). However, this approximate $400 million does not 
include the amounts expended routinely within programs and projects 
that contribute to the safety posture of programs and projects outside 
these specific budget categories, nor does it include safety funding 
embedded in the work of NASA's contractors.

Q1b.  How do the total safety budget projections for the next five 
years compare with the last two years?

A1b. For the next five years, FY 2006 to FY 2010, the identified safety 
related budget of over approximately $400 million annually (see (a) 
above) is increasing at approximately the rate of inflation. There have 
been some recent changes to elements of the overall safety and related 
budgets that make it difficult to compare the last two years. These 
changes include the creation of service pools for ITA and S&MA, which 
did not exist previously. However, over the past two years, there have 
been specific increases in the Corporate G&A portion of the identified 
safety and related funding, for both NESC (an expected ramp-up as that 
organization has been established) and S&MA. The total funding for 
these activities increased more than 40 percent from FY 2004 to FY 2005 
and then 16 percent from FY 2005 to FY 2006, after which they level off 
to roughly inflationary increases.

Q2.  How many NASA employees will be laid off due to the proposed plan 
for restructuring? How does NASA project this proposed restructuring to 
affect recruitment, since rumors of layoffs or closings may dissuade 
those who may have wanted to join NASA?

A2. NASA is taking a deliberate and thoughtful approach to realigning 
its workforce to meet the requirements of the Vision for Space 
Exploration. Any reduction in force (RIF) that may be needed has always 
been considered an activity of ``last resort.'' Rather, NASA is 
currently engaged in Agency-wide initiatives to avoid RIF. These 
include offering a second round of voluntary separation incentives 
(``buyouts'') and early retirement opportunities at most Centers in 
April 2005. An earlier round of buyouts was offered in December 2004. 
Also, the Agency just concluded a series of internal job fairs at 
Langley Research Center, Glenn Research Center, Ames Research Center 
and Dryden Flight Research Center designed to realign employees. Hiring 
managers are currently in the process of selecting from among the job 
fair applicants. In addition, the Langley Research Center conducted a 
very successful job fair of private sector employers that they hope 
will provide job opportunities for their employees. NASA is hopeful 
that these and similar future RIF avoidance activities will obviate the 
need for a reduction in force as a result of restructuring.
    In addition, there are ongoing efforts to match needed skills with 
funded work. There will be additional work available for competition as 
the Exploration program proceeds with its overall program definition, 
as well as its Crew Exploration Vehicle activity. Work will also be 
available in various competitive science areas, such as the Discovery 
and Mars programs.
    NASA's ongoing health assessment of its core competencies may 
result in the application of additional program resources to sustain 
critical workforce. It is anticipated Centers will pursue reimbursable 
work for non-NASA customers in their areas of special competence. 
Centers may also consider alternative management structures for more 
flexibility to pursue reimbursable tasks. As a result of these efforts, 
many of the FTEs not yet supported will likely be matched with funded 
requirements.
    NASA will continue to conduct outreach and recruitment activities. 
The Agency needs to be positioned to attract candidates with the 
competencies required to support the Exploration Vision. Additionally, 
we must continue to focus on maintaining a pipeline of recent 
graduates, particularly in the science and engineering fields, and will 
use tools such as the NASA Science & Technology Scholarship Program 
(STSP). This program will award scholarships to individuals to prepare 
them for careers at NASA. In exchange for tuition scholarships and 
stipends, STSP award recipients must agree to fulfill a service 
obligation following graduation. The service obligation equates to 
serving a two-year appointment with NASA for each academic year under 
the scholarship, up to a maximum of four required years of service. As 
always, NASA will also continue to hire students through the Student 
Education and Employment Program. Our ongoing outreach and recruitment 
efforts will ensure that the Agency has the appropriate competencies 
necessary to continue to support NASA's mission.

Questions submitted by Representative Jim Matheson

Q1.  How does NASA actually set its budget priorities?

A1. NASA's budget priorities are guided by the President's direction, 
as outlined in his Vision for Space Exploration announced in January 
2004. His Vision provides a historic opportunity to focus NASA for the 
long-term. The Vision was defined in a policy document called ``A 
Renewed Spirit of Discovery: The President's Vision for U.S. Space 
Exploration.'' NASA has outlined new objectives in ``The New Age of 
Exploration,'' which lays out the new approach to space exploration. 
The FY 2006 Budget Request maintains resolute focus on exploration 
priorities and critical milestones defined by the President's 
direction, and informed by our science priorities. Consistent with the 
Vision, the FY 2006 Budget Request supports critical National needs and 
revolutionary technologies in other priority areas, including 
Aeronautics, Earth Science and Education.

Q2.  Why do you think that sacrificing NASA's science and aeronautics 
programs to fund the exploration initiative will be compelling to the 
Congress, in terms of securing Congressional support? It seems to me 
that the manned missions to the Moon and Mars are being paid for at the 
expense of science missions.

A2. While there were reductions in science and aeronautics programs 
made in the FY 2006 Budget Request relative to earlier plans, those 
reductions were not made to fund the Vision for Space Exploration. In 
the FY 2006 budget request, reductions were required in all four 
Mission Directorates as part of a government-wide effort to reduce the 
deficit, and the need to adequately fund the Space Shuttle return-to-
flight activities. The net reductions relative to FY 2006 plans in the 
FY 2005 budget request were: Science -$274 million; Aeronautics -$105 
million; and Exploration Systems -$406 million. Note that the largest 
reduction was in Exploration Systems.
    NASA continues to support important National priorities in Earth 
Science, Space Science and Aeronautics. Science remains a key driver in 
the Vision for Space Exploration. Funding levels in Science are 
increasing in the FY06 budget request, with an increase of 23 percent 
over current levels by 2010. Furthermore, the overall percentage of 
NASA's budget going to the Science Mission Directorate increases from 
33 percent in 2006 to 38 percent by 2010. NASA continues to build the 
next generation of space telescopes, prepare for robotic missions to 
the Moon and Mars, and develop new technologies to study our own 
planet. In Aeronautics Research, the FY 2006 Budget Request fully 
supports vital research in Aviation Safety and Security and Airspace 
Systems programs in close cooperation with FAA. In Vehicle Systems, the 
program's focus has changed from evolutionary to revolutionary, high-
risk, ``barrier breaking'' technologies.

Q3.  Why did NASA decide to cancel funding for the Hubble servicing 
mission, given its popularity with American citizens and its 
significant contributions to science?

A3. The decision not to pursue a Space Shuttle servicing mission to the 
Hubble was based on a relative risk analysis and operational 
complexity. While all space flight is inherently risky, there are both 
on-orbit and ground processing requirements that would be notably 
unique to a Hubble servicing mission. For a Hubble servicing mission, 
the options and available time for dealing with an on-orbit emergency 
are greatly reduced, posing additional risk to the mission.
    NASA has developed a five-point flight rationale (addressing safety 
requirements) for Space Shuttle RTF, which is grounded in the 
recommendations of the CAIB and predicated on primary hazard control, 
warning devices and special procedures. The first two elements of that 
flight rationale (Elimination of Critical Debris and Impact Detection 
During Ascent) rely upon Space Shuttle hardware, infrastructure, and 
procedural improvements that broadly apply to all missions, including 
those to destinations other than the International Space Station (ISS). 
However, the efforts of the Space Shuttle program to meet the three 
remaining elements of the RTF flight rationale (On-Orbit Debris Impact/
Damage Detection; On-Orbit Thermal Protection System Repair; and, Crew 
Rescue) assume access to the resources of the ISS. Developing the 
additional capabilities necessary to meet these three elements of the 
flight rationale for a Hubble servicing mission would entail additional 
risks above and beyond those inherent in a mission to the ISS.
    To apply this same flight rationale to a Hubble servicing mission, 
NASA would have to develop new capabilities that are analogous to those 
provided by the ISS. The Orbiter Boom Sensor System would have to be 
extensively modified, or an alternative capability would need to be 
created. Additionally, a way would need to be found to sustain the crew 
of a hopelessly crippled Orbiter with limited life-support capabilities 
long enough for a second Shuttle to be launched on a rescue mission. 
That rescue mission, in turn, would need to be processed at the same 
time as the Hubble servicing mission itself, a situation that would be 
highly complex, would require double the normal workload on ground 
launch and processing teams, and would put an unprecedented strain on 
the overall Shuttle system. Finally, a rescue mission would require 
many unproven techniques, such as emergency free-space crew transfer in 
space suits while performing Space Shuttle to Space Shuttle station-
keeping. Being based at the ISS offers the advantages of multiple 
hatches, airlocks, and established docking and evacuation procedures, 
which would afford a shirt-sleeve, nominal transfer of crew from the 
ISS to the rescue Orbiter.
    Based on analysis of the relative risks, operational complexity and 
implicit schedule pressure, NASA has decided not to proceed with a 
Shuttle servicing mission of Hubble.
    In terms of a robotic servicing mission, the Hubble program office 
estimated a cost of $1.3 billion over 39 months, with launch in 
December 2007. Independent reviews have concluded costs could approach 
$2 billion and development schedule could extend past 5 years. Starting 
in 2006, Hubble could begin to lose some pointing control. More 
importantly, batteries are degrading and could become inadequate to 
protect Hubble in the 2008-2009 timeframe, after which point Hubble 
would be unsalvageable. Hubble's orbit will not decay to re-entry until 
the middle of the next decade.
    The National Academy of Sciences (NAS) Report released in December 
2004 concluded that the likelihood of successful Hubble robotic 
servicing was highly improbable. The Report strongly recommended 
termination of robotic servicing in favor of a de-orbit only mission:

         --``[A] robotic mission should be pursued solely to de-orbit 
        Hubble.'' (emphasis added)

    Based on the unambiguous and very strong NAS recommendation, NASA 
can no longer defend continued effort in support of Hubble robotic 
servicing. NASA is developing a plan to refocus the program to a de-
orbit mission. The PDR occurred, but was focused on inventorying work 
done to date and on identifying the best approach to the de-orbit only 
mission. The new NASA Administrator has stated his intention to revisit 
the earlier decision to not service Hubble with Shuttle in light of 
what NASA learns after the Shuttle returns to flight.

Q4.  In what ways could the preservation and extension of the Hubble 
Space Telescope help our understanding of dark energy and provide 
useful insights for future dark energy missions?

A4. Astronomers use measurements of distant supernovae (explosions of 
aged stars) in other galaxies to determine how fast the universe was 
expanding at the time of the explosion that began the life of our 
Universe. The Hubble Space Telescope, along with ground-based 
telescopes, has been used to trace this ``expansion history'' of the 
universe, and has contributed to the recent surprise conclusion that 
the expansion of the universe is currently accelerating (after 
initially slowing down due to gravity). The physical phenomenon behind 
this acceleration is not yet understood and is often termed ``dark 
energy.'' Observations of more supernovae allow the refinement of 
knowledge of the amount of cosmic deceleration and acceleration over 
the history of the universe and better determination of numerical 
parameters that define the ``dark energy.'' Over the next few years, 
the Advanced Camera for Surveys on Hubble will continue to be used as a 
search engine to find many more supernovae. Future telescopes may be 
designed with much larger fields-of-view than available on Hubble in 
order to more efficiently detect many supernova explosions in a shorter 
period.

Questions submitted by Representative Brad Miller

Q1.  Please provide a breakdown of the budget for NASA's commercial 
technology and technology transfer programs for the years FY 2004-2010.

A1. The outyear estimates used to construct the 2006 President's Budget 
are reflected in the chart below.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q2.  In what specific ways have you modified NASA's technology transfer 
programs in response to the National Academy of Public Administration's 
review of those programs?

A2. The goals of the newly organized Innovative Partnerships Program 
(IPP) are to:

        1)  make the Vision for Space Exploration affordable through 
        partnerships; and,

        2)  make it sustainable by creating benefits to the public.

    The Innovative Partnerships Program includes the following elements

        <bullet>  Technology Transfer

        <bullet>  Small Business Innovative Research--SBIR

        <bullet>  Small Business Technology Transfer--STTR

        <bullet>  Industry-Led Partnerships

        <bullet>  University-Led Partnerships

                  The Research Partnership Centers (RPCs)

                  University Research Engineering Technology 
                Institutes (URETIs)

    Responses to National Academy of Public Administration (NAPA) 
recommendations are as follows (numbering corresponds to NAPA Report):

        1.  Demonstrated Leadership Commitment: NASA has committed to 
        an improved technology transfer effort by committing new funds 
        in the FY 2006 President's Budget request. The nominee for NASA 
        Administrator has played a leadership role in technology 
        transfer issues throughout his career, including his membership 
        on the NAPA panel, which reviewed the technology transfer 
        programs at NASA.

        2.  Relocation: The Agency elected to place the Technology 
        Transfer program in the IPP Office within the Exploration 
        Systems Mission Directorate (ESMD). The rationale for this move 
        was to make Technology Transfer an integral part of the 
        technology maturation process, engaging the private sector on a 
        broader level in the Exploration Vision. The Technology 
        Transfer efforts along with the SBIR and STTR programs will 
        continue to support the entire Agency's needs.

        3.  Mission Directorates Responsible for Spin-In: Upon receipt 
        of the NAPA report, ESMD transmitted it to the other Mission 
        Directorates, indicating that in the coming year, there would 
        be a series of dialogues between the IPP office and Mission 
        Directorate staffs. The purpose of these dialogues would be to 
        determine the proper approach in meeting the recommendation. 
        Spin-in, or Technology Infusion, is an integral part of the 
        ESMD mission; it also is for the Aeronautics Research Mission 
        Directorate, which has established its own partnerships 
        function for spin-in. We expect similar results with the other 
        Mission Directorates during the coming months.

        4.  Center Directors Responsible for Spin-Out: Upon receipt of 
        the NAPA report, ESMD transmitted it to the NASA Field Center 
        Directors, calling attention in particular to four of the eight 
        recommendations that would require Center attention and asking 
        the Centers to address those recommendations. The IPP office 
        will be working with its Center counter-parts in addressing 
        these recommendations. As part of this, the IPP instituted 
        formal work package agreements with each of the Centers which 
        established performance goals and standards for the IPP program 
        elements.

        5.  Restructure External Network: NASA's Technology Transfer 
        Element is streamlining its External Network competitively 
        awarding this function to a single contractor managed from 
        Headquarters. A draft Statement of Work has been completed. A 
        contract should be awarded by late summer.

        6.  Web Sites & Information Systems: A new contract for the 
        National Technology Transfer System (TechTracS) has just been 
        selected; working in collaboration with the ESMD and Agency 
        Information Technology personnel and Strategic Communications 
        Office, the web sites will be consistent with agency policies 
        and directives as well as satisfying the recommendation made by 
        NAPA. Other improvements to the information system are also 
        underway, also consistent with the NAPA recommendation.

        7.  Intellectual Property Processing: This recommendation is 
        being worked jointly between the Office of General Counsel 
        (OGC) and IPP; the competitive selection of a central external 
        network contractor (item #5) will also address this 
        recommendation. OGC and IPP are in general agreement, and it is 
        recognized that a number of processes will be affected and 
        improved when the new contract is completed.

        8.  Rigorous Management: Program plans are being finalized, 
        task agreements are in place with all Centers, and regular 
        quarterly program reviews are being conducted, the budget and 
        program planning are more fully coordinated, and stronger 
        centralized management controls are being put in place. The 
        role of the IPP leadership team has been strengthened and has 
        become more focused on strategic planning, long-range goals, 
        and annual objectives with targets and measurable results.

Q3.  Please provide the funding profile for NASA's Space Grant 
fellowship program for the years FY 2004-2010. What is the reason for 
the reduction in funding for the Space Grant program after FY 2006?

A3. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The budget for NASA's Office of Education beyond FY 2006 decreases 
slightly, consistent with the government-wide effort to reduce the 
deficit. During the last few years, NASA's Office of Education 
conducted formal assessments of its education programs, eliminating or 
restructuring those programs determined to be less efficient and 
effective. To accommodate the new lower planning level for FY 2007 and 
beyond, and having already eliminated many less effective programs, it 
was necessary to reduce the planning amounts for remaining Education 
programs and projects, including Space Grant. During the FY 2007 budget 
cycle, we expect to reassess all program budgets, including the Space 
Grant budget, to better identify resource needs. The FY 2007 budget 
request will reflect the results of this reassessment.

Questions submitted by Representative Michael T. McCaul

Q1.  I am happy to see that NASA is making headway in meeting the 
recommendations of the Columbia Accident Investigation Board, and aims 
to return the Shuttle to flight as early as May or June of this year. 
Do you see any specific reason that NASA would not reach its goal of 
May-June for a return flight to space?

A1. All major Space Shuttle flight hardware is at the Kennedy Space 
Center in Florida and is being processed through a normal pre-launch 
flow. Meanwhile, the independent Return-to-Flight Task Group (RTFTG) 
continues to assess NASA's efforts to meet the fifteen Return-to-Flight 
recommendations made by the Columbia Accident Investigation Board 
(CAIB). The RTFTG met in plenary session on March 29-31, 2005 to 
consider the remaining open CAIB Return-to-Flight activities. In the 
words of RTFTG co-chair Richard Covey, ``Right now, we don't see 
anything that stands in front of the Agency that can't be accomplished 
in order to make the May-June [2005] launch window.''
    Nevertheless, this and all future flights will be driven by safety 
milestones. If there is any indication that additional work needs to be 
done to meet those milestones, then the Space Shuttle program will take 
whatever measures are appropriate to ensure that those milestones are 
met--up to and including delaying launches, if necessary.

Q2.  The phase-out date of the Space Shuttle, corresponding with the 
completion of the International Space Station, is slated for sometime 
in 2010, and the Crew Exploration Vehicle (CEV) is not expected to 
carry humans into space until 2014. Will there be no manned flights by 
NASA between 2010 and 2014, and is there a possibility that the CEV 
could be ready sooner?

A2. It is important to note that the President's Vision for Space 
Exploration called for the Crew Exploration Vehicle to be ready no 
later than 2014. Administrator Griffin has stated his determination to 
endeavor to have the Crew Exploration Vehicle ready earlier than 2014, 
thus reducing any potential ``gap.''
    The current schedule for CEV calls for risk reduction 
demonstrations in 2008, followed by uncrewed full up vehicle tests 
commencing in 2011. It is anticipated that Exploration Systems Mission 
Directorate's (ESMD) current acquisition plan will result in the first 
crewed flight of the CEV in 2014. In the interim between Shuttle 
retirement in 2010 and the first crewed flight of the CEV, NASA 
Astronauts will continue to conduct human research activity on the 
International Space Station with transportation provided by the Soyuz, 
and potentially other vehicles.
    In response to the question of whether the CEV could be ready 
sooner, currently CEV development is paced by the maturity of 
technology and the demonstration of a reliable human rated launch 
system, both of which are constrained by available resources. ESMD is 
initiating a six-month study to determine potential CEV schedule 
acceleration and the concurrent impact in performance, cost and risk. 
While preliminary indications are that the CEV development could be 
accelerated, impacts relative to additional costs, performance, program 
risks, and what actual schedule acceleration can be achieved will have 
to be determined--particularly with respect to the human rated launch 
system requirement. It is unlikely that CEV deployment could occur as 
early as 2010, when the Shuttle will be retired.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

</pre></body></html>
